No.

In the Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., APPELLANTS
v.
STATE OF NEW YORK, ET AL.
ON APPEAL FROM THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK

JURISDICTIONAL STATEMENT

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
NICOLE FRAZER REAVES
BRINTON LUCAS
Assistants to the Solicitor
General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

Congress has provided that, for purposes of apportioning seats in the House of Representatives, the President shall prepare “a statement showing the whole
number of persons in each State * * * as ascertained
under the * * * decennial census of the population.”
2 U.S.C. 2a(a). It has further provided that the Secretary of Commerce shall take the decennial census “in
such form and content as he may determine,” 13 U.S.C.
141(a), and shall tabulate the results in a report to the
President, 13 U.S.C. 141(b). The President has issued
a Memorandum instructing the Secretary to include
within that report information enabling the President
to implement a policy decision to exclude illegal aliens
from the base population number for apportionment “to
the maximum extent feasible and consistent with the
discretion delegated to the executive branch.” 85 Fed.
Reg. 44,679, 44,680 (July 23, 2020). At the behest of
plaintiffs urging that the exclusion of illegal aliens
would unconstitutionally alter the apportionment and
chill some persons from participating in the census, a
three-judge district court declared the Memorandum
unlawful and enjoined the Secretary from including the
information in his report. The questions presented are:
1. Whether the relief entered satisfies the requirements of Article III of the Constitution.
2. Whether the Memorandum is a permissible exercise of the President’s discretion under the provisions
of law governing congressional apportionment.

(I)

PARTIES TO THE PROCEEDING

Appellants (defendants in the district court) are Donald J. Trump, in his official capacity as President of the
United States; the United States Department of Commerce; Wilbur L. Ross, Jr, in his official capacity as Secretary of Commerce; the United States Census Bureau,
an agency within the United States Department of Commerce; and Steven Dillingham, in his official capacity as
Director of the United States Census Bureau.
Appellees are the State of New York; the State of Colorado; the State of Connecticut; the State of Delaware;
the District of Columbia; the State of Hawaii; the State of
Illinois; the State of Maryland; the Commonwealth of
Massachusetts; the State of Michigan; the State of Minnesota; the State of Nevada; the State of New Jersey; the
State of New Mexico; the State of North Carolina; the
State of Oregon; the Commonwealth of Pennsylvania; the
State of Rhode Island; the State of Vermont; the Commonwealth of Virginia; the State of Washington; the State
of Maine; the State of Wisconsin; the City of Central Falls;
the City of Chicago; the City of Columbus; the City of
New York; the City of Philadelphia; the City of Phoenix;
the City of Pittsburg; the City of Providence; the City and
County of San Francisco; the City of Seattle; the County
of Cameron; the County of El Paso; the County of Hidalgo; the County of Monterey; Howard County; and the
United States Conference of Mayors (collectively, plaintiffs in the district court in No. 18-cv-5770).
Appellees also include the New York Immigration Coalition; CASA; the American-Arab Anti-Discrimination
Committee; ADC Research Institute; Make the Road
New York, Casa; FIEL Houston, Inc.; and AHRI for Justice (collectively, plaintiffs in the district court in No. 20cv-5781).
(II)

RELATED PROCEEDINGS

United States District Court (S.D.N.Y.) (three-judge
district court):
State of New York v. Trump, No. 18-cv-5770 (Sept.
10, 2020)
The New York Immigration Coalition v. Trump, No.
20-cv-5781 (Sept. 10, 2020)
United States Court of Appeals (2d Cir.):
State of New York v. Trump, No. 20-2630 (Aug. 10,
2020) (assigning three-judge district court)
State of New York v. Trump, No. 20-3142 (notice of
appeal filed Sept. 16, 2020)

(III)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Constitutional and statutory provisions involved...................... 2
Statement ...................................................................................... 2
Reasons for noting probable jurisdiction ................................... 8
I. Appellees fail to satisfy Article III’s requirements ... 12
II. The Presidential Memorandum does not violate
federal statutes governing the census and
apportionment ................................................................ 18
A. The district court’s holding that the
Memorandum requires using information
that is not based on the census contravenes
the statutory framework, longstanding
practice, and this Court’s decisions ....................... 18
B. The district court’s holding that the President
lacks any discretion to exclude illegal aliens
from the apportionment base conflicts with
text, history, and precedent ................................... 23
Conclusion ................................................................................... 34
Appendix A — District court opinion and order
(Sept. 10, 2020)............................................. 1a
Appendix B — District court final judgment and
permanent injunction (Sept. 10, 2020) .. 105a
Appendix C — District court notice of appeal
(Sept. 18, 2020)......................................... 108a
Appendix D — Court of appeals designation of the
three-judge panel pursuant to
28 U.S.C. § 2284(b) (Aug. 10, 2020)........ 110a
Appendix E — District court request to the chief judge
of the U.S. court of appeals for the
Second Circuit for appointment of a
three-judge panel pursuant to 28 U.S.C.
§ [2284](b) (Aug. 7, 2020) ........................ 112a
Appendix F — Constitutional and statutory provisions .... 117a
(V)

VI
TABLE OF AUTHORITIES

Cases:

Page

Arizonans for Official English v. Arizona,
520 U.S. 43 (1997) ............................................................... 12
Bas v. Steele, 2 F. Cas. 988 (C.C.D. Pa. 1818)..................... 27
Clapper v. Amnesty Int’l USA, 568 U.S. 398 (2013) .... 16, 17
Department of Commerce v. New York,
139 S. Ct. 2551 (2019) ................................................... 11, 17
Department of Homeland Sec. v. Thuraissigiam,
140 S. Ct. 1959 (2020) ......................................................... 29
Franchise Tax Bd. v. Hyatt, 139 S. Ct. 1485 (2019) .......... 27
Franklin v. Massachusetts, 505 U.S. 788 (1992) ....... passim
Genesis Healthcare Corp. v. Symczyk,
569 U.S. 66 (2013) ............................................................... 14
Hall v. Hall, 138 S. Ct. 1118 (2018) ................................ 24, 32
Kaplan v. Tod, 267 U.S. 228 (1925) ................................ 30, 31
Lujan v. Defenders of Wildlife, 504 U.S. 555 (1992) .... 12, 16
New York v. United States Dep’t of Commerce,
351 F. Supp. 3d 502 (S.D.N.Y.), aff ’d in part,
rev’d in part, and remanded, 139 S. Ct. 2551 (2019).... 4, 21
O’Shea v. Littleton, 414 U.S. 488 (1974) .............................. 14
Reno v. Flores, 507 U.S. 292 (1993) ..................................... 30
Steel Co. v. Citizens for a Better Env’t,
523 U.S. 83 (1998) ............................................................... 15
Susan B. Anthony List v. Driehaus, 573 U.S. 149
(2014) .................................................................................... 12
The Venus, 12 U.S. (8 Cranch) 253 (1814) ........................... 28
United States v. Munsingwear, Inc., 340 U.S. 36
(1950) .................................................................................... 15
United States Dep’t of Commerce v. Montana,
503 U.S. 442 (1992).............................................................. 18

VII
Cases—Continued:

Page

United States Steel Corp. v. Multistate Tax Comm’n,
434 U.S. 452 (1978)........................................................ 27, 28
Utah v. Evans, 536 U.S. 452 (2002).......................... 18, 22, 25
Warth v. Seldin, 422 U.S. 490 (1975) ................................... 12
Wisconsin v. City of New York, 517 U.S. 1 (1996) ... 18, 19, 20
Constitution and statutes:
U.S. Const.:
Art. I, § 2, Cl. 3
(Apportionment Clause) ............................. 2, 7, 24, 25
Art. III ..................................................................... passim
Amend. XIV ..................................................... 7, 24, 25, 32
§ 2 ............................................................... 2, 24, 25, 28
Act of Mar. 1, 1790, § 1, 1 Stat. 101 ...................................... 25
Act of May 6, 1870, ch. 87, 16 Stat. 118................................ 25
Act of May 23, 1850, ch. 11, 9 Stat. 428................................ 25
2 U.S.C. 2a .................................................................. 7, 8, 119a
2 U.S.C. 2a(a) ....................................................... passim, 119a
13 U.S.C. 141 ............................................................................ 7
13 U.S.C. 141(a) ..................................................2, 19, 23, 121a
13 U.S.C. 141(b) ............................................................. 3, 121a
28 U.S.C. 2284(b) ..................................................................... 5
Miscellaneous:
Cong. Globe, 39th Cong., 1st Sess.:
(1865) ................................................................................ 32
(1866) ................................................................................ 25
Exec. Order No. 13,880, 84 Fed. Reg. 33,821
(July 16, 2019) ....................................................................... 5
Timothy Farrar, Manual of the Constitution of the
United States of America (1867) ....................................... 24

VIII
Miscellaneous—Continued:

Page

83 Fed. Reg. 5525 (Feb. 8, 2018) ............................................ 3
85 Fed. Reg. 44,679 (July 23, 2020) .............................. 4, 5, 29
Samuel Johnson, A Dictionary of the English
Language (6th ed. 1785):
Vol. 1 ................................................................................. 31
Vol. 2 ................................................................................. 31
Letter from John Adams to M. Dumas (Nov. 3, 1784),
reprinted in 8 John Adams & Charles Francis
Adams, The Works of John Adams, Second
President of the United States (1853) ............................... 26
Merriam-Webster’s Collegiate Dictionary
(10th ed. 1997) ..................................................................... 28
The Federalist (Jacob E. Cooke ed., 1961)
(James Madison):
No. 42 .............................................................................. 28
No. 54 .............................................................................. 25
No. 56 .............................................................................. 25
No. 58 .............................................................................. 25
2 The Records of the Federal Convention of 1787
(Max Farrand ed., 1911)............................................... 24, 26
The White House, Statement from the Press Secretary (Sept. 18, 2020), https://go.usa.gov/xGQh2 .............. 16
U.S. Census Bureau, U.S. Dep’t of Commerce:
2020 Census Detailed Operational Plan for: 20.
Federally Affiliated Count Overseas Operation (FACO) (May 28, 2019),
https://go.usa.gov/xGR2r .......................................... 21
Press Release, Statement from U.S. Census Bureau Director Steven Dillingham: Delivering
a Complete and Accurate 2020 Census Count
(Aug. 3, 2020), https://go.usa.gov/xGR2C.................. 4

IX
Miscellaneous—Continued:

Page

U.S. Immigration & Customs Enforcement, Fiscal
Year 2019 Enforcement and Removal Operations
Report (2019), https://go.usa.gov/xG8vT. ......................... 29
1 Emmerich de Vattel, The Law of Nations (1760) ..... 27, 32
1 Noah Webster, An American Dictionary of the
English Language (1828)............................................. 26, 30
Webster’s New International Dictionary of the
English Language (2d ed. 1942) ....................................... 31

In the Supreme Court of the United States
No.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., APPELLANTS
v.
STATE OF NEW YORK, ET AL.
ON APPEAL FROM THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK

JURISDICTIONAL STATEMENT

The Acting Solicitor General, on behalf of President
Donald J. Trump, et al., respectfully requests that the
Court note probable jurisdiction or summarily reverse
the judgment of the three-judge panel of the United
States District Court for the Southern District of New
York.
OPINIONS BELOW

The opinion of the three-judge district court (App.,
infra, 1a-104a) is not yet reported but is available at
2020 WL 5422959.
JURISDICTION

Under 28 U.S.C. 2284, a three-judge district court
was required to be convened because appellees’ suit
challenged on constitutional (and other) grounds the
President’s determination concerning standards for including individuals in the apportionment base for reapportioning congressional districts. See App., infra,
(1)

2
112a-114a; D. Ct. Doc. 34, at 39-41 (Aug. 3, 2020), D. Ct.
Doc. 62, at 64-67, 72-80 (Aug. 6, 2020). 1 The judgment
of the three-judge district court, which included a permanent injunction, was entered on September 10, 2020.
App., infra, 105a-107a. The government filed notices of
appeal on September 18, 2020. The jurisdiction of this
Court is invoked under 28 U.S.C. 1253. See Dothard v.
Rawlinson, 433 U.S. 321, 324 n.5 (1977); White v.
Regester, 412 U.S. 755, 760-761 (1973).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

Pertinent constitutional and statutory provisions are
reproduced in the appendix to this pleading. App., infra, 117a-121a.
STATEMENT

1. The Constitution provides that “Representatives
shall be apportioned among the several States according to their respective numbers, counting the whole
number of persons in each State.” U.S. Const. Amend.
XIV, § 2. To make apportionment possible, the Constitution requires the federal government to conduct an
“actual Enumeration” every ten years in “such manner
as” directed by Congress. Art. I, § 2, Cl. 3.
Congress, in turn, has directed the Secretary of
Commerce to conduct “a decennial census of population
* * * in such form and content as he may determine.”
13 U.S.C. 141(a). Following completion of the 2020 census, by December 31, 2020, the Secretary must submit
to the President “[t]he tabulation of total population by
States * * * as required for the apportionment of Representatives in Congress among the several States.”
All citations of district court documents are to those filed in No.
18-cv-5770.
1

3
13 U.S.C. 141(b) (the Secretary’s report or the report).
By January 10, 2021, the President must “transmit to
the Congress a statement showing the whole number of
persons in each State * * * as ascertained under the
* * * decennial census of the population, and the number of Representatives to which each State would be entitled * * * by the method known as the method of
equal proportions.” 2 U.S.C. 2a(a).
While the President’s role in applying the equalproportions calculation to the apportionment population base is ministerial, his role in determining the population base itself is not. As this Court has recognized,
“§ 2a does not curtail the President’s authority to direct
the Secretary in making policy judgments that result in
‘the decennial census.’ ” Franklin v. Massachusetts,
505 U.S. 788, 799 (1992). Notably, one such “judgment”
is whether a person should be deemed an “ ‘inhabitant’ ”
or “ ‘usual resident’ ” of a State, which is “the gloss” that
has historically been given to the constitutional and
statutory phrase “persons ‘in’ each State.” Id. at 803804, 806 (brackets and citations omitted).
The Census Bureau has promulgated criteria to enumerate most people for decennial census purposes “at
their usual residence,” which it defines as “the place
where they live and sleep most of the time.” 83 Fed.
Reg. 5525, 5533 (Feb. 8, 2018) (Residence Criteria).
“Citizens of foreign countries living in the United
States” are “[c]ounted at the U.S. residence where they
live and sleep most of the time.” Ibid. (emphasis omitted). Foreign citizens visiting the United States (such
as individuals on a vacation or business trip) are not
counted under the Residence Criteria. Ibid. For the
2020 census, individuals are being enumerated through
(1) census-questionnaire responses online, by mail, or

4
by phone; (2) in-person visits by enumerators; (3) proxy
responses given by individuals such as a neighbor or
landlord; (4) high-quality administrative records from
other federal agencies; and (5) potentially, imputed data
from the same area (used as a last resort to fill data
gaps). New York v. United States Dep’t of Commerce,
351 F. Supp. 3d 502, 521 (S.D.N.Y.), aff ’d in part, rev’d
in part, and remanded, 139 S. Ct. 2551 (2019).
Although field operations for the 2020 census were
originally scheduled to end on July 31, 2020, the Census
Bureau has extended field data collection through September 30, 2020, due to the COVID-19 pandemic. See
Press Release, U.S. Census Bureau, U.S. Dep’t of Commerce, Statement from U.S. Census Bureau Director
Steven Dillingham: Delivering a Complete and Accurate 2020 Census Count (Aug. 3, 2020), https://go.usa.
gov/xGR2C (Dillingham Statement). The Census Bureau “intends to meet a similar level of household responses as collected in prior censuses, including outreach to hard-to-count communities.” Ibid. In separate
litigation, there are plaintiffs seeking to prevent the
Census Bureau from winding down its field operations
until October 31, 2020. See, e.g., National Urban
League v. Ross, No. 20-cv-5799 (N.D. Cal.).
2. On July 21, 2020, the President issued a Memorandum to the Secretary of Commerce regarding the
exclusion of illegal aliens from the apportionment population base determined under the 2020 census. 85 Fed.
Reg. 44,679 (July 23, 2020). The Memorandum states
that “it is the policy of the United States to exclude from
the apportionment base aliens who are not in a lawful
immigration status under the Immigration and Nationality Act, as amended, to the maximum extent feasible

5
and consistent with the discretion delegated to the executive branch.” Id. at 44,680 (citation omitted). The
Memorandum directs the Secretary to submit to the
President two tabulations in the Secretary’s report.
One is an enumeration “tabulated according to the
methodology set forth in” the Residence Criteria. Ibid.
The second consists of “information permitting the
President, to the extent practicable,” to carry out the
stated policy of excluding illegal aliens from the apportionment “to the maximum extent of the President’s discretion under the law.” Ibid.
The Census Bureau is still evaluating the extent to
which, as a practical matter, administrative records
pertaining to immigration status can be used to identify
and exclude illegal aliens from the apportionment population count, see Exec. Order No. 13,880, 84 Fed. Reg.
33,821 (July 16, 2019), and is currently formulating a
methodology for potentially accomplishing that, see Dillingham Statement (“A team of experts [is] examining
methodologies and options to be employed for this purpose. The collection and use of pertinent administrative
data continues.”).
3. On July 24, 2020, appellees—a group of States
and localities and a separate group of non-profit
organizations—filed complaints challenging the Memorandum on various constitutional and statutory bases;
the district court consolidated the cases. See App., infra, 4a, 20a-21a. At appellees’ request, a three-judge
district court was convened pursuant to 28 U.S.C.
2284(b). See App., infra, 21a, 110a-111a.
4. On September 10, 2020, the district court granted
partial summary judgment to appellees, held that the
Memorandum violates federal law, and entered declaratory and injunctive relief. App., infra, 1a-104a.

6
a. The district court began by holding that appellees
satisfied Article III’s requirements to seek relief. App.,
infra, 24a-68a. Although the district court thought that
appellees’ first theory of harm from the Memorandum
—based on a hypothetical future change to apportionment
—was likely too speculative, it held that appellees had
standing based on their second theory of harm: that the
Memorandum would “chill” participation in the census.
Id. at 38a. The court concluded that “in the wake of the
Presidential Memorandum, some number of people will
not participate in, and thus not be counted in, the census” because (1) various individuals are afraid of providing the federal government with information about their
citizenship status and (2) illegal aliens may see no reason to participate if they think they ultimately may not
be counted. Id. at 47a; see id. at 30a-35a. The court
determined that this “chilling effect” would harm the
State and local government appellees by degrading census data used for apportioning certain federal funds and
for other purposes, and was harming the non-profit organizations because they were diverting resources to
correct misunderstandings regarding the Memorandum.
Id. at 47a-59a. The court further held that those injuries
were fairly traceable to the Memorandum, rejecting the
government’s argument that the causal link was based
on disinformation about the Memorandum and general
fear among immigrant communities. Id. at 59a-63a.
The district court then concluded that a judgment in
appellees’ favor would redress their harm by “reduc[ing] to some extent their risk of suffering injuries
relating to the census.” App., infra, 65a (internal quotation marks omitted). The court so held notwithstanding that any person purportedly chilled by the Memorandum from responding to the census would not and

7
could not know whether the court’s judgment prohibiting the Secretary from complying with the Memorandum would be reversed on appeal after the census response period closed but before the Secretary actually
sent his report to the President. Id. at 67a-68a.
b. Turning to the merits, the district court held that
the Memorandum violates 2 U.S.C. 2a and 13 U.S.C. 141
by purportedly calling for an apportionment that is not
“based on the results of the census alone.” App., infra,
74a (capitalization and emphasis omitted). The court
read those statutes as requiring that the Secretary “report a single set of numbers”—one tabulation of the total population of each State—based on “the data from
the decennial census,” and that “once the final decennial
census data is in hand, the President’s role is purely
ministerial.” Id. at 75a (citations and internal quotation
marks omitted). In the court’s view, the Memorandum
violates those requirements because the second requested tabulation “will necessarily be derived from
something other than the census itself, as the 2020 census is not gathering information concerning citizenship
or immigration status.” Id. at 78a. The court so held
notwithstanding that the Census Bureau has long used
administrative records, with this Court’s blessing, as
part of the decennial census. Id. at 81a n.15.
The district court also held that the Memorandum
violates 2 U.S.C. 2a(a) by purportedly “defining ‘the
whole number of persons in each State’ to categorically
exclude illegal aliens residing in each State.” App., infra, 83a. The court recognized that this statutory phrase
is identical to the terms of the Fourteenth Amendment,
which in turn echoes language in Article I’s Apportionment Clause, but it declined to examine the history of

8
those constitutional provisions to determine the meaning of their terms at the times they were adopted. Id.
at 87a. The court instead looked to what it perceived to
be legislators’ “understanding of the constitutional language” in 1929, when Congress adopted 2 U.S.C. 2a.
App., infra, 87a. Relying largely on legislative history
concerning proposals to exclude all aliens from the apportionment base, the court concluded that the President lacks “discretion to exclude illegal aliens on the basis of their legal status, without regard for their residency.” Id. at 92a; see id. at 87a-90a.
c. The district court determined that, because the
Memorandum violates federal law, the President’s actions were ultra vires and appellees are entitled to summary judgment. App., infra, 93a-94a. Finding the
permanent-injunction factors satisfied, id. at 94a-100a,
the court enjoined all defendants other than the President “from including in the Secretary’s report to the
President * * * any information concerning the number of aliens in each State ‘who are not in a lawful immigration status,’ ” id. at 99a (citation omitted). The court
also entered a declaratory judgment stating that the
Memorandum is unlawful. Id. at 100a-102a.
REASONS FOR NOTING PROBABLE JURISDICTION

The district court erred in holding that appellees satisfy Article III’s requirements and that the Memorandum violates federal law. Its decision contravenes the
relevant statutes, this Court’s decisions, and historical
practice. If not promptly corrected, the decision will
harm the ability of the Secretary of Commerce to provide a complete report to the President by the December 31, 2020, statutory deadline. This Court should note
probable jurisdiction or summarily reverse.

9
The district court erred at the outset in holding that
the relief awarded will likely redress a cognizable Article III injury to appellees that is fairly traceable to the
Memorandum. There is a fundamental mismatch between the court’s award of relief in the future (prohibiting the Secretary from including information in his report to the President) and a speculative present injury
(the Memorandum’s alleged “chilling effect” on participation in the census). Most important, and as the court
appeared to recognize (App., infra, 46a-47a), even assuming that the Memorandum is chilling participation
in the census, that alleged injury will no longer exist
once field data collection ends (currently scheduled for
September 30); the judgment thus will be moot before
it ever actually takes effect to constrain the Secretary’s
December 31 report. That alone is sufficient basis to
vacate the judgment, at least once field data collection
ends.
That defect underscores why the relief is not likely
to redress the asserted injury at all. Given that the relief may be reversed for mootness or other reasons before the Secretary provides his report to the President,
it is implausible that it would provide sufficient certainty in the present to any person who otherwise would
be “chilled” by the Memorandum from participating in
the census. Neither appellees nor the court have provided a basis to find that there are any individuals, let
alone a material number, who would otherwise be deterred by the Memorandum but now are willing to participate in the census, merely because of the court’s
judgment and despite the realistic prospect that it may
be reversed on appeal. Indeed, appellees have failed to
show that the Memorandum is actually causing a
“chilling effect” injury in the first place, as that alleged

10
harm rests on a chain of contingencies that is far too
speculative and attenuated to satisfy Article III.
In any event, the district court also erred in its
merits holdings. Congress has vested discretion in the
Secretary to determine, subject to the President’s
supervision and direction, how to conduct the decennial
census—and the Executive Branch has long exercised
that discretion by considering administrative records
and data in addition to that obtained by the census
questionnaire. See Franklin v. Massachusetts, 505
U.S. 778, 794-795, 797-799 (1992). That is what the
Memorandum instructs the Secretary to do here. In
holding that this use of administrative records would
somehow cause the apportionment no longer to be
“based on the results of the census alone,” App., infra,
74a (capitalization and emphasis omitted), the district
court fundamentally misunderstood the statutory
framework governing the decennial census, subjected
the government to an unworkable and illogical standard
that has never before been imposed in the history of the
census, and contravened this Court’s precedent. Indeed,
the district court acknowledged that, in Franklin, “overseas personnel * * * were counted using administrative
records rather than a questionnaire,” id. at 81a n.15, yet
provided no coherent explanation as to why the use of
administrative records here is nevertheless impermissible.
Similarly, under the constitutional and statutory
provisions governing apportionment, it has long been
understood that the phrase “persons in each State”
means “inhabitants” (or “usual residents”) and also
vests discretion in the Executive Branch to ascertain
how that indeterminate standard applies to particular
categories of persons with debatable ties to a State. See

11
Franklin, 505 U.S. at 804-806. Here, there is ample historical and structural evidence supporting the President’s policy determination that the standard does not
apply to all aliens living within a jurisdiction without the
sovereign’s permission to settle there. Contrary to the
district court’s conclusion, legislative history from 1929
does not establish the remarkable proposition that Congress broke new ground by requiring the President to
include within the apportionment base for congressional representation all aliens living in this country in
ongoing violation of federal law.
Because the district court’s erroneous judgment interferes with the Secretary’s ability to meet the December 31, 2020, statutory deadline while executing the
President’s policy decision, this Court should summarily reverse or note probable jurisdiction. For the same
reason, the government is separately filing a motion to
expedite the appeal, has sought a stay pending appeal
from the district court, D. Ct. Doc. 171 (Sept. 16, 2020),
and intends to seek a stay pending appeal from this
Court if the district court denies that request. 2

Although the three-judge district court was properly convened
and entered an appealable order, see pp. 1-2, supra, this Court could
avoid any questions in that regard by alternatively construing this
jurisdictional statement as a petition for a writ of certiorari before
judgment and granting it. Cf. Department of Commerce v. New
York, 139 S. Ct. 2551, 2565 (2019) (considering the inclusion of a citizenship question on the census questionnaire after granting a writ
of certiorari before judgment); D. Ct. Doc. 170 (Sept. 16, 2020) (government’s protective notice of appeal to the U.S. Court of Appeals
for the Second Circuit); App., infra, 103a n.21 (district court likewise alternatively issuing its judgment as a single-judge court).
2

12
I. APPELLEES FAIL
REQUIREMENTS

TO

SATISFY

ARTICLE

III’S

The decision below contains numerous Article III errors that each independently justifies a reversal, and all
of which stem from a basic mismatch between the ordered remedy and the identified injury. Most important, the judgment will become moot before it ever
has any constraining legal effect on the government. As
discussed in more detail below, this alone is a sufficient
basis for summary reversal, and the related Article III
errors made by the district court confirm the need for
this Court’s prompt intervention.
A. Under Article III, a plaintiff must establish three
elements: (1) a concrete and particularized injury-infact, either actual or imminent; (2) a fairly traceable
causal connection between the injury and defendants’
challenged conduct; and (3) a likelihood that the injury
will be redressed by a favorable decision. Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560-561 (1992).
Where, as here, a plaintiff seeks prospective relief, the
injury element requires the plaintiff to demonstrate
that the alleged injury is “certainly impending,” or at
least that “there is a substantial risk that the harm will
occur.” Susan B. Anthony List v. Driehaus, 573 U.S.
149, 158 (2014) (citation and internal quotation marks
omitted). And the redressability element requires the
plaintiff to demonstrate that “prospective relief will
remove the harm” or that the plaintiff “personally
would benefit in a tangible way from the court’s
intervention.” Warth v. Seldin, 422 U.S. 490, 505, 508
(1975). Article III’s standing requirements must be
satisfied at the outset of the case and throughout the
entire litigation, including on appeal. Arizonans for
Official English v. Arizona, 520 U.S. 43, 67 (1997).

13
B. The district court’s theory of Article III jurisdiction, see App., infra, 47a-59a, rests on a multi-step
sequence of events. First, appellees assert that there
are a material number of aliens who still have not responded to the census questionnaire but who would do so
before census field operations close were it not for the
“chilling effect” of the Memorandum—even though the
Memorandum does not purport to change the questionnaire or the field data-gathering process, the questionnaire is not collecting information on citizenship or
immigration status, and any data it does collect cannot
be shared with immigration enforcement. Second,
appellees assert that the lack of participation will not be
accounted for by other means during the census enumeration (for example, proxy responses given by other
individuals such as a neighbor or landlord, administrative records from other agencies, and possibly imputation). Third, appellees assert that the degradation in
census data will have an appreciable adverse impact on
them with respect to funding, apportionment, or redistricting. And finally, appellees assert that relief
prohibiting the Secretary from complying with the
Memorandum in his December 31 report to the President will likely redress the Memorandum’s “chilling
effect” on census participation before field operations
close—notwithstanding that such relief cannot currently protect “chilled” individuals from the risk that the
relief may well be reversed on appeal before the Secretary will send his report to the President.
That theory reflects a fundamental mismatch between the court’s award of relief in the future (prohibiting the Secretary from including information in his report to the President) and a speculative present injury

14
(the Memorandum’s alleged “chilling effect” on participation in the census). That mismatch gives rise to multiple independent Article III defects.
1. Most fundamentally, the district court’s judgment
will become moot before it ever goes into effect. Even
assuming that the Memorandum is chilling participation in the census, that asserted injury will necessarily
cease once census field data collection ends, as no one
will be responding to census questionnaires or followup operations. But while the Census Bureau will end
field data collection on September 30, 2020 (or possibly
October 31, see p. 4, supra), the district court’s relief
will take effect only when it prohibits the Secretary
from including the requested information in his report
to the President on December 31.
Thus, before the relief awarded ever actually takes
effect to constrain the government’s conduct, there will
be no injury to redress at all—and no basis, at a minimum, for continuing the relief past the conclusion of
census field operations. Cf. O’Shea v. Littleton, 414
U.S. 488, 495-496 (1974) (“Past exposure to illegal conduct does not in itself show a present case or controversy regarding injunctive relief * * * if unaccompanied by any continuing, present adverse effects.”). Indeed, the district court itself recognized that once field
data collection “end[s],” appellees’ “arguments about
harms to the census count itself would * * * become
moot.” App., infra, 46a-47a; cf. Genesis Healthcare
Corp. v. Symczyk, 569 U.S. 66, 72 (2013) (“If an intervening circumstance deprives the plaintiff of a personal
stake in the outcome of the lawsuit, at any point during
litigation, the action can no longer proceed and must be
dismissed as moot.”) (citation and internal quotation
marks omitted). Although the court nevertheless

15
awarded relief based on those very harms, that inevitable mootness will at the very least be sufficient basis to
vacate the court’s judgment. See United States v. Munsingwear, Inc., 340 U.S. 36, 37 (1950).
2. In addition, the fact that the district court’s relief
will inevitably become moot before it ever has any constraining legal effect on the government reveals a
deeper Article III problem. Absent “relief [that] will
redress the alleged injury” by altering a defendant’s unlawful conduct, the court’s legal determination is “the
same thing as an advisory opinion.” Steel Co. v. Citizens
for a Better Env’t, 523 U.S. 83, 101, 103 (1998). Here,
the court’s judgment will not and cannot provide redress because any possible injuries will have been realized well before the relief ever goes into effect. Indeed,
because the relief ultimately may well be reversed on
mootness or other grounds before the Secretary reports
to the President, it is implausible that the relief currently would provide sufficient comfort to any person
otherwise “chilled” by the Memorandum from participating in the census.
For the entire time field operations continue and
aliens have to make the choice about whether to respond
to the census, it will remain uncertain whether the relief
prohibiting the Secretary from complying with the
Memorandum will actually be in effect on December
31—because the order will remain under review on
appeal. Insofar as any alien has been chilled from
participating in the census by the Memorandum—
notwithstanding that the Memorandum in no way
penalizes participation—it is implausible that the
district court’s relief alone would be likely to eliminate
that chill. Any such alien would remain well aware that
the President still “intends to vindicate [his] policy

16
determination before [this] Court” on appeal and then
“implement [that] policy decision” in his statement to
Congress. The White House, Statement from the Press
Secretary (Sept. 18, 2020), https://go.usa.gov/xGQh2.
At a minimum, neither appellees nor the district court
have provided any evidence to conclude that a material
number of otherwise-chilled aliens are likely to become
un-chilled by a district court decision subject to a
realistic prospect of appellate reversal. See Lujan, 504
U.S. at 566 (“Standing is not an ingenious academic
exercise in the conceivable.”) (citation and internal
quotation marks omitted). 3
The district court rejected that redressability objection based on the misimpression that it would imply a
court could never enjoin a future act. See App., infra,
67a-68a. In typical cases, future acts are enjoined to redress a future injury, and so the prospect of appellate
reversal in the interim is immaterial to redressability:
so long as the future relief is ultimately affirmed, it will
prevent the future injuries. In this unusual case, by
contrast, the future relief purports to redress only present injury from a “chilling effect.” But the prospect of
appellate reversal in the interim renders it implausible
that it will actually redress any chill now. Neither the
district court nor appellees cited any precedent for finding redressability in these unique circumstances.
For similar reasons, even if the district court’s relief were to lead
the non-profit appellees to stop diverting their resources to counteract the Memorandum’s asserted effect on census participation,
see App., infra, 35a-38a, 57a-59a, that would not satisfy Article III.
They “cannot manufacture standing by choosing to make [and then
cease] expenditures” based on speculation about how third parties
may react to the government’s conduct and the court’s relief. Clapper v. Amnesty Int’l USA, 568 U.S. 398, 402 (2013).
3

17
3. In fact, the Memorandum’s alleged “chilling effect” on census participation is too speculative to constitute cognizable Article III injury in the first place. The
“highly attenuated chain of possibilities” that appellees
rely on, see pp. 13-14, supra, does not “satisfy the requirement that threatened injury must be certainly impending.” Clapper v. Amnesty Int’l USA, 568 U.S. 398,
410 (2013). Even if some individuals would be “chilled”
from responding to the questionnaire based on the
Memorandum, neither the district court nor appellees
provided any non-speculative basis to find a sufficient
likelihood that the second and third steps of the chain
will materialize—that lack of participation will not be
accounted for by other means and that degradation in
census data will have a legally relevant impact. And as
for the threshold step, it is far more speculative than the
premise that this Court accepted in Department of
Commerce v. New York, 139 S. Ct. 2551 (2019), which
involved whether a question on the census questionnaire regarding citizenship could reduce census participation. See id. at 2565-2566. Here, in contrast, the alleged “chilling effect” is not premised on an actual question on the census—or any changes to the questionnaire
or field data collection—but rather on a statement from
the President regarding how he intends to tally the total
base number for apportionment following the conclusion of census field data collection.
C. In light of the fatal Article III problems with the
district court’s judgment, this Court should summarily
vacate it—either immediately or at least once field data
collection ends. A prompt vacatur will prevent harm to
the government by ensuring that the Secretary is able
to submit his report to the President in compliance with
the December 31, 2020, statutory deadline, including

18
both tabulations requested by the Memorandum. It will
also avoid any need for this Court to expedite consideration of this appeal for resolution before December
31. Conversely, as discussed, it will cause no injury to
appellees, as any “chilling effect” is not currently being
redressed by the district court’s judgment—and in any
event there will be no activities to “chill” once census
field data collection ends.
To the extent that appellees wish to challenge the actual apportionment that occurs in 2021, such a challenge
is properly brought after the President submits the apportionment to Congress. Appellees then can file a new
suit if they claim to be injured, and the courts can review the statutory and constitutional validity of the apportionment and order relief if appropriate. That would
accord with this Court’s normal approach: to decide
such cases post-apportionment, when the actual apportionment figures are known, and any purported injuries
are no longer speculative. See, e.g., Utah v. Evans,
536 U.S. 452, 458-459 (2002); Wisconsin v. City of New
York, 517 U.S. 1, 10-11 (1996); Franklin, 505 U.S. at
790-791; United States Dep’t of Commerce v. Montana,
503 U.S. 442, 445-446 (1992).
II. THE PRESIDENTIAL MEMORANDUM DOES NOT VIOLATE FEDERAL STATUTES GOVERNING THE CENSUS
AND APPORTIONMENT
A. The District Court’s Holding That The Memorandum
Requires Using Information That Is Not Based On The
Census Contravenes The Statutory Framework,
Longstanding Practice, And This Court’s Decisions

The district court erred in holding that using administrative records to implement the Memorandum’s policy would mean that the apportionment was no longer
“based on the results of the census alone.” App., infra,

19
74a (capitalization and emphasis omitted). The Secretary undoubtedly may choose to make use of administrative records as part of the form and content of conducting the census tabulation of the number of persons
in each State—especially when, as here, he is instructed
to do so by the President, as the user of the Secretary’s
report under the statutory scheme and the supervisor
of the Secretary in the constitutional scheme.
1. As this Court has confirmed, “[t]he text of the
Constitution vests Congress with virtually unlimited
discretion in conducting the decennial ‘actual Enumeration,’ [and] * * * Congress has delegated its broad authority over the census to the Secretary.” Wisconsin,
517 U.S. at 19 (citations and footnotes omitted). In particular, while Congress directed the President to ascertain each State’s apportionment base “under the * * *
decennial census of the population,” 2 U.S.C. 2a(a), it
gave the Secretary the authority, subject to the President’s direction and supervision, to take the “decennial
census of population * * * in such form and content as
he may determine,” 13 U.S.C. 141(a). Here, the Memorandum has directed the Secretary, as part of conducting the census and preparing his report, to supplement
data gathered from the census questionnaires with data
from administrative records concerning the immigration status of census respondents.
This Court in Franklin explicitly rejected the assertion that the Secretary’s initial choices as to the contents of his report must be deemed the one true “decennial census.” See App., infra, 75a. Franklin confirmed
that the President may instruct the Secretary to “reform the census,” including by changing the data considered when enumerating individuals. 505 U.S. at 797798. “[T]he ‘decennial census’ ” thus “still presents a

20
moving target, even after the Secretary reports to the
President,” and “[i]t is not until the President submits
the information to Congress that the target stops moving.” Ibid. Accordingly, the district court erred in holding that the Secretary’s tabulation based on the Census
Bureau’s Residence Criteria contains the only “results
of the census.” App., infra, 79a. Franklin makes clear
that the President has full authority to direct a different
approach—just as the Secretary may overrule the subordinate Census Bureau, see Wisconsin, 517 U.S. at 23
(“[T]he mere fact that the Secretary’s decision overruled the views of some of his subordinates is by itself
of no moment in any judicial review of his decision.”).
The district court also believed that “once the final
decennial census data is in hand, the President’s role is
purely ‘ministerial.’ ” App., infra, 75a (citation omitted).
Based on that premise, the court concluded that the
President has an extremely limited role in determining
the base population for apportionment. See id. at 74a78a. Again, that reasoning flatly contradicts Franklin.
There, the Court made clear that the President’s role is
ministerial only insofar as applying the mathematical
formula for apportioning representatives, after he has
exercised discretion in supervising the Secretary’s determination of the appropriate population base:
The admittedly ministerial nature of the apportionment calculation itself does not answer the question
whether the apportionment is foreordained by the
time the Secretary gives her report to the President.
To reiterate, § 2a does not curtail the President’s authority to direct the Secretary in making policy
judgments that result in “the decennial census”; he
is not expressly required to adhere to the policy decisions reflected in the Secretary’s report.

21
Franklin, 505 U.S. at 799 (emphasis added).
2. Pursuant to the Executive Branch’s discretion,
the decennial census has never tallied the total population for the apportionment based solely on questionnaire responses, and it has often taken into account information from administrative records to correct or
supplement the field data collection process. For the
first 170 years of American census taking, no census
questionnaire for self-response existed because all enumeration was done in person. See New York v. United
States Dep’t of Commerce, 351 F. Supp. 3d 502, 520
(S.D.N.Y.), aff ’d in part, rev’d in part, and remanded,
139 S. Ct. 2551 (2019). And for the 2020 census, individuals have been and will be enumerated through a variety of means in addition to census-questionnaire responses. See pp. 3-4, supra.
The history of the census contains numerous examples of the practice of using administrative records or
similar data when tabulating a State’s population for
purposes of apportionment. For example, “[i]n the 1990
and 2000 censuses,” the counts of overseas members of
the armed forces, federal civilian employees, and their
dependents living with them—which were at issue in
Franklin—“were obtained from federal departments
and agencies and were principally based on administrative records.” U.S. Census Bureau, U.S. Dep’t of
Commerce, 2020 Census Detailed Operational Plan for:
20. Federally Affiliated Count Overseas Operation
(FACO) 3 (May 28, 2019) (emphasis added), https://go.
usa.gov/xGR2r; see Franklin, 505 U.S. at 794-795. Similarly, the Census Bureau has filled gaps in enumeration
data with imputed data that does not result directly
from questionnaire responses. For example, during the

22
2000 census, the Census Bureau imputed a variety of information about unresponsive addresses from similar
addresses that had been personally surveyed by enumerators during field operations. See Evans, 536 U.S.
at 458-459.
It is thus commonplace for the Census Bureau to use
data other than that collected as part of the questionnaire responses or other field operations (such as nonresponse follow-up), and any other approach would be
unworkable and degrade the quality of the census. An
enumeration based solely on questionnaire responses
would be underinclusive because it would fail to enumerate a variety of individuals who reasonably may be
considered inhabitants (e.g., those who refuse to respond and those who are temporarily outside the United
States). Such a limited enumeration would also be overinclusive because there would be no way for the Census
Bureau to correct mistakes or take account of factual
developments (e.g., a response that accidentally counts
a foreign tourist as a resident or mistakenly reports residents who moved after April 1 at their current address
rather than their address on census day).
3. Indeed, the district court acknowledged that the
1990 census at issue in Franklin used “administrative
records rather than a questionnaire” to count overseas
personnel in the first place (not merely to allocate them
among the States). App., infra, 81a-82a n.15. But the
court failed to explain its conclusory assertion that the
administrative records used in Franklin were “part of
the census itself,” ibid., but the administrative records
that would be used under the Memorandum are “something other than the census itself,” id. at 78a.
Insofar as the court suggested that the President
here has directed the Secretary to go beyond the census

23
questionnaire whereas the Secretary in Franklin had
independently chosen to do so at the outset of the census process, that distinction is immaterial given Franklin’s holding that the President may direct the Secretary’s exercise of policy judgment in conducting the
census. And insofar as the court suggested that administrative records may be used to add people to “the census” for whom there were no questionnaire responses
(as in Frankin), but may not be used to remove people
from “the census” who were improperly included in
questionnaire responses (as in the Memorandum), that
is a distinction without a difference under the statute’s
delegation of authority to the Secretary to determine
the “form and content” of the census. 13 U.S.C. 141(a).
B. The District Court’s Holding That The President Lacks
Any Discretion To Exclude Illegal Aliens From The Apportionment Base Conflicts With Text, History, And
Precedent

The district court also erred in holding that 2 U.S.C.
2a(a)’s directive to report “the ‘whole number of persons in each State’ ” deprives the President of any “discretion to exclude illegal aliens on the basis of their legal status.” App., infra, 92a. As the court acknowledged, in the apportionment context, the phrase “ ‘persons in each State’ ” has long been understood to cover
only a State’s “ ‘inhabitants,’ ” a term whose application
“call[s] for ‘the exercise of judgment.’ ” Id. at 83a-84a
(citation omitted). And as text, history, and precedent
reveal, the term “inhabitants” does not completely bar
the President from exercising discretion to exclude illegal aliens.
1. a. Section 2a(a)’s directive that the President’s
report include “the whole number of persons in each

24
State” (excluding untaxed Indians), 2 U.S.C. 2a(a), repeats verbatim the Fourteenth Amendment, see U.S.
Const. Amend. XIV, § 2, which in turn modified Article
I’s Apportionment Clause to end the infamous threefifths compromise, see U.S. Const. Art. I, § 2, Cl. 3. And
“if a word is obviously transplanted from another legal
source,” it generally “brings the old soil with it.” Hall
v. Hall, 138 S. Ct. 1118, 1128 (2018) (citation omitted).
The phrase “persons in each State” has never been
understood in the apportionment context to cover all
persons physically in the country on census day, such as
foreign tourists. See, e.g., Timothy Farrar, Manual of
the Constitution of the United States of America § 405,
at 403 (1867) (“ ‘The whole number of persons in each
State’ cannot mean everybody on the soil at the particular time.”). Rather, the person must be an “ ‘inhabitant’ ” or “ ‘ usual resident’ ” of the State, as that is “the
gloss” that has historically been given to the phrase
“ ‘persons in each State’ ” in this context. Franklin, 505
U.S. at 803-804 (brackets and citation omitted).
That construction is consistent with the Clause’s
drafting history. See Franklin, 505 U.S. at 804-805 &
n.3. The draft Constitution submitted to the Committee
of Style required Congress to “regulate the number of
representatives by the number of inhabitants, according to the rule hereinafter made for direct taxation,”
which in turn rested on “the whole number of free citizens and inhabitants * * * and three fifths of all other
persons not comprehended in the foregoing description,
(except Indians not paying taxes).” 2 The Records of the
Federal Convention of 1787, at 566, 571 (Max Farrand
ed., 1911) (Federal Convention). Consistent with that
background, James Madison repeatedly explained in
The Federalist that apportionment would be based on

25
the number of each State’s “inhabitants.” E.g., The
Federalist No. 54, at 369 (Jacob E. Cooke ed., 1961); see
id. No. 56, at 383; id. No. 58, at 391.
Although the Committee of Style changed the draft
language to provide that apportionment should be
based on each State’s population “determined by adding
to the whole Number of free Persons, including those
bound to Service for a Term of Years, and excluding Indians not taxed, three fifths of all other Persons,” U.S.
Const. Art. I, § 2, Cl. 3, it “ ‘had no authority from the
Convention to alter the meaning’ of the draft Constitution,” Evans, 536 U.S. at 474 (citation omitted). Accordingly, the first enumeration act—titled “an act providing for the enumeration of the inhabitants of the United
States”—directed “the marshals of the several districts
of the United States” to count “the number of the inhabitants within their respective districts.” Act of Mar. 1,
1790, § 1, 1 Stat. 101.
The understanding that the apportionment base was
limited to “inhabitants” was incorporated into the Fourteenth Amendment, which modified the Apportionment
Clause to turn on “the whole number of persons in each
State, excluding Indians not taxed,” U.S. Const. Amend.
XIV, § 2. As a member of the committee that drafted
the Amendment explained, this revision was meant to
fully include former slaves in the apportionment base
but otherwise “adhere[] to the Constitution as it is.”
Cong. Globe, 39th Cong., 1st Sess. 359 (1866) (Rep.
Conkling). The first census following the Fourteenth
Amendment’s ratification was thus conducted in accordance with the same procedures that had been used for
the 1850 census, see Act of May 6, 1870, ch. 87, 16 Stat.
118, which had required “all the inhabitants to be enumerated,” Act of May 23, 1850, ch. 11, 9 Stat. 428.

26
b. Although the phrase “persons in each State” thus
clearly refers to “inhabitants,” the term “inhabitant” is
itself an indeterminate one. See Federal Convention
216-217 (recording Madison’s acknowledgement that
“ ‘inhabitant’ ” was a “vague” word). Consistent with
that indeterminacy, this Court has given the Executive
Branch significant latitude in defining who constitutes
an “inhabitant” for apportionment purposes. In Franklin, the Court upheld the Executive Branch’s decision
to end its longstanding practice of excluding federal
personnel overseas from the apportionment bases of
their home States. 505 U.S. at 806. As the Court explained, the Executive Branch had “made a judgment,
consonant with, though not dictated by, the text and history of the Constitution,” that such individuals “had retained their ties to the States,” ibid., even though that
overseas population had been excluded from their
States’ apportionment bases since 1790 (with two exceptions in 1900 and 1970), id. at 792-793.
The Memorandum here reflects a similar judgment.
During the Founding era, no single definition resolved
the circumstances when an alien constituted an “inhabitant.” Rather, as John Adams explained to a European
correspondent, “[d]ifferent States have different definitions of this word,” and “every stranger who has been
in the United States, or who may be there at present, is
not an inhabitant.” Letter from John Adams to M. Dumas (Nov. 3, 1784), reprinted in 8 John Adams &
Charles Francis Adams, The Works of John Adams,
Second President of the United States 214 (1853). At a
minimum, one had to establish a fixed residence within
a jurisdiction and an intent to remain there. See, e.g.,
ibid. (noting that “[t]he domicil and the ‘animus habitandi’ is necessary in all” definitions); 1 Noah Webster,

27
An American Dictionary of the English Language 110
(1828) (defining “inhabitant” as a “dweller; one who
dwells or resides permanently in a place, or who has a
fixed residence, as distinguished from an occasional
lodger or visitor”) (capitalization omitted); Bas v.
Steele, 2 F. Cas. 988, 993 (C.C.D. Pa. 1818) (No. 1088)
(Washington, Circuit Justice) (concluding that a Spanish subject who had remained in Philadelphia as a merchant for four months “was not an inhabitant of this
country, as no person is an inhabitant of a place, but one
who acquires a domicil there”). That baseline helps explain the exclusion of certain categories of aliens in previous apportionments, such as those temporarily residing here for vacation or business as well as certain foreign diplomatic personnel. See, e.g., J.A. at 80, 103,
Franklin, supra (No. 91-1502); cf. Franklin, 505 U.S. at
805 (discussing history confirming that an American
diplomat stationed overseas could still qualify as an “inhabitant” of his home State) (citation omitted).
But with respect to aliens specifically, the term “inhabitant” could be understood to further require a sovereign’s permission to remain within the jurisdiction.
Notably, Emmerich de Vattel defined “inhabitants, as
distinguished from citizens,” as “strangers, who are
permitted to settle and stay in the country.” 1 Emmerich de Vattel, The Law of Nations, Ch. 19, § 213
(1760). As this Court has observed, Vattel was the
“founding era’s foremost expert on the law of nations,”
Franchise Tax Bd. v. Hyatt, 139 S. Ct. 1485, 1493
(2019), and “[t]he international jurist most widely cited
in the first 50 years after the Revolution,” United States
Steel Corp. v. Multistate Tax Comm’n, 434 U.S. 452, 462
n.12 (1978). Unsurprisingly, prominent figures such as
Franklin, Madison, and Marshall were familiar with

28
Vattel generally, see ibid., and with his understanding
of “inhabitants” specifically, see, e.g., The Venus, 12
U.S. (8 Cranch) 253, 289 (1814) (Marshall, C.J., concurring and dissenting in part) (quoting Vattel’s definition); The Federalist No. 42, at 285-286 (James Madison) (discussing provision of the Articles of Confederation that required every State “to confer the rights of
citizenship in other States * * * upon any whom it may
allow to become inhabitants”) (emphasis added).
That definition of “inhabitants” is also consistent
with this Court’s observation that the concepts of “ ‘inhabitan[ce]’ ” or “ ‘[u]sual residence’ ” can require “more
than mere physical presence, and ha[ve] been used
broadly enough to include some element of allegiance or
enduring tie to a place.” Franklin, 505 U.S. at 804; see
U.S. Const. Amend. XIV, § 2 (apportioning representatives “among the several States according to their respective numbers”) (emphasis added). Concepts of allegiance and enduring ties necessarily place limits on illegal aliens’ qualifying as “inhabitants,” given that they
are subject to removal by the government. Accordingly,
the requirement to include each State’s “inhabitants” in
the apportionment base, whether constitutional or statutory, does not completely eliminate the President’s
discretion to exclude illegal aliens.
2. The district court nevertheless deemed the Memorandum facially invalid because, in its view, “the ordinary definition of the term ‘inhabitant’ is ‘one that occupies a particular place regularly, routinely, or for a period of time,’ ” and that definition “surely encompasses
illegal aliens who live in the United States.” App., infra,
84a (quoting Merriam-Webster’s Collegiate Dictionary
601 (10th ed. 1997)). But to conclude that the Presi-

29
dent’s policy—of excluding illegal aliens “to the maximum extent feasible and consistent with the discretion
delegated to the executive branch,” 85 Fed. Reg. at
44,680—is unlawful in all of its applications, the court
had to demonstrate that the term “inhabitants” both encompasses all illegal aliens and does so unambiguously.
The court did neither.
a. To begin, the district court never explained how
certain categories of illegal aliens living in the country
must be considered “inhabitants” under any relevant
definition. Even a broad one would not require including, say, aliens residing in a detention facility after being arrested while crossing the border, aliens who have
been detained for illegal entry and paroled into the
country pending removal proceedings, or aliens who are
subject to final orders of removal. It is far from evident
that such aliens have an “enduring tie to” a particular
State, Franklin, 505 U.S. at 804, when the government
has detained them upon entry, allowed them into the
country on a conditional basis while considering
whether to remove them, or conclusively determined
that they must be removed. 4
Rather, as this Court recently reaffirmed, aliens “detained shortly after unlawful entry” or who “arrive at
ports of entry—even those paroled [into] the country
for years pending removal—are ‘treated’ for due process purposes ‘as if stopped at the border.’ ” Department of Homeland Sec. v. Thuraissigiam, 140 S. Ct.
These examples likely include significant populations. During
fiscal year 2019, there were over 3.2 million aliens on ICE’s “nondetained docket,” and over 50,000 aliens in ICE custody on an average day. U.S. Immigration & Customs Enforcement, Fiscal Year
2019 Enforcement and Removal Operations Report 5, 10 (2019),
https://go.usa.gov/xG8vT.
4

30
1959, 1982 (2020) (citation omitted). Similarly, in
Kaplan v. Tod, 267 U.S. 228 (1925), this Court held that
an alien who had been denied admission but paroled into
the country in 1915, where she lived for the next ten
years, had not been “dwelling in the United States” or
“resid[ing] permanently” in the country for purposes of
naturalization. Id. at 230. As the Court explained, she
“could not lawfully have landed in the United States”
because she fell within an inadmissible category, and
“until she legally landed [she] ‘could not have dwelt
within the United States.’ ” Ibid. (citation omitted). Instead, she was in “the same” position as an alien “held
at Ellis Island for deportation.” Id. at 231.
The district court provided no reason why longstanding precedents governing whether particular aliens
“dwell,” “reside permanently,” or are otherwise “in” the
United States must be ignored in determining whether
they constitute “inhabitants.” Cf. 1 Webster 110 (defining “inhabitant” as one who “dwells or resides permanently” in a location) (capitalization omitted). Instead,
the court observed that “many” aliens “intercepted at
the border” or in “removal proceedings” “ultimately obtain lawful status.” App., infra, 86a. But that does not
mean that the President must treat all of them as “inhabitants” now. The court also brushed off such examples as irrelevant on the theory that the usual standard
for facial challenges does not apply to a claim that the
“President has exceeded the authority granted to him
by Congress.” Id. at 84a n.16. To the contrary, a facial
challenge contending that a regulation “exceeds” the
statutory “authority” of even a subordinate executive
official must “ ‘establish that no set of circumstances exists under which the regulation would be valid.’ ” Reno

31
v. Flores, 507 U.S. 292, 300-301 (1993) (brackets and citation omitted). The court provided no justification for
its upside-down suggestion that a facial challenge contending that the President exceeded his statutory authority should be held to a less demanding standard.
b. In any event, the district court failed to articulate
why its definition of “inhabitants,” drawn from a 1997
dictionary, is the only one available under 2 U.S.C.
2a(a), which, again, copies the constitutional phrase
“persons in each State.” The court never addressed
that figures such as Marshall, Madison, and Vattel were
aware of a definition of “inhabitants” that turned on the
sovereign’s permission to remain in the country. See
pp. 26-28, supra. The court also did not address this
Court’s reasoning in cases like Kaplan that an alien who
has not effected a lawful entry is not “dwelling” or “resid[ing] permanently” in the country. 267 U.S. at 230.
And while the court acknowledged “that the terms
‘usual residence’ and ‘inhabitant’ have ‘been used
broadly enough to include some element of allegiance or
enduring tie to a place,’ ” App., infra, 85a-86a (quoting
Franklin, 505 U.S. at 804), it gave no explanation for
how every illegal alien necessarily has such a connection
to the United States. At most, it assumed that the term
“usual,” viewed in isolation, referred exclusively to frequency of residence. But the term also connotes regularity. See, e.g., Webster’s New International Dictionary of the English Language 2807 (2d ed. 1942) (defining “usual” as “customary; ordinary”; synonymous with
“regular”); 1 & 2 Samuel Johnson, A Dictionary of the
English Language (6th ed. 1785) (defining “[u]sual” as
“customary,” defined in turn as “[c]onformable to established custom, according to prescription”). And it is far
from evident that those who adopted the Constitution,

32
the Fourteenth Amendment, or 2 U.S.C. 2a(a) would
have thought there was anything “usual,” “customary,”
or “regular” about aliens living in the country in continual violation of federal law’s prescriptions.
Rather than “delve into the meaning of the terms ‘inhabitant’ and ‘usual residence’ at the time of the Founding or of the Reconstruction Amendments,” the district
court looked to the legislative history surrounding
2 U.S.C. 2a(a) to discern its drafters’ “understanding of
the constitutional language” in 1929. App., infra, 87a88a & n.17. The court gave no reason for departing from
the presumption that when “a word is obviously transplanted from another legal source,” it “brings the old
soil with it.” Hall, 138 S. Ct. at 1128 (citation omitted).
And anyway, the court failed to identify evidence indicating that in 1929, Congress conclusively settled that
all illegal aliens were “inhabitants” or “usual residents”
for apportionment purposes.
The district court merely observed that the 1929
Congress (like the Framers of the Fourteenth Amendment) had rejected amendments to exclude all aliens
from the apportionment base, and that the Senate’s legislative counsel had opined that such an exclusion would
be unconstitutional. App., infra, 87a-88a; cf. Cong.
Globe, 39th Cong., 1st Sess. 10 (1865) (Rep. Stevens).
That legislative history, however, does not answer
whether the 1929 Congress prohibited the President
from excluding illegal aliens from the apportionment
base. Although aliens who are “permitted to settle and
stay in the country,” Vattel Ch. 19, § 213, may well qualify as “inhabitants,” that in no way resolves the question
here: whether aliens who are not permitted to settle,
and remain subject to removal by the government, nevertheless are “inhabitants” of, with an “enduring tie to”

33
and a “ ‘usual residence’ ” in, the United States. Franklin, 505 U.S. at 804. If the 1929 Congress meant to mandate that congressional representation be allocated on
the basis of aliens who remain in the country in ongoing
defiance of federal law, it presumably would have given
a clearer indication of such a remarkable step than
merely copying into the U.S. Code the constitutional
text “persons in each State,” which had never been understood to compel such a result.
The district court also relied on Executive Branch
statements from the 1980s opining that the exclusion of
illegal aliens from the apportionment base would be unlawful. App., infra, 90a-91a. But those assertions did
not rest on any sustained historical analysis of whether
all illegal aliens are necessarily “inhabitants” as that
term was originally understood. They also predated
this Court’s decision in Franklin, which confirms that
physical residence is neither necessary nor sufficient
for inclusion within the apportionment base: the Executive has significant discretion in determining whether
individuals possess the necessary “ties to the States” to
“be counted toward their States’ representation,” 505
U.S. at 806, even in the face of divergent historical practice, see id. at 792-793. Contrary to the district court’s
suggestion, nothing in Franklin or in logic supports a
ratchet in which the Executive may exercise discretion
to “include” individuals not physically living in a State
who still could reasonably be deemed to be “inhabitants” there, but not to “exclude” individuals physically
living in a State who still could reasonably be deemed to
lack status as “inhabitants” there. App., infra, 86a.

34
CONCLUSION

The Court should note probable jurisdiction or summarily reverse.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
NICOLE FRAZER REAVES
BRINTON LUCAS
Assistants to the Solicitor
General

SEPTEMBER 2020

APPENDIX A
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (RCW) (PWH) (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS

Filed: Sept. 10, 2020
OPINION AND ORDER

Before: RICHARD C. WESLEY, United States Circuit
Judge, PETER W. HALL, United States Circuit Judge,
JESSE M. FURMAN, United States District Judge
BACKGROUND.............................................................6
A. The Constitutional and Statutory Scheme .........6
B. The Use of Census Data ......................................8
C. The Citizenship Question Litigation and
Its Aftermath.....................................................10
D. The 2020 Census ................................................12
E. The Presidential Memorandum ........................15
F. This Litigation ...................................................17
SUMMARY JUDGMENT STANDARD ....................19
STANDING AND RIPENESS...................................20
(1a)

2a
A. The Law of Standing .........................................21
B. Facts Relevant to Standing...............................25
C. Standing Analysis ..............................................36
1. Injury in Fact .................................................40
a. Degradation of Census Data .....................41
b. Diversion of Resources ..............................46
2. Traceability .....................................................50
3. Redressability.................................................53
4. Conclusion .......................................................57
D. Prudential Ripeness ..........................................58
THE MERITS..............................................................62
A. Apportionment Must Be Based on the
Results of the Census Alone .............................63
B. The Apportionment Base Cannot Exclude
Illegal Aliens Who Reside in a State ................69
C. Conclusion ..........................................................77
REMEDIES .................................................................79
A. Injunctive Relief ................................................79
B. Declaratory Relief .............................................84
CONCLUSION ............................................................85
PER CURIAM.
The Constitution provides that “Representatives shall
be apportioned among the several States according to
their respective numbers, counting the whole number of
persons in each State.” U.S. Const. amend. XIV, § 2.
To enable that apportionment, it mandates that an “actual Enumeration” be conducted “every . . . ten
Years, in such Manner as [Congress] shall by Law direct,” an effort commonly known as the decennial census. Id. art. I, § 2, cl. 3. Congress has delegated the

3a
task of conducting the census to the Secretary of Commerce, who is required to report “[t]he tabulation of total population by States” to the President. 13 U.S.C.
§ 141(a)-(b). The President, in turn, is required to
transmit to Congress “a statement showing the whole
number of persons in each State . . . as ascertained
under the . . . decennial census of the population,
and the number of Representatives to which each State
would be entitled” using a mathematical formula “known
as the method of equal proportions.” 2 U.S.C. § 2a(a).
Throughout the Nation’s history, the figures used to determine the apportionment of Congress—in the language of the current statutes, the “total population” and
the “whole number of persons” in each State—have included every person residing in the United States at the
time of the census, whether citizen or non-citizen and
whether living here with legal status or without.
On July 21, 2020, however, the President announced
that this long-standing practice will no longer be the case.
In a Presidential Memorandum issued on that date (and
entered into the Federal Register two days later), the
President declared that, “[f]or the purpose of the reapportionment of Representatives following the 2020
census”—which, as of today, is still ongoing—“it is the
policy of the United States to exclude from the apportionment base aliens who are not in a lawful immigration
status.” Excluding Illegal Aliens From the Apportionment Base Following the 2020 Census, 85 Fed. Reg.
44,679, 44,680 (July 23, 2020) (ECF No. 1-1) (the “Presidential Memorandum”). 1 To implement this new policy, the President ordered the Secretary of Commerce
Unless otherwise noted, all docket references are to
20-CV-5770.
1

4a
(the “Secretary”) to provide him two sets of numbers for
each State: first, the total population as determined in
the 2020 census and, second, the total population as determined in the 2020 census minus the number of “aliens
who are not in a lawful immigration status.” Id. The
President left it to the Secretary of Commerce to figure
out how to calculate the number of “aliens who are not
in a lawful immigration status” in each State. But one
thing is clear: that number would not come from the
census itself, as the 2020 census is not collecting information regarding citizenship status, let alone legal immigration status in this country, and the 2020 census will
count illegal aliens according to where they reside.
In these consolidated cases, filed only three days after the Presidential Memorandum, two sets of Plaintiffs
—one, a coalition of twenty-two States and the District
of Columbia, fifteen cities and counties, and the United
States Conference of Mayors (the “Governmental Plaintiffs”) and the other, a coalition of non-governmental organizations (the “NGO Plaintiffs”)—challenge the decision to exclude illegal aliens from the apportionment
base for Congress on the ground that it violates the Constitution, statutes governing the census and apportionment, and other laws. On August 7, 2020, they filed a
motion for summary judgment or, in the alternative, a
preliminary injunction. Plaintiffs allege that the Presidential Memorandum will cause, or is already causing,
two forms of irreparable harm. First, noting that the
Presidential Memorandum itself identifies a State—believed to be California—that would stand to lose two or
three seats in the House of Representatives if illegal aliens are excluded from the apportionment base, they argue that the Memorandum will result in the loss of seats
in the House. Second, they argue that the Presidential

5a
Memorandum is having an immediate impact on the census count—which is still ongoing—and that that, in turn,
is resulting, and will result, in various forms of injury.
Defendants—the President, Secretary of Commerce
Wilbur L. Ross, Jr., Director of the U.S. Census Bureau
Steven Dillingham (the “Director”), the United States
Department of Commerce (the “Department”), and the
Bureau of the Census (the “Census Bureau”)—oppose
Plaintiffs’ motion and filed a cross-motion to dismiss, arguing that the Court lacks jurisdiction to entertain Plaintiffs’ claims and that the exclusion of illegal aliens from
the apportionment base is a lawful exercise of the President’s discretion with respect to the conduct of the census and apportionment.
For the reasons that follow, Plaintiffs are entitled to
summary judgment. The Presidential Memorandum
violates the statutes governing the census and apportionment in two clear respects. First, pursuant to the
virtually automatic scheme established by these interlocking statutes, the Secretary is mandated to report a
single set of numbers—“[t]he tabulation of total population by States” under the decennial census—to the President, and the President, in turn, is required to use the
same set of numbers in connection with apportionment.
By directing the Secretary to provide two sets of numbers, one derived from the decennial census and one not,
and announcing that it is the policy of the United States
to use the latter in connection with apportionment, the
Presidential Memorandum deviates from, and thus violates, the statutory scheme. Second, the Presidential
Memorandum violates the statute governing apportionment because, so long as they reside in the United States,
illegal aliens qualify as “persons in” a “State” as Congress used those words.

6a
On those bases, we declare the Presidential Memorandum to be an unlawful exercise of the authority granted to the President by statute and enjoin Defendants—
but not the President himself—from including in the
Secretary’s report to the President any information concerning the number of aliens in each State “who are not
in a lawful immigration status under the Immigration
and Nationality Act.” Presidential Memorandum, 85
Fed. Reg. at 44,680. Because the President exceeded
the authority granted to him by Congress by statute, we
need not, and do not, reach the overlapping, albeit distinct, question of whether the Presidential Memorandum constitutes a violation of the Constitution itself.
The merits of the parties’ dispute are not particularly
close or complicated. Before getting to the merits, however, we must confront a question that is closer: whether
we have jurisdiction to even consider the merits.
It is axiomatic that federal courts are courts of limited jurisdiction and may consider the merits of a case
only if the case is of the sort traditionally amenable to,
and resolvable by, the judicial process. That requires
a plaintiff seeking relief in federal court to demonstrate
that it has “standing” to bring suit and that its claims
are ripe for decision. Here, if the sole harm that Plaintiffs alleged were the harm to their apportionment interests, they might not satisfy the requirements of standing
and ripeness, as the Secretary has not yet taken any
public action in response to the Presidential Memorandum and could conceivably conclude that it is not feasible (or lawful) to exclude illegal aliens from the apportionment base. But Plaintiffs allege—and have proved
—that they are suffering, and will suffer, more immediate and certain injuries by virtue of the harm that the

7a
Presidential Memorandum is causing to the accuracy of
the census count itself. In light of those injuries, we
conclude that we have jurisdiction to grant Plaintiffs the
relief they are seeking.
BACKGROUND

The following background facts, drawn from the admissible materials submitted by the parties and materials of which the Court may take judicial notice, are undisputed except where noted. See, e.g., Vt. Teddy Bear
Co. v. 1-800 Beargram Co., 373 F.3d 241, 244 (2d Cir.
2004). 2
A.

The Constitutional and Statutory Scheme

Article I of the Constitution requires that an “actual
Enumeration” of the population, known as the decennial
census, be conducted “every . . . ten Years, in such
Manner as [Congress] shall by Law direct.” U.S.
Const. art I, § 2, cl. 3. The primary purpose of this
enumeration was to apportion congressional representatives among the States “according to their respective
Numbers.” Id. The number of Representatives apportioned to each State determines, in turn, that State’s
share of electors in the Electoral College. See id. art.
II, § 1, cl. 2; see also 3 U.S.C. § 3. For the first eighty
years of the Nation’s history, the States’ “respective
Numbers” were calculated according to the formula set
forth in the Constitution’s infamous “Three-Fifths
Clause,” which provided that the “actual Enumeration”
established by the census would be arrived at by “adding to the whole Number of free Persons . . . , and
excluding Indians not taxed, three fifths of all other
We discuss facts relevant to the issues of standing and ripeness
below.
2

8a
Persons”—“all other Persons” being people then held as
slaves. U.S. Const. art I, § 2, cl. 3. In 1868, that provision was modified by the Fourteenth Amendment,
which provides that “Representatives shall be apportioned among the several States according to their respective numbers, counting the whole number of persons in each State, excluding Indians not taxed.” U.S.
Const. amend. XIV, § 2 (emphasis added). 3
The modern census is governed by the Census Act,
which Congress most recently amended in 1976. See
Act. of Oct. 17, 1976 (the “Census Act” or the “Act”),
Pub. L. No. 94-521, 90 Stat. 2459 (codified in scattered
sections of 13 U.S.C.).
Section 141(a) of the Act
broadly delegates to the Secretary the duty to “take a
decennial census of population as of the first day of April
of such year . . . in such form and content as he may
determine.” 13 U.S.C. § 141(a). The Act then mandates that “[t]he tabulation of total population by States
under subsection (a) of this section as required for the
apportionment of Representatives in Congress among
the several States shall be completed within 9 months
after the census date”—in this case, January 1, 2021—
“and reported by the Secretary to the President of the
United States.” Id. § 141(b). Within a short time
thereafter—in this case, between January 3 and January 10, 2021—“the President shall transmit to the Congress a statement showing the whole number of persons

For practical purposes, the “Indians not taxed” proviso was rendered moot by the Indian Citizenship Act of 1924, Pub. L. No.
68-175, 43 Stat. 253 (codified as amended at 8 U.S.C. § 1401(b)),
which declared that all Native Americans born in the United States
are citizens.
3

9a
in each State, excluding Indians not taxed, as ascertained under the . . . decennial census of the population, and the number of Representatives to which each
State would be entitled under an apportionment of the
then existing number of Representatives by the method
known as the method of equal proportions, no State to
receive less than one Member.” 2 U.S.C. § 2a(a). The
Clerk of the House of Representatives must, in turn,
“send to the executive of each State a certificate of the
number of Representatives to which such State is entitled” within fifteen days of the President’s statement.
Id. § 2a(b). With limited exceptions not relevant here,
the Census Act strictly prohibits disclosure—even to
other federal agencies—of any data or information
concerning individual respondents to the census. See
13 U.S.C. §§ 8-9; New York v. U.S. Dep’t of Commerce,
351 F. Supp. 3d 502, 523 (S.D.N.Y.), aff ’d, 139 S. Ct. 2551
(2019).
B.

The Use of Census Data

Although the “initial”—and core—“constitutional purpose” of the census was to “provide a basis for apportioning representatives among the states in the Congress” (and, in turn, allocating members of the Electoral
College), the census has long “fulfill[ed] many important
and valuable functions for the benefit of the country.”
Baldrige v. Shapiro, 455 U.S. 345, 353 (1982). As the
Supreme Court has observed, it “now serves as a linchpin of the federal statistical system by collecting data on
the characteristics of individuals, households, and housing units throughout the country.” Dep’t of Commerce v.
U.S. House of Representatives, 525 U.S. 316, 341 (1999)
(internal quotation marks and citation omitted). Indeed, “[t]oday, policy makers at all levels of government,

10a
as well as private businesses, households, researchers,
and nonprofit organizations, rely on an accurate census
in myriad ways that range far beyond the single fact of
how many people live in each state.” New York v. Dep’t
of Commerce, 351 F. Supp. 3d at 519 (citation omitted).
Among other things, the data are now used not only for
apportionment, but also “for such varied purposes as
computing federal grant-in-aid benefits, drafting of legislation, urban and regional planning, business planning,
and academic and social studies.” Baldrige, 455 U.S.
at 353 n.9.
In New York v. Department of Commerce, the court
described many of the varied uses beyond congressional
apportionment to which the federal, state, and local governments put census data, which Plaintiffs reiterate in
this case. See 351 F. Supp. 3d at 596-99, 610-13. To
provide a few examples here:
•

The federal government relies on census data to
allocate vast sums of money among and within
States. In fiscal year 2016, for example, at least
320 such programs allocated about $900 billion
using census-derived data. See id. at 596.

•

State governments—including those among the
Governmental Plaintiffs here—mandate the use
of census data to draw intrastate political districts. See id. at 594-95, 612; House of Representatives, 525 U.S. at 333 n.4, 334; see also, e.g.,
ECF No. 76-11 (“Brower Decl.”), ¶ 16-18 (Minnesota); ECF No. 76-37 (“Rapoza Decl.”), ¶ 5
(Rhode Island).

•

State law requires the use of census data for various purposes, ranging from the allocation of

11a
governmental resources and imposition of expenses among local governments to the setting
of utility fees and official salaries. See New
York v. Dep’t of Commerce, 351 F. Supp. 3d at
612-13 (citing various state statutes).
•

State and local governments—including those
among the Governmental Plaintiffs here — rely
on census data, including granular local-level
“characteristic data,” to perform essential government functions. New York City, for example, makes important decisions about how to allocate public services in reliance on demographic
data derived from the census, as when its Department of Education redraws school zone
boundary lines, ECF No. 76-21, (“Salvo Decl.”),
¶ 15; when its Department of Health deploys resources based on its best understanding of the
age, race, and Hispanic origin characteristics
within particular communities, id. ¶ 14; and
when its Population Division uses age data to
target services for aged individuals, id. ¶ 16.

Thus, inaccuracies in federal census data would affect
state and local governments—and, by extension, their
residents—in many ways, only some of which would be
measurable. Critically, in many instances, that would be
true even if the total population counts were not materially affected—because of the importance of accuracy at
the local or subgroup level. 4

Although less relevant here, accurate census data is also critical
to others, including scholars and private-sector businesses. See,
e.g., Br. of Amici Curiae 16 Businesses & Business Organizations at
4

12a
C. The Citizenship Question Litigation and Its Aftermath

This is not the first time issues relating to the 2020
census have been brought in this District. On March
22, 2018, the Secretary announced that he had decided
to include “a question about citizenship on the 2020 decennial census questionnaire,” claiming “that he was
acting at the request of the Department of Justice
(DOJ), which sought improved data about citizen votingage population for purposes of enforcing the Voting
Rights Act.” Dep’t of Commerce v. New York, 139
S. Ct. 2551, 2562 (2019). Shortly thereafter, two groups
of plaintiffs—including most, if not all, Plaintiffs here—
filed suit in this District, alleging that the decision to include the citizenship question violated the Constitution
and the Administrative Procedure Act (“APA”), 5 U.S.C.
§§ 701 et seq. On January 15, 2019, after an eight-day
bench trial, Judge Furman issued detailed findings of
fact and conclusions of law, holding that the Secretary’s
decision was arbitrary and capricious, contrary to
law, and pretextual. New York v. Dep’t of Commerce,
3, ECF No. 103-1 (“Businesses Amicus”) (“The Census provides critical data that informs decision-making in both the private and public
sectors. . . . Consequently, government action that threatens
the accuracy of Census data directly harms the businesses nationwide that rely on that data.”); M ARGO J. ANDERSON, THE AMERICAN CENSUS: A S OCIAL HISTORY 260-61 (2d ed. 2015) (describing
how “[s]ocial scientists in university settings, in businesses, or in
stand-alone research organization [have become] the market” for
census data in the modern era). For instance, businesses rely on
census data “to make a variety of decisions, including where to put
new brick-and-mortar locations, how to market their products, and
how to predict which products will be successful in a given market.
. . . All of these things depend on the availability of accurate Census data.” Businesses Amicus 2.

13a
351 F. Supp. 3d at 516; see id. at 635-64. He vacated
the Secretary’s decision and enjoined its implementation. See id. at 671-80. The defendants filed a notice
of appeal and a petition for certiorari before judgment
in the Supreme Court. The Supreme Court granted
their petition and then affirmed on the ground that the
Secretary’s stated rationale was pretextual. See Dep’t
of Commerce v. New York, 139 S. Ct. at 2573-76.
Thereafter, on consent, Judge Furman entered a permanent injunction barring the Secretary from asking
persons about citizenship status as part of the 2020 decennial census. See Order at 2, ECF No. 653, New
York, No. 18-CV-2921 (JMF) (S.D.N.Y. Aug. 7, 2019).
Shortly after the Supreme Court affirmed Judge
Furman’s judgment, the President responded with an
Executive Order aimed at “compil[ing]” citizenship data
“by other means.” Collecting Information About Citizenship Status in Connection With the Decennial Census, Exec. Order No. 13,880 § 1, 84 Fed. Reg. 33,821,
33,821 (July 16, 2019). The Executive Order directed
“all executive departments and agencies” to provide to
the Department “the maximum assistance permissible,
consistent with law, in determining the number of citizens and non-citizens in the country, including by
providing any access that the Department may request
to administrative records.” Id. § 3 at 33,824. The Executive Order explained that data identifying citizens
would, among other things, “help . . . generate a
more reliable count of the unauthorized alien population
in the country,” which “would,” in turn, “be useful . . .
in evaluating many policy proposals.” Id. § 1 at 33,823.
Noting that the Supreme Court’s decision in Evenwel v.
Abbott, 136 S. Ct. 1120 (2016), had “left open the question whether ‘States may draw districts to equalize

14a
voter-eligible population rather than total population,’ ”
the Executive Order also explained that citizenship data
could be used by states “to design State and local legislative districts based on the population of voter-eligible
citizens.” Id. § 1 at 33,823-24. The Executive Order
said nothing about using citizenship data for purposes of
congressional apportionment. Similarly, in remarks
he made when announcing the Executive Order, the
President made no mention of using citizenship data in
connection with congressional apportionment. See Remarks on Citizenship and the Census, 2019 DAILY COMP.
PRES. DOC. 465 (July 11, 2019), https://www.govinfo.gov/
content/pkg/DCPD-201900465/pdf/DCPD-201900465.
pdf.
D.

The 2020 Census

On February 8, 2018 the Census Bureau promulgated
the “Residence Rule” establishing the residence criteria
for the 2020 census. See Final 2020 Census Residence
Criteria and Residence Situations, 83 Fed. Reg. 5525
(Feb. 8, 2018) (the “Residence Rule” or the “Rule”).
“The residence criteria are used to determine where
people are counted during each decennial census.” Id.
at 5526. “[G]uided by the constitutional and statutory
mandates to count all residents of the several states,”
the Rule explains,“[t]he state in which a person resides
and the specific location within that state is determined
in accordance with the concept of ‘usual residence,’
which is defined by the Census Bureau as the place
where a person lives and sleeps most of the time. . . .
This concept of ‘usual residence’ is grounded in the law
providing for the first census, the Act of March 1, 1790,
expressly specifying that persons be enumerated at

15a
their ‘usual place of abode.’ ” Id. Applying these criteria, the Rule explains that all “[c]itizens of foreign
countries living in the United States” are to be
“[c]ounted at the U.S. residence where they live and
sleep most of the time,” with the exception of “[c]itizens
of foreign countries living in the United States who are
members of the diplomatic community” (who are
counted at the embassy, consulate, United Nations’ facility, or other residences where diplomats live) and
“[c]itizens of foreign countries visiting the United States,
such as on a vacation or business trip” (who are not
counted at all). Id.at 5533. Notably, during the noticeand-comment process, the Census Bureau considered a
comment “express[ing] concern about the impact of including undocumented people in the population counts
for redistricting because these people cannot vote.”
Id. at 5530. But the Census Bureau decided to “retain
the proposed residence situation guidance for foreign
citizens in the United States,” reiterating that “[f ]oreign
citizens are considered to be ‘living’ in the United States
if, at the time of the census, they are living and sleeping
most of the time at a residence in the United States.”
Id. (emphasis added).
The Census Bureau relies on various means to obtain
census data, beginning with a questionnaire to which
households are asked to self-respond and ending with a
set of procedures known as “Non-Response Follow-Up”
operations. See New York v. Dep’t of Commerce, 351
F. Supp. 3d at 521. The 2020 census count “officially
began in the rural Alaskan village of Toksook Bay” on
January 21, 2020. U.S. Census Bureau, Important
Dates, U.S. CENSUS 2020, https://2020census.gov/en/
important-dates.html (last visited September 7, 2020).
Census operations were in full swing by mid-March,

16a
when the Census Bureau was confronted with the unprecedented challenge of the COVID-19 pandemic. On
April 13, 2020, the Secretary and the Director announced that, due to the pandemic, the Census Bureau
would temporarily suspend field data collection activities; seek a 120-day extension from Congress of the
deadline “to deliver final apportionment counts”; and
“extend the window for field data collection and self-response to October 31, 2020, which will allow for apportionment counts to be delivered to the President by
April 30, 2021.” U.S. Department of Commerce Secretary Wilbur Ross and U.S. Census Bureau Director Steven Dillingham Statement on 2020 Census Operational
Adjustments Due to COVID-19, U.S. CENSUS BUREAU
(Apr. 13, 2020), https://www.census.gov/newsroom/pressreleases/2020/statement-covid-19-2020.html.
In the
following months, representatives of the Census Bureau
reiterated on multiple occasions that additional time was
required to complete the apportionment count and deliver it to the President. 5

See, e.g., U.S. CENSUS BUREAU, OPERATIONAL PRESS BRIEFING
-2020 CENSUS UPDATE 21 (July 8, 2020), https://www.census.gov/
content/dam/Census/newsroom/press-kits/2020/news-briefing-programtranscript-july8.pdf (statement of Albert Fontenot, Assoc. Dir. for
Decennial Census Programs) (explaining that the Bureau was “past
the window of being able” to produce the apportionment count by
December 31, 2020); see also, e.g., Nat’l Conf. of Am. Indians, 2020
Census Webinar: American Indian/Alaska Native, YOUTUBE
(May 26, 2020), https://www.youtube.com/watch?v=F6IyJMtDDgY
&feature=youtu.be&t=4689 (statement of Tim Olson, Assoc. Dir.
For Field Operations) (explaining that “[w]e have passed the point
where [the Bureau] could even meet the current legislative requirement of December 31. We can’t do that anymore. We’ve passed
that for quite a while now.”).
5

17a
The Census Bureau resumed field operations in May
2020. See U.S. Census Bureau, 2020 Census Operational Adjustments Due to COVID-19 (“Census Operations Adjustments”), U.S. CENSUS 2020, https://2020census.
gov/en/news-events/operational-adjustments-covid-19.
html (last visited Sept. 9, 2020). Despite the Census
Bureau’s earlier statements indicating the need for
more time to complete the census, Director Dillingham
announced on August 3, 2020, that the Census Bureau
would end field operations on September 30, 2020, a
month earlier than the previously announced deadline of
October 31, 2020. See Statement from U.S. Census Bureau Director Steven Dillingham: Delivering a Complete and Accurate 2020 Census Count, U.S. CENSUS
BUREAU (Aug. 3, 2020), https://www.census.gov/newsroom/press-releases/2020/delivering-complete-accurate
-count.html; see also ECF No. 62 (“NGO Pls. Compl.”),
¶¶ 10& n.3, 114, 174 n.69. As of today, therefore, the
census is still ongoing—with enumerators conducting
in-person Non-Response Follow-Up work to ensure that
any household that did not self-respond to the census is
nonetheless counted as part of the “actual Enumeration.” See Census Operations Adjustments; see also
ECF No. 34 (“Gov’t Pls.’ Compl.”), ¶ 130 & n.20. In
fact, there is some doubt about the date on which these
efforts will end and the counting will stop. On September 5, 2020, the Honorable Lucy H. Koh, United States
District Judge for the Northern District of California,
entered a temporary restraining order enjoining the
Census Bureau from “implementing the August 3, 2020
[plan] or allowing to be implemented any actions as a
result of the shortened timelines in the August 3, 2020
[plan].” Nat’l Urban League v. Ross, No. 20-CV-5799
(LHK), 2020 WL 5291452, at *4 (N.D. Cal. Sept. 5, 2020).

18a
A preliminary injunction hearing is scheduled in that
case for September 17, 2020. See id.
E.

The Presidential Memorandum

In the meantime—that is, with the census count still
being conducted—on July 21, 2020, the President issued
the Presidential Memorandum, titled “Excluding Illegal
Aliens From the Apportionment Base Following the
2020 Census.” Presidential Memorandum, 85 Fed.
Reg. at 44,679. In it, the President declared that, “[f ]or
the purpose of the reapportionment of Representatives
following the 2020 census, it is the policy of the United
States to exclude from the apportionment base aliens
who are not in a lawful immigration status . . . to
the maximum extent feasible and consistent with the
discretion delegated to the executive branch.” Id. at
44,680. “Excluding these illegal aliens from the apportionment base,” the President posited, “is more consonant with the principles of representative democracy
underpinning our system of Government. Affording
congressional representation, and therefore formal political influence, to States on account of the presence
within their borders of aliens who have not followed the
steps to secure a lawful immigration status under our
laws undermines those principles.” Id. Additionally,
the President asserted that “[i]ncreasing congressional
representation based on the presence of aliens who are
not in a lawful immigration status would also create perverse incentives encouraging violations of Federal law”
and that “States adopting policies that encourage illegal
aliens to enter this country and that hobble Federal efforts to enforce the immigration laws passed by the Congress should not be rewarded with greater representation in the House of Representatives.” Id. Referring

19a
to one State with “more than 2.2 million illegal aliens”
—apparently California, see ECF No. 75 (“Pls.’ Rule
56.1 Statement”), ¶ 4—the Presidential Memorandum
noted that “[i]ncluding these illegal aliens in the population of the State for the purpose of apportionment could
result in the allocation of two or three more congressional seats than would otherwise be allocated.” Presidential Memorandum, 85 Fed. Reg. at 44,680.
To implement this new “policy of the United States,”
the President directed the Secretary to provide him with
two sets of data. First, the Presidential Memorandum
mandates that, “[i]n preparing his report to the President under section 141(b) of title 13, United States Code,
the Secretary shall take all appropriate action, consistent with the Constitution and other applicable law,
to provide information permitting the President, to the
extent practicable, to exercise the President’s discretion
to carry out the policy.” Id. Second, “[t]he Secretary
shall also include in that report information tabulated
according to the methodology set forth in Final 2020
Census Residence Criteria and Residence Situations,
83 FR 5525 (Feb. 8, 2018).” Id. (emphasis added). In
other words, to the extent “feasible” or “practicable,”
the Secretary is now required to include two sets of
numbers for each State in his report to the President
under Section 141(b) of the Census Act: first, the total
population as determined in accordance with the Residence Rule, which includes citizens of foreign countries
“living in the United States,” without regard for the legal status of such persons in this country, Residence
Rule, 83 Fed. Reg. at 5533; and second, the total population minus the number of “aliens who are not in a lawful immigration status.” Presidential Memorandum,
85 Fed. Reg. at 44,680.

20a
F.

This Litigation

On July 24, 2020—only three days after the Presidential Memorandum—both the Governmental Plaintiffs
and the NGO Plaintiffs filed their initial complaints. See
ECF No. 1; 20-CV-5781, ECF No. 1. 6 In their nowamended Complaints, Plaintiffs contend that the Presidential Memorandum violates the Constitution’s Enumeration Clause, as modified by the Fourteenth Amendment; is motivated by discriminatory animus toward
Hispanics and immigrant communities of color, in violation of the equal protection component of the Fifth
Amendment’s Due Process Clause; coerces state and local governments and denigrates the equal sovereignty
of the States in violation of the Tenth Amendment; violates the constitutional separation of powers by usurping the authority Congress delegated to the Secretary;
constitutes an ultra vires violation of 2 U.S.C. § 2a and
13 U.S.C. § 141; violates the APA; and violates the Census Act’s prohibition on the use of statistical sampling
for purposes of congressional apportionment, see 13
U.S.C. §§ 141, 195. They seek a declaration that the
Presidential Memorandum is unlawful, an injunction
prohibiting Defendants from taking any action to imple-

At least six other cases in four other Districts have been
filed challenging the Presidential Memorandum. See Compl., Common Cause v. Trump, No. 20-CV-2023 (D.D.C. July 23, 2020);
Compl., Haitian-Ams. United, Inc. v. Trump, No. 20-CV-11421
(D. Mass. July 27, 2020); Compl., City of San Jose v. Trump, No.
20-CV-5167 (N.D. Cal. July 27, 2020); Compl., California v. Trump,
No. 20-CV-5169 (N.D. Cal. July 28, 2020); Compl., Useche v.
Trump, No. 20-CV-2225 (D. Md. July 31, 2020); Second Am.
Compl., La Union Del Pueblo Entero v. Trump, No. 19-CV-2710
(D. Md. Aug. 13, 2020).
6

21a
ment or further the Memorandum, and writs of mandamus compelling the Secretary and the President to transmit figures that do not exclude illegal aliens based on
immigration status.
The cases were initially assigned to Judge Furman
alone, who consolidated them pursuant to Rule 42(a)(2)
of the Federal Rules of Civil Procedure. ECF No. 43,
at 1. On August 5, 2020, Judge Furman held an initial
pretrial conference by telephone. During the conference, Plaintiffs advised that they intended to immediately file a motion for summary judgment (or, in the alternative, a preliminary injunction), and Defendants advised that they intended to file a motion to dismiss.
ECF No. 79 (“Aug. 5, 2020 Tr.”), at 11, 27, 36-38; see also
ECF No. 37 (“Joint Pre-Conference Ltr.”), at 6. Noting that Plaintiffs disclaimed the need for any discovery
in connection with their motion for summary judgment
or a preliminary injunction, Judge Furman set an expedited schedule and cautioned that, “[i]f defendants believe[d]” upon seeing Plaintiffs’ motion papers “that there
is any need for discovery,” they were required “to confer” with Plaintiffs “immediately and then submit a joint
letter.” Aug. 5, 2020 Tr. at 46.
At Plaintiffs’ request, and without objection from Defendants, Judge Furman filed a formal request on August 7, 2020, for the appointment of a three-judge district court pursuant to 28 U.S.C. § 2284(b). See ECF
No. 68; see also ECF Nos. 58, 65. On August 10, 2020,
the Honorable Robert A. Katzmann, then the Chief
Judge of the Second Circuit, designated Judges Wesley
and Hall to serve as the other members of a three-judge

22a
panel to hear these cases. See ECF No. 82. Thereafter, the panel adopted the scheduling order previously
entered by Judge Furman alone. See ECF No. 86.
Pursuant to that scheduling order, Plaintiffs filed
their motion on August 7, 2020. See ECF No. 74. Plaintiffs seek summary judgment (or, in the alternative, a
preliminary injunction) on only some of their claims,
namely that the Presidential Memorandum violates the
Enumeration Clause and Fourteenth Amendment and
constitutes an ultra vires violation of the statutes governing the census and apportionment. See ECF No. 77
(“Pls.’ Mem.”), at 10-40. Plaintiffs’ motion is supported
by declarations of both fact and expert witnesses. See
ECF No. 76 (“Colangelo Decl.”); ECF No. 149 (“Goldstein Decl.”).
In response, Defendants did not ask to depose Plaintiffs’ declarants or request discovery of any kind; nor did
they seek a hearing. Instead, on August 19, 2020, they
filed their opposition to Plaintiffs’ motion and a crossmotion to dismiss. See ECF No. 117. To the extent
relevant here, they argue that the Court lacks jurisdiction to hear Plaintiffs’ claims because they are unripe
and Plaintiffs lack standing; that the Enumeration Clause
and ultra vires claims fail because the decision to exclude illegal aliens from the apportionment base is a lawful exercise of the President’s discretion with respect to
the census and apportionment; that Plaintiffs are not entitled to injunctive relief because they cannot show irreparable harm; and that the President is not a proper
defendant. See ECF No. 118 (“Defs.’ Mem.”). On August 28, 2020, the motions became fully briefed, see ECF
No. 154 (“Defs.’ Reply”), and on September 3, 2020, the
Court held oral argument by telephone.

23a
SUMMARY JUDGMENT STANDARD

Summary judgment is appropriate where the admissible evidence and pleadings demonstrate “no genuine
dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” Fed. R. Civ. P. 56(a);
see also Johnson v. Killian, 680 F.3d 234, 236 (2d Cir.
2012) (per curiam). A dispute over an issue of material
fact qualifies as genuine “if the evidence is such that a
reasonable jury could return a verdict for the nonmoving party.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986); accord Roe v. City of Waterbury, 542
F.3d 31, 35 (2d Cir. 2008). The initial burden of establishing that no genuine factual dispute exists rests upon
the party seeking summary judgment. See Chambers
v. TRM Copy Ctrs. Corp., 43 F.3d 29, 36 (2d Cir. 1994).
If the moving party shows a prima facie entitlement to
summary judgment, “the burden shifts to the nonmovant
to point to record evidence creating a genuine issue of
material fact.” Salahuddin v. Goord, 467 F.3d 263, 273
(2d Cir. 2006).
In ruling on a motion for summary judgment, a court
must view all evidence “in the light most favorable to the
non-moving party,” Overton v. N.Y. State Div. of Mil. &
Naval Affs., 373 F.3d 83, 89 (2d Cir. 2004), and must “resolve all ambiguities and draw all permissible factual inferences in favor of the party against whom summary
judgment is sought,” Sec. Ins. Co. of Hartford v. Old Dominion Freight Line, Inc., 391 F.3d 77, 83 (2d Cir. 2004).
To defeat a motion for summary judgment, the non-moving party must advance more than a “scintilla of evidence,” Anderson, 477 U.S. at 252, and demonstrate
more than “some metaphysical doubt as to the material
facts,” Matsushita Elec. Indus. Co. v. Zenith Radio

24a
Corp., 475 U.S. 574, 586 (1986). The non-moving party
“cannot defeat the motion by relying on the allegations
in [its] pleading, or on conclusory statements, or on
mere assertions that affidavits supporting the motion
are not credible.” Gottlieb v. County of Orange, 84 F.3d
511, 518 (2d Cir. 1996) (internal citation omitted).
STANDING AND RIPENESS

As noted, Plaintiffs move for summary judgment on
two grounds: that Defendants’ decision to exclude illegal aliens from the apportionment base violates the
Enumeration Clause and the Fourteenth Amendment of
the Constitution; and that it exceeds the authority granted
by Congress in the statutes that govern the census and
congressional apportionment. See Pls.’ Mem. 10-40.
Before reaching the merits of either argument, however, we must address Defendants’ contention that we
lack jurisdiction. See, e.g., Steel Co. v. Citizens for a
Better Env’t, 523 U.S. 83, 88-89 (1998) (noting that subject-matter jurisdiction cannot be assumed and is a
“threshold question that must be resolved . . . before proceeding to the merits”).
Defendants argue and move to dismiss on the ground
that we lack jurisdiction for two reasons: because
Plaintiffs fail to establish that they have standing to sue
and because their claims are not yet ripe. Where, as
here, the question is whether a plaintiff’s injury is sufficiently “real and concrete rather than speculative and
hypothetical, the ripeness inquiry merges almost completely with standing.” Thomas v. Anchorage Equal
Rights Comm’n, 220 F.3d 1134, 1138-39 (9th Cir. 2000)
(citation omitted); accord Susan B. Anthony List v.
Driehaus, 573 U.S. 149, 157 n.5 (2014); Nat’l Org. for
Marriage, Inc. v. Walsh, 714 F.3d 682, 688 (2d Cir. 2013)

25a
(quoting Simmonds v. INS, 326 F.3d 351, 357 (2d Cir.
2003). Thus, courts often address them together under
the single umbrella term of “standing,” see, e.g., Susan
B. Anthony List, 573 U.S. at 157 n.5; Nat’l Org. for Marriage, 714 F.3d at 689 n.6, and we will do the same here.
But there is a second, arguably distinct form of ripeness
doctrine that Defendants invoke: prudential ripeness,
which concerns whether a case that might qualify as a
bona fide case or controversy is nevertheless better decided later. See, e.g., Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp., 559 U.S. 662, 670 n.2 (2010) (“Ripeness
reflects constitutional considerations that implicate Article III limitations on judicial power, as well as prudential reasons for refusing to exercise jurisdiction.” (internal quotation marks and citation omitted)). We will
begin with the issue of standing —the toughest issue in
this case—and then turn briefly to prudential ripeness.
A.

The Law of Standing

Article III of the Constitution limits the “judicial
Power” of the United States to “Cases” and “Controversies.” See U.S. Const. art. III, § 2. This means that
all suits filed in federal court must be “cases and controversies of the sort traditionally amenable to, and resolved by, the judicial process.” Steel Co., 523 U.S. at
102. One way courts implement that requirement is by
ensuring that “at least one plaintiff” in any federal case
has “standing.” Dep’t of Commerce v. New York, 139
S. Ct. at 2565; see also Rumsfeld v. Forum for Acad. &
Institutional Rights, Inc., 547 U.S. 47, 52 n.2 (2006)
(noting that, in a case with multiple plaintiffs, “the presence of one party with standing is sufficient to satisfy
Article III’s case-or-controversy requirement”). Standing, in turn, is measured by a “familiar three-part test,”

26a
which requires a plaintiff to show (1) “an injury in fact,
(2) that is fairly traceable to the challenged conduct of
the defendant, and (3) that is likely to be redressed by
a favorable judicial decision.” Gill v. Whitford, 138
S. Ct. 1916 (2018) (quoting Spokeo, Inc. v. Robins, 136
S. Ct. 1540, 1547 (2016)). The plaintiff must make this
showing “in the same way as any other matter on which
the plaintiff bears the burden of proof, i.e., with the
manner and degree of evidence required at the successive stages of the litigation.” Lujan v. Defs. of Wildlife, 504 U.S. 555, 561 (1992). To prevail on a motion
for summary judgment, therefore, “mere allegations of
injury are insufficient. Rather, a plaintiff must establish that there exists no genuine issue of material fact as
to justiciability. . . . ” House of Representatives,
525 U.S. at 329; see Lujan, 504 U.S. at 561 (stating that,
on summary judgment, a plaintiff “can no longer rest on
such ‘mere allegations,’ ” as at the pleading stage, “but
must ‘set forth’ by affidavit or other evidence ‘specific
facts’ ” that demonstrate standing. (quoting Fed. R.
Civ. P. 56(e)).
Injury in fact is “the first and foremost of standing’s
three elements.” Spokeo, 136 S. Ct. at 1547 (internal
quotation marks, alterations, and citation omitted).
“To establish injury in fact, a plaintiff must show that he
or she suffered an invasion of a legally protected interest that is concrete and particularized and actual or imminent, not conjectural or hypothetical.” Id. at 1548
(internal quotation marks and citation omitted). Significantly, an injury “need not be actualized” to satisfy
Article III. Davis v. Fed. Election Comm’n, 554 U.S.
724, 734 (2008). Instead, a “future injury” can suffice,
so long as it is “certainly impending, or there is a sub-

27a
stantial risk that the harm will occur.” Susan B. Anthony List, 573 U.S. at 157 (internal quotation marks
and citation omitted); see also Clapper v. Amnesty Int’l
USA, 568 U.S. 398, 414 n.5 (2013) (noting that plaintiffs
need not “demonstrate that it is literally certain that the
harms they identify will come about”); House of Representatives, 525 U.S. at 332-33 (finding standing “on the
basis of the expected effects . . . on intrastate redistricting”—namely, that certain jurisdictions were “substantially likely . . . [to] suffer vote dilution”). Ultimately, the injury-in-fact requirement is meant to “ensure that the plaintiff has a personal stake in the outcome of the controversy.” Susan B. Anthony List, 573
U.S. at 158 (internal quotation marks and citation omitted).
The second element requires proof that the plaintiff’s
injury is “fairly traceable” to the defendant’s challenged
conduct. Put differently, “there must be a causal connection between the injury and the conduct complained
of—the injury has to be fairly traceable to the challenged action of the defendant, and not the result of the
independent action of some third party not before the
court.” Lujan, 504 U.S. at 560 (internal quotation
marks, alterations, and citation omitted). Importantly,
“[p]roximate causation is not a requirement of Article
III standing, which requires only that the plaintiff’s injury be fairly traceable to the defendant’s conduct.”
Lexmark Int’l, Inc. v. Static Control Components, Inc.,
572 U.S. 118, 134 n.6 (2014) (emphases added); see also
Rothstein v. UBS AG, 708 F.3d 82, 91 (2d Cir. 2013)
(“[T]he ‘fairly traceable’ standard is lower than that of
proximate cause.”). Accordingly, “Article III ‘requires
no more than de facto causality.’ ” Dep’t of Commerce
v. New York, 139 S. Ct. at 2566 (quoting Block v. Meese,

28a
793 F.2d 1303, 1309 (D.C. Cir. 1986) (Scalia, J.)). Relatedly, for an injury to be “fairly traceable” to a defendant’s conduct, that conduct need not be “the very last
step in the chain of causation.” Bennett v. Spear, 520
U.S. 154, 168-69 (1997). Indeed, as the Supreme Court
explained in finding that the plaintiffs challenging the
decision to add a citizenship question to the census had
standing, when a “theory of standing” relies “on the predictable effect of Government action on the decisions of
third parties,” traceability is satisfied. Dep’t of Commerce v. New York, 139 S. Ct. at 2566. This may be so
“even when the decisions are illogical or unnecessary.”
New York v. U.S. Dep’t of Homeland Sec., 969 F.3d 42,
59 (2d Cir. 2020).
Third and finally, a plaintiff’s injury must be “redressable” by the relief sought — that is, “it must be
likely, as opposed to merely speculative, that the injury
will be redressed by a favorable decision.” Lujan, 504
U.S. at 561 (internal quotation marks and citation omitted). “[T]he very essence of the redressability requirement” is that a request for “[r]elief that does not remedy
the injury suffered cannot bootstrap a plaintiff into federal court.” Steel Co., 523 U.S. at 107. But if there is “a
likelihood that the requested relief will redress the
[plaintiff ’s] injury,” the requirement is satisfied. Id. at
103; see also Friends of the Earth, Inc. v. Laidlaw Env’t
Servs. (TOC), Inc., 528 U.S. 167, 185-86 (2000) (“[F]or a
plaintiff who is injured or faces the threat of future injury due to illegal conduct ongoing at the time of suit, a
sanction that effectively abates that conduct and prevents its recurrence provides a form of redress.”). Notably, the redressability requirement does not require a
plaintiff to show that the relief sought will remedy all
injuries alleged. Instead, “ ‘the relevant inquiry is

29a
whether . . . the plaintiff has shown an injury to himself
that is likely to be redressed by a favorable decision.’ In
other words, a plaintiff satisfies the redressability requirement when he shows that a favorable decision will
relieve a discrete injury to himself. He need not show
that a favorable decision will relieve his every injury.”
Larson v. Valente, 456 U.S. 228, 243 n.15 (1982) (citations omitted) (quoting Simon v. E. Ky. Welfare Rights
Org., 426 U.S. 26 (1976)). Nor need the plaintiff prove
that judicial relief will remedy an injury entirely. It is
enough that the “risk [of the alleged harm] would be reduced to some extent if [the plaintiffs] received the relief
they seek.” Massachusetts v. E.P.A., 549 U.S. 497, 526
(2007); cf. Church of Scientology of Cal. v. United States,
506 U.S. 9, 13 (1992) (“Even though it is now too late to
prevent, or to provide a fully satisfactory remedy for,
the [injury], a court does have power to effectuate a partial remedy.”).
B.

Facts Relevant to Standing

Plaintiffs press two categories of harm: (1) “harms
stemming from the exclusion of undocumented immigrants in the apportionment count”; and (2) “harms
caused by the Memorandum’s deterrent effect on census
participation.” Pls.’ Reply 29. With respect to the
first category, the Presidential Memorandum’s express
goal is to stop “[a]ffording congressional representation,
and therefore formal political influence, to States on account of ” their illegal alien population. Presidential
Memorandum, 85 Fed. Reg. at 44,680. In particular,
the Memorandum itself anticipates that excluding illegal aliens from the apportionment count could reduce
the number of representatives in States with large immigrant populations, noting explicitly that in “one State

30a
. . . home to more than 2.2 million illegal aliens,” id.
—apparently, California, see Pls.’ Rule 56.1 Statement
¶¶ 3-4—the inclusion of illegal aliens could “result in the
allocation of two or three more congressional seats than
would otherwise be allocated,” Presidential Memorandum, 85 Fed. Reg. at 44,680. In addition to the Memorandum itself, Plaintiffs proffer an expert analysis that
concludes that the wholesale exclusion of illegal aliens
from the apportionment base “is likely to have substantial effects on the population counts of each state” and,
more specifically, “will almost certainly lead Texas to
lose a seat in Congress”; would “likely . . . lead California and New Jersey to lose a congressional seat”;
and “could lead other states, such as Arizona, Florida,
New York, or Illinois, to lose seats.” ECF No. 76-58
(“Warshaw Decl.”), ¶ 11.
With respect to the second category of harm, Plaintiffs submit a number of declarations—uncontested by
Defendants—demonstrating the Presidential Memorandum’s deterrent effect on participation in the decennial census, particularly among noncitizens, immigrants,
and their family members, and, in turn, the adverse consequences that are likely to flow from that deterrent effect. 7 The Presidential Memorandum deters census
Although Defendants do not dispute the facts in Plaintiffs’ declarations, they argue that the declarations are “impermissibly conjectural, conclusory, and hearsay.” Defs.’ Mem. 12. Defendants
are correct to point out that we “may consider affidavits and other
materials beyond the pleadings to resolve the jurisdictional issue,”
but “may not rely on conclusory or hearsay statements contained in
the affidavits.” New York v. U.S. Dep’t of Commerce, 315 F. Supp.
3d 766, 780 (S.D.N.Y. 2018) (internal quotation marks omitted).
But Plaintiffs’ declarations are not conclusory insofar as they describe with concrete detail the specific experience of various non7

31a
participation for at least two distinct reasons. First,
the Presidential Memorandum engenders fear and distrust among illegal aliens and their families (and, more
broadly, all noncitizens and their families), and deters
these groups from participating in the census out of fear
of providing the federal government with information by
which their citizenship status may be ascertained (and
any resulting adverse consequences). Second, because
governmental and governmental entities. By way of example, several NGO Plaintiffs give specific and concrete evidence of the ways
in which their operations have shifted to respond to the Memorandum. See, e.g., ECF No. 76-18 (“Espinosa Decl.”), ¶ 14; ECF No.
76-14 (“Choi Decl.”), ¶¶ 17, 20-21; ECF No. 76-26 (“Khalaf Decl.”),
¶ 15; ECF No. 76-36 (“Oshiro Decl.”), ¶ 12; ECF No. 76-47 (“Torres
Decl.”), ¶¶ 22-23.
Furthermore, although the declarations do contain some inadmissible hearsay (e.g., where they report information secondhand),
Defendants are incorrect in suggesting that, without it, the declarations are insufficient to support a showing that “the Presidential
Memorandum would have an appreciable effect on the participation
of illegal aliens” in the census. Defs.’ Mem. 14-15. Many of the
statements in Plaintiffs’ declarations recount comments made by immigrants in response to the Presidential Memorandum, see, e.g.,
ECF No. 76-17 (“Cullinane Decl.”), ¶ 8; ECF No. 149-3 (“Espinosa
Supp. Decl.”), ¶ 5, which are admissible to prove state of mind, see
Fed. R. Evid. 803(3). Additionally, references in the declarations
to third-party statements are admissible to demonstrate the effect
that these statements had on others—for example, that NGO Plaintiffs diverted resources in response to deterred census participation.
See, e.g., United States v. Reed, 639 F.2d 896, 907 (2d Cir. 1981). Finally, the declarations also contain information about the general atmosphere of fear, confusion, and apathy towards the census in various communities, information that is based on declarants’ personal
experiences working with and in those communities; this information
is not a “statement” and, thus, not hearsay. See Fed. R. Evid.
801(a). In the discussion that follows, we rely on the declarations
only to the extent they are admissible.

32a
the Presidential Memorandum announces that it is United
States policy “to exclude from the apportionment base
aliens who are not in a lawful immigration status,” Presidential Memorandum, 85 Fed. Reg. at 44,680—the “primary purpose of the census,” New York v. Dep’t of Commerce, 351 F. Supp. 3d at 561—illegal aliens may decide
not to participate in the census on the theory that they
do not count for any purpose or on the theory that there
is little upside to being counted.
Several agency and non-profit organization leaders
in charge of census outreach programs attest that many
illegal aliens have expressed concern over, or outright
refused to participate in, the census as a result of the
Presidential Memorandum, both because they are apprehensive that the data will be used in immigration enforcement and because they perceive their participation
as ultimately futile in light of the President’s explicit exclusion of illegal aliens for the purposes of apportionment. See, e.g., ECF No. 76-4 (“Baldwin Decl.”), ¶ 8;
ECF No. 76-5 (“Banerji Decl.”), ¶ 5; Brower Decl. ¶ 11;
Cullinane Decl. ¶ 8. Other immigrant respondents
have expressed concern that “the Trump Administration would punish undocumented persons who filled out
the Census by tracking and deporting them.” See, e.g.,
ECF No. 76-30 (“Matos Decl.”), ¶¶ 9-13 (describing Delaware-based census advocacy program’s increased need
to quell community fears that, in light of the Presidential Memorandum, responding to the census will result
in deportation or bar Latinos from obtaining citizenship).
Notably, Plaintiffs’ evidence indicates that the effects of the Presidential Memorandum are likely to be
felt beyond the illegal alien population. “Excluding

33a
undocumented immigrants from the apportionment
base will deter Census participation among the broader
immigrant community, including family and household
members of undocumented immigrants who are actually
citizens or non-citizens with legal status.” Espinosa
Decl. ¶ 11; see also Khalaf Decl. ¶ 12 (“[S]ignificant fear
and increased distrust about the Census . . . [is] not
limited to undocumented immigrants or other noncitizens, but also to family, household members, friends,
and community members of non-citizens, people for
whom the new policy articulated in the Memorandum
has generated fear about responding at all. . . . ”).
Of particular concern is the response in “mixed status
households”—that is, households consisting of illegal aliens and residents with lawful status—where concerns
about the security of identifying information being shared
with the federal government are prevalent. See, e.g.,
Espinosa Decl. ¶ 12 (describing a fear among individuals
from mixed status households that “the Presidential
Memorandum’s exclusion of people ‘not in lawful immigration status’ from the census base count indicates that
the Administration will use information from the census
to attempt to identify undocumented immigrants for deportation or other adverse consequences”). “Even U.S.born citizen Puerto Rican residents are confused” by the
Presidential Memorandum. ECF No. 76-16 (“Colón
Decl.”), ¶ 11.
In addition to this extensive—and undisputed—record of fact witness testimony, Plaintiffs provide expert
analyses describing the fear and confusion generated by
the Presidential Memorandum among hard-to-count
communities and the resultant chilling effect on census
participation. See ECF No. 76-56 (“Barreto Decl.”),

34a
¶ 14 (surveying research on the impact of media messages on immigrant communities’ trust in government
and the impact of those communities’ trust on census response rates and concluding that “the July 21 [Presidential Memorandum] will reduce participation in the 2020
census, and ultimately will reduce the accuracy of the
2020 census”); ECF No. 76-57 (“Thompson Decl.”), ¶ 3
(concluding that the Presidential Memorandum “will
significantly increase the risk of larger total and differential undercounts, relative to previous censuses, for the
hard-to-count populations, including immigrant communities”). 8

Defendants fault Dr. Barreto for failing to consider a 2019 study
conducted by the Census Bureau, ELIZABETH A. POEHLER ET AL.,
U.S. CENSUS BUREAU, 2019 CENSUS TEST REPORT: A NEW DESIGN FOR THE 21ST CENTURY (Jan. 3, 2020), https://www2.census.
gov/programs-surveys/decennial/2020/program-management/censustests/2019/2019-census-test-report.pdf (“2019 Census Test Report”),
which found “no statistically significant difference in overall self-response rates” resulting from the inclusion of a citizenship question
on the census questionnaire. Id. at ix; see Defs.’ Mem. 13. But
that study, which is not directly relevant to the issues before us, is
less useful for Defendants than their arguments suggest, as there
are findings that both sides can and do point to in support of their
positions. In fact, the same study did find statistically significant
drops in response rates “in some areas and for some subgroups,” including “[t]racts with greater than 4.9 percent noncitizens,” “[t]racts
with greater than 49.1 percent Hispanic residents,” “[t]racts with
between 5.0-20.0 percent Asian residents,” and“[h]ousing units
within the Los Angeles Regional Census Center and New York Regional Census Center boundaries.” Id. at ix-x. Furthermore, “the
results of this [study] [we]re limited to the self-response timeframe
prior to the start of” Non-Response Follow-Up operations, id. at12,
and there is reason to believe that each of Non-Response Follow8

35a
In short, the record supports a conclusion that the
Presidential Memorandum has created, and is likely to
create, widespread confusion among illegal aliens and
others as to whether they should participate in the census, a confusion which has obvious deleterious effects on
their participation rate. See ECF No. 76-1 (“Alvarez
Decl.”),¶ 10 (reporting “an increase in confusion amongst
immigrant communities after” Memorandum was issued); see also Baldwin Decl. ¶ 8; ECF No. 76-9 (“Bird
Decl.”), ¶ 9. As John Thompson, the former Director
of the Census Bureau, predicts, “the effects of the Memorandum on the current macro environment are likely
to be as great if not greater than the addition of a citizenship question.” Thompson Decl. ¶ 23 (emphasis
added); see also Barreto Decl. ¶29. And the Census Bureau’s own advertising initiatives will struggle to ward
off these effects even with “messag[ing] that respondent
information is confidential” and that “[t]he Census Bureau will not share it with any outside entities, including
law and immigration enforcement.” Thompson Decl.
¶ 21.
These deterrent effects have far-reaching ramifications, including increasing costs for census outreach
programs run by NGOs and governments. Indeed, the
NGO Plaintiffs have already diverted resources from
their other important programs to shore up their census
engagement efforts. For example, Plaintiff FIEL “has
recently had to refocus its programming and commit additional resources to its Census work,” and “expects that
it will need to interact with its constituents multiple
Up’s steps would replicate or exacerbate the effects of the net differential decline in self-response rates among noncitizen households,
see New York v. Dep’t of Commerce, 351 F. Supp. 3d at 583.

36a
times to answer questions and try to convince them to
participate in the 2020 Census.” Espinosa Decl. ¶ 14;
see also ECF No. 76-44, (“Sivongxay Decl.”), ¶ 18 (“[A]dditional one-on-one conversations and relational outreach
are necessary to maintain trust among communities and
census partners to ensure confidence that census information will remain confidential and that there are still
important benefits to responding to the census, such as
ensuring receipt of critical federal funding.”). Because
the Presidential Memorandum “dilutes the efficacy” of
the efforts by Plaintiff New York Immigration Coalition
(“NYIC”) to ensure immigrants are counted in the census, NYIC will have “to divert resources from other programmatic areas to conduct additional education and
outreach to get the same number of people to respond
to the Census questionnaire.” Choi Decl. ¶ 17. Specifically, NYIC has had to “make new materials”; “conduct new outreach”; “engage[] in member updates,
press releases, [and] press briefings”; “develop[] messaging and social media campaigns”; and “respond to inquiries from local media . . . to assure people” that
every person should respond to the Census. Id. In
other words, “NYIC expects that it will need to interact
with its constituents more times than previously planned
to try to convince them to participate in the 2020 census”
as a result of the Presidential Memorandum. Id. ¶ 20.
It estimates that the organization “will have to increase
staff time and spending devoted to its Census education
and outreach efforts by approximately 20% percent over
previously anticipated levels.” Id. ¶ 21.
Plaintiffs American-Arab Anti-Discrimination Committee (“ADC”) and ADC Research Institute (“ADRCI”)
have also had to divert resources away from other pro-

37a
grammatic areas, including critical programs responding to COVID-19 issues. Khalaf Decl. ¶ 15. In response to the Presidential Memorandum’s messaging,
ADC and ADRCI will “increase staff time and spending
devoted [to] its Census education and outreach efforts
by approximately 25[] percent over current levels,” id.
¶ 14, while the national president of both organizations
reports that he “personally spent at least 35 hours on
Census-related work since the release of the [Presidential] Memorandum” that he would have otherwise spent
on other tasks related to the operation and mission of
both organizations, id. ¶ 15. Plaintiff Ahri similarly
will increase staff time and spending devoted to census
education and outreach by approximately fifteen percent in response to the chilling effects of the Presidential Memorandum. ECF No. 76-43 (“Seon Decl.”), ¶ 17.
According to Theo Oshiro, Deputy Director at the
non-profit Make the Road New York (“MRNY), the
Presidential Memorandum also “dilutes the efficacy of
[MRNY’s] existing materials and programming, which
requires MRNY to divert resources from other programmatic areas to strategize around how to make [its]
education and outreach effective and to get the same
number of people to respond to the Census questionnaire” as they would have absent the Memorandum.
Oshiro Decl. ¶ 12. Finally, Plaintiff CASA also has had
to “devote additional resources to addressing the confusion and fear that have resulted” from the Presidential
Memorandum, including having “to reorganize its communication team, reassign staff to Census outreach and
education, and revise and redistribute messaging materials.” Torres Decl. ¶¶ 22-23.

38a
The Governmental Plaintiffs have also had to divert
resources from other programs to mitigate the confusion caused by the Presidential Memorandum. Plaintiff Illinois, for example, has already had to spend funds
on digital ads specifically designed to address misinformation about the census, has created printed materials
to be distributed, and has produced social media videos
and other digital communications to reassure the immigrant community about the importance of the census.
Alvarez Decl. ¶ 12. Plaintiff Vermont, through its 2020
Complete Count Committee, has—in direct response to
the Presidential Memorandum—provided “mini-grants”
to increase outreach to hard-to-count communities, conducted additional open educational meetings, provided
additional multilingual public service announcements,
and otherwise promoted census participation. ECF
No. 76-10 (“Broughton Decl.”), ¶ 7. Plaintiff Monterey
County will “have to dedicate significant resources to
ensure participation without fear” so that the County receives its proper census-based funding. ECF No. 7628 (“Lopez Decl.”), ¶ 18; see also ECF No. 76-12 (“Bysiewicz Decl.”), ¶ 11 (describing efforts by Plaintiff Connecticut to encourage full census participation after the
Presidential Memorandum caused “confusion”).
The Memorandum’s chilling effect on census participation will likely also degrade the census data, harming
state and local governments that rely on the data to
carry out their public functions. As Dr. Joseph Salvo,
Chief Demographer of New York City, explained, “the
July 21, 2020 Presidential memorandum is likely to make
the Census Bureau resort to less-reliable methods, including statistical imputation, more frequently in immigrant communities than it otherwise would.” Salvo

39a
Decl. ¶ 12. Specifically, when individuals fail to participate in the census themselves, the Census Bureau will
sometimes rely on “proxy respondents,” like neighbors,
landlords, and postal workers. See GLENN WOLFGANG
ET AL., U.S. CENSUS BUREAU, ANALYSIS OF PROXY
DATA IN THE ACCURACY AND COVERAGE EVALUATION 1
(2003), https://www.census.gov/pred/www/rpts/O.5.PDF.
Reliance on proxy responses “degrade[s] the quality of
the data” and its usability, since proxy respondents often leave some questions unanswered and report information less accurately than household respondents.
Brower Decl. ¶¶ 12-13 (discussing, for example, the phenomenon of “age heaping” where data on the age of individuals tends to be reported in numbers ending in 5 or
0 when a proxy is the respondent because the proxy
merely estimates the age of the individual). Further, if
census data are not available through proxy responses, demographers are forced to resort to data imputation,
which itself is reliable only when calculated using a sufficiently high self-response rate. See ECF No. 76-21
(“Hardcastle Decl.”), ¶ 5. Lower response rates also
increase the margins of error in statistical calculations,
degrading the utility of census response data and restricting Plaintiffs’ ability to rely on the data for, inter
alia, governmental planning purposes. See ECF No.
76-25 (“Kaneff Decl.”), ¶¶ 3-5.
Indeed, degraded census data jeopardizes various
sovereign interests in allocating funds and administering public works through programs that rely on quality
census data. Connecticut, for example, relies on accurate
characteristic data, meaning data on subgroups within
the population, for a wide variety of purposes, including
deciding where to locate COVID-19 testing sites, the
evaluation of requests for school construction funds, the

40a
promulgation of affirmative action plans for state agencies using data-driven goals and benchmarks, effective
forecasting for public transit planning, and others. See
ECF No. 76-31 (“McCaw Decl.”) ¶¶ 4-7. Similarly, Dr.
Salvo explains that “[t]he decennial census is the statistical backbone of our country” and that, like Connecticut, New York City relies on accurate characteristic data
about subgroups to make decisions about public health
programs and education investments, as well as emergency preparedness planning and provision of targeted
services for the elderly. Salvo Decl. ¶¶ 13-17.
Other examples abound in the record. In Monterey
County, California, for example, the Department of Social Services is responsible for administering cash and
non-cash programs that, among other things, provide
supplemental food assistance, California’s Medicaid program, foster care, adoption and aging assistance, and
temporary assistance to needy families. ECF No. 7632 (“Medina Decl.”), ¶ 2. That department relies on accurate census data in making its funding allocation decisions. Id. ¶ 4. Any undercounting of undocumented
immigrants caused by the Presidential Memorandum
will not only “impact the formulas used for funding allocations” for these basic living assistance programs, but
will also result in the loss of federal funding, “which, in
turn, will add extra financial burden on local governments, resulting in even fewer available resources to assist families with food, housing, health, and other support and safety net services.” Id.; see also, e.g., ECF
No. 76-33 (“Mohammed Decl.”), ¶¶ 5-6 (describing how
the census directly impacts funding for the City of Pittsburgh and “provides the most reliable and complete data
for research, decision making and planning in City gov-

41a
ernment”); ECF No. 76-39 (“Rodriguez Decl.”), ¶ 3 (describing how Illinois’s Workforce Innovation and Opportunity Act Program, which provides services to help certain populations overcome barriers to employment, depends on accurate census data to identify the targeted
population levels); ECF No. 76-46 (“Sternesky Decl.”),
¶ 5 (“Census data deeply influences the way that [the
New Jersey Housing and Mortgage Finance Agency]
designs and plans for the allocation of housing funds
across the state. For example, the Agency uses income, poverty, employment, housing density, and housing vacancy data from the Census to direct its annual
$20 million to $25 million allocation of federal 9% LowIncome Housing Tax Credits (LIHTC). These credits
are then used to leverage roughly a ten-fold influx of private investment into equity for development costs to
both high-opportunity and high-need areas of New Jersey.”); ECF No. 76-50 (“Wortman Decl.”), ¶¶ 3, 6 (describing how Illinois determines funding for each county
based on an “index of need” and how “[u]nderrepresentation of areas with a higher percentage of immigrants
will result in disproportionate levels of funding being allocated to counties with less demographic diversity”).
Plaintiff Washington State will also be negatively impacted if it is forced to use inaccurate census data.
Washington allocates $200 million “of state shared revenues . . . to counties and cities on a per capita basis
annually” and uses decennial census data for its demographic estimates and annual population forecasts.
Baldwin Decl. ¶¶ 14, 17. “[B]ad data will certainly lead
to inaccurate distribution of funding within Washington,
impacting all levels of government for a decade.” Id.
¶ 15. “Poor quality census data will [also] harm Wash-

42a
ington’s ability to carry out the population data functions required by law both in the short term and the long
term.” Id. ¶ 28. In particular, Washington annually
creates a thirty-year population forecast, meaning that
the 2020 census data will be used in forecasting until at
least the 2050 census data is available, if not longer.
See id. ¶ 25. Because “many estimate and forecast
models rely on information about changes in trends over
time,” “[a]n inaccurate census this year will change the
relationships in the data between censuses and make all
future estimates and forecasts based on these trends
less accurate.” Id.
Finally, the undisputed facts in the record also reflect
that judicial relief invalidating the Presidential Memorandum would likely reduce the confusion felt by immigrant communities and therefore alleviate some of the
injuries being felt by Plaintiffs. For example, Plaintiff
FIEL anticipates that “a court order that stops the exclusion of undocumented immigrants from the census
would make [its] efforts to encourage census participation easier by allowing [FIEL] to clarify the confusion
and help ease the fear caused by” the Presidential Memorandum, and that “it would take FIEL less time and
fewer resources to convince” the community “to participate in the census.” Espinosa Supp. Decl. ¶ 3. Relief
would also help Plaintiff MRNY “conduct more efficient
and effective census outreach” because MRNY could
clarify to community members that everyone should, in
fact, be counted. ECF No. 194-4 (“Oshiro Supp. Decl.”),
¶ 5. And relief from this Court would also allow Plaintiff Ahri to “publicize the Court’s order to encourage [its]
community to open their doors to census outreach workers, rather than hiding out of confusion or fear and

43a
avoiding the census completely.” ECF No. 194-5 (“Seon
Supp. Decl.”), ¶¶ 6-7.
C.

Standing Analysis

As noted, Plaintiffs allege two types of harm: apportionment harms stemming directly from the exclusion of
illegal aliens from the apportionment base and harms
caused by the deterrent effect on census participation.
We have considerable doubt that the former suffices to
establish jurisdiction. To be sure, if any Plaintiff could
show that, as a result of the Presidential Memorandum,
it was likely to lose one or more seats in the House of
Representatives, it would surely have standing. See,
e.g., House of Representatives, 525 U.S. at 331 (holding
that the loss of a seat or seats in the House of Representatives “undoubtedly satisfies the injury-in-fact requirement of Article III standing”). But as of today, it
is not known whether that harm will come to pass, as the
Secretary has not yet determined how he will calculate
the number of illegal aliens in each State or even
whether it is “feasible” to do so at all. Oral Arg. Tr. 3537. In the absence of that information, Plaintiffs’ first
theory of harm is likely “too speculative for Article III
purposes.” Clapper, 568 U.S. at 409 (internal quotation marks omitted). Nor, for these purposes, would
there be any harm in waiting until January 2021, when
the impact, if any, of the Presidential Memorandum
would be known, as the Supreme Court has held that an
illegal apportionment can be remedied even after the apportionment process has taken place. See Utah v. Evans, 536 U.S. 452, 462-63 (2002).
Ultimately, however, we need not, and do not, decide
the issue because we conclude that Plaintiffs’ second
theory of harm—that the Presidential Memorandum

44a
will have and, indeed, is already having, an effect on the
census count itself—suffices to establish standing. Critically, this theory of harm does not depend on what, if
anything, the Secretary does in the future to implement
the President’s mandate in the Presidential Memorandum. Instead, it is based on Plaintiffs’ undisputed evidence that the Presidential Memorandum is affecting
the census count in the present. That is, while the apportionment harms may well be too remote and hypothetical to support standing, the harms to the census
count are “certainly impending” and do not depend on
“a highly attenuated chain of possibilities.” Clapper,
568 U.S. at 410. Notably, Defendants do not argue otherwise. Instead, they contend that Plaintiffs’ second
theory of harm is too “speculative” in a different sense:
because Plaintiffs’ evidence is inadequate to prove that
the Presidential Memorandum has caused (or will cause)
anyone to opt out of participating in the census or that
judicial relief would redress that harm. See Defs.’
Mem. 11-19. In defense counsel’s view, Plaintiffs should
be required “to identify some subset of people who
would not have been chilled . . . from answering the
census between April 1st and July 21st, then became
chilled on July 21st after the memorandum was issued,
and then will be unchilled in [the time remaining before
the census ends] by an order of this Court.” Oral Arg.
Tr. 38; see also Defs.’ Mem. 52 (citing lack of “rigorous
survey[s] or statistical stud[ies] measuring whether [the
Presidential Memorandum] . . . has any effect on
response rates within immigrant communities”).
Defendants’ vastly overstate Plaintiffs’ burden.
The law does not require Plaintiffs to submit a randomized control trial or other rigorous statistical analysis

45a
demonstrating beyond peradventure that there are people who would have participated in the census but for
the Presidential Memorandum and who would participate again if we were to grant Plaintiffs the relief they
seek. Nor do Plaintiffs need to submit declarations
specifically identifying such people, let alone submit
declarations from such people. Instead, Plaintiffs need
only demonstrate that “there is no genuine dispute as to
any” fact material to the standing analysis. Fed. R.
Civ. P. 56(a). Notably, in determining whether this
standard has been met, we may rely not only on the declarations submitted by Plaintiffs in support of their motion, but also on common sense, basic economics, and
reasonable inferences. See, e.g., Friends of the Earth,
528 U.S. at 183-85 (determining that “sworn statements
. . . adequately documented injury in fact” where the
proposition they were offered for was “entirely reasonable”); Citizens for Responsibility & Ethics in Wash. v.
Trump (CREW), 953 F.3d 178, 198 (2d Cir. 2019) (noting
that a court may rely on “common sense and basic economics” in evaluating standing (internal quotation marks
omitted)); Nat. Res. Def. Council v. Nat’l Highway
Traffic Safety Admin., 894 F.3d 95, 104-05 (2d Cir. 2018)
(relying on the defendant agency’s “own pronouncements,” as well as “[c]ommon sense and basic economics,” to find standing (internal quotation marks omitted)); Carpenters Indus. Council v. Zinke, 854 F.3d 1, 6
(D.C. Cir. 2017) (Kavanaugh, J.) (“When performing
that inherently imprecise task of predicting or speculating about causal effects [in standing analysis], common
sense can be a useful tool.”); Texas v. United States, 809
F.3d 134, 156 (5th Cir. 2015) (finding that Texas had established the necessary causal connection between the
Deferred Action for Parents of Americans and Lawful

46a
Permanent Residents (“DAPA”) program and a future
injury because DAPA would have “enable[d]” third parties “to apply for driver’s licenses” and there was “little
doubt that many would do so”), aff ’d by an equally divided Court, 136 S. Ct. 2271 (2016) (per curiam).
Requiring Plaintiffs to do more would be particularly
inappropriate here for two reasons. First, “the integrity of the census is a matter of national importance.
As noted, the population count has massive and lasting
consequences. And it occurs only once a decade, with
no possibility of a do-over if it turns out to be flawed.”
New York v. Dep’t of Commerce, 351 F. Supp. 3d at 517;
see Departments of Commerce, Justice, and State, the
Judiciary, and Related Agencies Appropriations Act,
1998 (“1998 Appropriations Act”), § 209(a)(8), Pub. L.
No. 105-119, 111 Stat. 2440, 2480-81 (1997) (“Congress
finds that . . . the decennial enumeration of the population is a complex and vast undertaking, and if such
enumeration is conducted in a manner that does not
comply with the requirements of the Constitution or
laws of the United States, it would be impracticable for
the States to obtain, and the courts of the United States
to provide, meaningful relief after such enumeration has
been conducted.”). Second, Defendants’ own conduct
has forced Plaintiffs’ hands. That is, for reasons that
are unclear, the President waited until July 21, 2020,
when the census was in full swing, to issue his Presidential Memorandum. Compounding matters, Defendants
announced less than two weeks later that they were ending the census earlier than previously planned. The
combination of the two meant that Plaintiffs had to rush
to court and seek immediate relief; had they waited to
develop more rigorous proof of their standing, their arguments about harms to the census count itself would

47a
have become moot. Between the sheer enormity of
what is at stake and the fact that Defendants’ own conduct gave Plaintiffs only a narrow window in which to
seek effective relief, it would be the height of unfairness
to hold Plaintiffs to the heightened burden of proof that
Defendants endorse.
In light of the undisputed facts in the record, common
sense, and basic economics, we are satisfied that—with
their second theory of harm—Plaintiffs adequately
show injury in fact, traceability, and redressability and
that we have before us an actual case or controversy “of
the sort traditionally amenable to, and resolved by, the
judicial process.” Steel Co., 523 U.S. at 102. Moreover, Defendants “have failed to set forth any specific
facts showing that there is a genuine issue of standing
for trial.” House of Representatives, 525 U.S. at 330.
1.

Injury in Fact

To begin, Plaintiffs have proved that, in the wake of
the Presidential Memorandum, some number of people
will not participate in, and thus not be counted in, the
census. As of August 3, 2020—the day the Census Bureau announced that field operations would end a month
earlier than previously planned, and approximately two
weeks after the Presidential Memorandum was issued
—the Census Bureau had counted only about sixtythree percent of households in the 2020 census. See
Statement from U.S. Census Bureau Director Steven
Dillingham: Delivering a Complete and Accurate 2020
Census Count, U.S. CENSUS BUREAU (Aug. 3, 2020),
https://www.census.gov/newsroom/press-releases/2020/
delivering-complete-accurate-count.html. Many of those
not counted are undoubtedly in the “hard to count” pop-

48a
ulation, which includes immigrant and Hispanic populations as well as illegal aliens. See New York v. Dep’t of
Commerce, 351 F. Supp. 3d at 577. The record in the
citizenship question litigation and the declarations here
make clear that this population is even “harder” to count
during this census due to widespread concerns, fueled
by the policies and rhetoric of this Administration, that
census data will be used for immigration enforcement
purposes. See id. at 562, 579-83; Colón Decl. ¶ 11;
Oshiro Decl. ¶¶ 12, 14; Seon Decl. ¶ 16; Barreto Decl.
¶¶ 60-62. Plaintiffs’ uncontested declarations and common sense indicate that the Presidential Memorandum
has compounded, and will compound, these concerns,
and that some number of people in these communities
will choose not to participate in the census and take
steps to avoid being counted. See, e.g., Cullinane Decl.
¶ 8; Espinosa Supp. Decl. ¶ 5. To be sure, on the present record, the Court cannot calculate with precision
the number of people that will be so affected. But there
is no doubt that that number is greater than zero, and
there is a substantial likelihood that an appreciable
number of people will be dissuaded from participating in
the census. See Barreto Decl. ¶¶ 60-65.
From these ongoing and direct effects on the census
flow several forms of injury to Plaintiffs and their members or citizens. First, insofar as Plaintiffs include or
represent high concentrations of immigrant and Hispanic populations, the effects on the census undoubtedly
create a risk of a net differential undercount that could
result in the loss of political power and federal funds,
two classic forms of Article III injury. See New York
v. Dep’t of Commerce, 351 F. Supp. 3d at 607-08; Carey
v. Klutznick, 637 F.2d 834, 838 (2d Cir. 1980) (per curiam); Barreto Decl. ¶¶ 70-71; Thompson Decl. ¶¶ 13-17.

49a
Given the time sensitivities inherent in their claims of
census-related injuries—there were little more than two
months remaining for census operations when the President issued the Presidential Memorandum and, less
than two weeks later, Defendants shortened that period
by a full month—Plaintiffs have obviously not had an opportunity to perform any sort of empirical study on the
size of the likely effects on the census that would reveal
the likelihood of such injuries. In any event, the likelihood of two other forms of injury are more certain on
the current record: degradation of the quality of, and
ability to have confidence in, census data and diversion
by the NGO Plaintiffs of organizational resources.
a.

Degradation of Census Data

First, if a portion of the population does not participate in the census count, it will inevitably degrade the
quality and accuracy of census data, even if only at the
subgroup or local level. Salvo Decl. ¶¶ 8-12. That is
particularly true if, as is the case here, the people who
are not counted are not evenly distributed across the
population, but are concentrated, either geographically
or demographically. See Barreto Decl. ¶ 83; Thompson
Decl. ¶¶ 15-17, 23. The degradation of census data, in
turn, harms the Governmental Plaintiffs’ ability to allocate resources, such as educational and public health resources, efficiently and effectively. See McCaw Decl.
¶¶ 3-6; Medina Decl. ¶¶ 2-4; Baldwin Decl. ¶¶ 15-28.
Separate and apart from that, it harms confidence in the
census data. See Kaneff Decl. ¶ 5 (“The lower the response rate, the larger the margin of error in the demographic characteristics.”). Crucially, these harms will
occur whether or not there is a net differential under-

50a
count—meaning that this theory of injury does not depend on connecting the deterrent effect of the Presidential Memorandum on immigrant households and the like
to a net differential undercount of people who live in
such households. See New York v. Dep’t of Commerce,
351 F. Supp. 3d at 610-11; Salvo Decl. ¶¶ 14-18.
As explained in New York v. Department of Commerce, the degradation of census data is a legally cognizable form of injury sufficient to support standing.
See 351 F. Supp. 3d at 610-15. In particular, a State or
local government that relies on the information provided
by the federal government under an existing statutory
arrangement suffers a sufficiently “concrete” and “particularized” injury for purposes of Article III when the
federal government degrades the quality of that information. States are sovereign entities with sovereign
interests in the making and enforcement of their own
laws. See Alfred L. Snapp & Son, Inc. v. Puerto Rico
ex rel. Barez, 458 U.S. 592, 601 (1982); cf. Maryland v.
King, 567 U.S. 1301 (2012) (Roberts, C.J., in chambers)
(concluding that Maryland suffered an injury to its “law
enforcement and public safety interests” from a lowercourt order preventing the State from utilizing DNA
samples for law enforcement purposes pursuant to a
state statute). But they frequently do so in collaboration with, or in reliance on, the federal government—
such is the genius of the federal system, which has historically embraced various creative models of “cooperative federalism.” See, e.g., New York v. United States,
505 U.S. 144, 167-69 (1992); Hodel v. Va. Surface Mining & Reclamation Ass’n, Inc., 452 U.S. 264, 286-89
(1981). States have long relied on federal decennial
census data for countless sovereign purposes, and indeed many of the State Plaintiffs here even require the

51a
use of such data by law; in some instances, it is written
into their state constitutions. See, e.g., Rapoza Decl.
¶ 5 (explaining that the Rhode Island Constitution mandates using census data to establish the House and Senate districts); Brower Decl. ¶¶ 17, 22-23 (explaining that
Minnesota law requires the use of census data to determine funding for roads and education).
Meanwhile, by virtue of the Constitution and the
Census Act, it is, of course, the federal government’s job
to collect and distribute accurate federal decennial census data. See U.S. Const. art. I, § 2, cl. 3; see also Evans, 536 U.S. at 478 (explaining that the Framers had a
“strong constitutional interest in [the] accuracy” of the
census); Wisconsin v. City of New York, 517 U.S. 1, 20
(1996) (holding that the conduct of the census must bear
a “reasonable relationship to the accomplishment of an
actual enumeration of the population, keeping in mind
the constitutional purpose of the census,” namely, obtaining an accurate count of the population in each
State); 1998 Appropriations Act, Pub. L. No. 105-119,
§ 209(a)(6), 111 Stat. at 2481 (“Congress finds that . . .
it is essential that the decennial enumeration of the population be as accurate as possible, consistent with the
Constitution and laws of the United States. . . . ”).
When the federal government degrades the quality of
that data, it therefore inflicts a cognizable injury on the
sovereign interests of reliant States. 9
That does not mean that, in every case, a State will have a “right”
to such data—or a right to data of a certain quality—sufficient to
support a valid cause of action to obtain it. But it does mean that a
State suffers a concrete and particularized injury when the federal
government degrades important tools of sovereignty—or takes
those tools away altogether.
9

52a
An example may be helpful in illustrating the point.
Suppose a State were to premise certain of its policies
on a person’s lawful presence in the United States—for
example, suppose that it chose to deny certain benefits
to undocumented immigrants or required its law-enforcement officials to inquire into the immigration status of any person detained in state custody for any reason. “The accepted way” for States “to perform [such]
status checks”—and surely the most reliable—is to contact the DHS’s Immigration and Customs Enforcement
(“ICE”), the federal agency that accepts and responds
to such inquiries from interested States. Arizona v.
United States, 567 U.S. 387, 411 (2012). Now suppose
that ICE were to degrade the quality of its data set,
thereby undermining its usefulness to the State as a tool
for implementing its policy priorities. If this hypothetical State were to challenge the decisions causing the
degradation in immigration-status data, the federal
agency could certainly defend its actions on the grounds
that they were lawful. But could it seriously deny that
the State had suffered a cognizable injury for purposes
of standing? Surely not.
Indeed, ample case law supports the proposition that
a State has a strong sovereign interest in conducting its
own policy, the burdening of which causes an injury in
fact for Article III purposes. One such sovereign interest is a State’s “exercise of sovereign power over individuals and entities within [its] jurisdiction—this involves the power to create and enforce a legal code, both
civil and criminal.” Alfred L. Snapp & Son, 458 U.S. at
601. Another such sovereign interest—which, in light
of the frequent prohibition on parens patriae suits against
the federal government, see Massachusetts v. Mellon,
262 U.S. 447, 485-86 (1923), is “distinct from . . . the

53a
general well-being of its residents”—is a State’s “interest in securing observance of the terms under which it
participates in the federal system,” Alfred L. Snapp &
Son, 458 U.S. at 607-08; cf. Maine v. Taylor, 477 U.S.
131, 137 (1986) (“[A] State clearly has a legitimate interest in the continued enforceability of its own statutes.”);
Diamond v. Charles, 476 U.S. 54, 65 (1986) (“Because
the State alone is entitled to create a legal code, only the
State has the kind of ‘direct stake’ . . . in defending
the standards embodied in that code.”).
The Fifth Circuit’s decision in Texas v. United States,
809 F.3d 134, is instructive on this front. In that case,
Texas led a coalition of States in a challenge to the
Obama Administration’s DAPA program. The Court
held that the States had suffered a cognizable injury for
purposes of standing because DAPA would have entitled
its recipients to obtain driver’s licenses under existing
state law and providing those licenses would have come
at a financial cost to Texas. See id. at 155-56. In
denying a stay of the district court’s preliminary injunction pending appeal, the Fifth Circuit cited Alfred L.
Snapp & Son, explained that Texas possessed a sovereign interest in the maintenance of its own legal code,
and held that “Texas’s forced choice between incurring
costs and changing its laws is an injury because those
laws exist for the administration of a state program, not
to challenge federal law, and Texas did not enact them
merely to create standing.” Texas v. United States,
787 F.3d 733, 749 (5th Cir. 2015). The court reasoned
that “if pressure to change state law in some substantial
way were not injury, States would have no standing to
challenge bona fide harms because they could offset
most financial losses by raising taxes or fees.” Id.

54a
Several months later, the Fifth Circuit affirmed the preliminary injunction on the merits, reiterating and confirming its conclusions as to standing. The court held
that “states may have standing based on . . . federal
interference with the enforcement of state law, at least
where the state statute at issue regulates behavior or
provides for the administration of a state program and
does not simply purport to immunize state citizens from
federal law.” Texas, 809 F.3d at 153 (alterations, footnotes, and internal quotation marks omitted). Such “intrusions,” the court explained, “are analogous to pressure
to change state law.” Id.
Like the state plaintiffs in Texas, many Governmental Plaintiffs here have enacted their reliance on federal
census data into law—in some cases, as noted, even into
their constitutions. Moreover, as in Texas, “there is no
allegation,” let alone proof, that those jurisdictions enacted their laws or ratified their constitutions “to manufacture standing” in these cases. Id. at 159. If the
census data is degraded (or even perceived to be degraded), these Plaintiffs will be subjected to a forced
choice: They can use the degraded data, resulting in
worse policy; they can spend money to compensate for
the damage; or they can change their laws to relieve
themselves of the legal obligation to use federal census
data in making and enforcing their laws (which would
presumably necessitate the expenditure of additional
resources to collect data of their own anyway). Such
“pressure[] to change state law constitutes an injury”
within the meaning of Article III. Texas, 787 F.3d at
749; see Texas, 809 F.3d at 153. Accordingly, most, if
not all, of the Governmental Plaintiffs have proved an
imminent injury to their sovereign interests due to the
degradation in quality of census data.

55a
b.

Diversion of Resources

Additionally, the risk that some hard to count population will not participate in census results in another
form of injury: the diversion of resources. In Havens
Realty Corp. v. Coleman, 455 U.S. 363, 379 (1982), the
Supreme Court held that an organization can establish
Article III injury in fact by proving “concrete and demonstrable injury to [its] activities—with the consequent drain on [its] resources.” See also id. at 379 n.21
(holding that an organization that proves it “has indeed
suffered impairment” in its activities has proved an Article III injury); Nnebe v. Daus, 644 F.3d 147, 157 (2d
Cir. 2011); Ragin v. Harry Macklowe Real Estate Co., 6
F.3d 898, 904-06 (2d Cir. 1993). In particular, “a nonprofit organization establishes an injury-in-fact if . . .
it establishes that it spent money to combat activity that
harms its organization’s core activities.” Centro de la
Comunidad Hispana de Locust Valley v. Town of Oyster Bay, 868 F.3d 104, 111 (2d Cir. 2017) (internal quotation marks omitted). “An organization need only
show a ‘perceptible impairment’ of its activities in order
to establish injury in fact.” New York v. U.S. Dep’t of
Homeland Sec., 969 F.3d at 61 (quoting Ragin, 6 F.3d
898 at 905).
As they did in New York v. U.S. Department of Commerce, Defendants appear to suggest that Havens Realty recognizes Article III injuries arising from organizational expenditures only where those expenditures
are made in response to injuries that are themselves sufficiently imminent and impending to satisfy Article III.
See Defs.’ Reply 3; Oral Arg. Tr. 42-43; see also New
York v. Dep’t of Commerce, 351 F. Supp. 3d at 616. Organizations asserting standing based on the diversion-

56a
of-resources theory do indeed need to “show that both
the anticipated expenditures and ensuing harm to their
organizations’ activities are ‘certainly impending,’ ” Knife
Rights, Inc. v. Vance, 802 F.3d 377, 389 (2d Cir. 2015)
(quoting Clapper, 568 U.S. at 409), lest these plaintiffs
be permitted to “manufacture standing merely by inflicting harm on themselves based on their fears of hypothetical future harm,” Clapper, 568 U.S. at 416. But
that standard does not mean that a plaintiff must allege
a second form of independently adequate injury in fact,
which “would render the category of plaintiffs that could
establish standing under a Havens Realty theory a null
set” and make Havens Realty a dead letter. New York
v. Dep’t of Commerce, 351 F. Supp. 3d at 616. Instead,
however “inexact” the standard may be, “courts are inclined to find standing if it can be said that there is no
better time to resolve the issues raised by the parties—
that is, when they will be in no better position later than
now.” Young Advocates for Fair Educ. v. Cuomo, 359
F. Supp. 3d 215, 237 (E.D.N.Y. 2019) (internal quotation
marks omitted).
Plaintiffs satisfy these standards. First, Defendants do not dispute, and the Court has little trouble concluding, that the impairment alleged by NGO Plaintiffs
goes to their core activities. See, e.g., Common Cause
Ind. v. Lawson, 937 F.3d 944, 955 (7th Cir. 2019) (“The
Organizations in this case have shown that Act 442’s effect on their work goes far beyond ‘business as usual.’
They have done so through concrete evidence showing
that Act 442 is already disrupting their operations.
. . . ”); OCA-Greater Hous. v. Texas, 867 F.3d 604, 610
(5th Cir. 2017) (“The undisputed summary-judgment evidence established that [the plaintiff’s] primary mission

57a
is voter outreach and civic education, particularly ‘getting out the vote’ among its members.”). Each of the
NGO Plaintiffs is primarily dedicated to serving and advocating for communities that have traditionally been
undercounted by the census, and each is dedicated to
promoting census participation in these communities.
See Choi Decl. ¶¶ 3-6; Oshiro Decl. ¶¶ 2-5; Espinosa
Decl. ¶¶ 2, 5-7; Khalaf Decl. ¶¶ 4-8; Seon Decl. ¶¶ 2-6;
Torres Decl. ¶¶ 1, 5-11. In fact, several NGO Plaintiffs
partner with the Census Bureau and/or state and local
governments to promote census participation within
these communicates. See, e.g., Torres Decl. ¶ 11; Espinosa Supp. Decl. ¶ 6.
Second, Plaintiffs’ uncontested declarations demonstrate that the NGO Plaintiffs have diverted resources
in response to the Presidential Memorandum’s chilling
effects on participation in the census and the risks that
poses for their members and their core activities. See
Choi Decl. ¶¶ 14-27; Espinosa Decl. ¶¶ 14-17; Khalaf
Decl. ¶¶ 8-16; Oshiro Decl. ¶¶ 15-17; Seon Decl. ¶¶ 17-19;
Torres Decl. ¶¶ 2, 21-23; ECF No. 149-1 (“Awadeh
Decl.”), ¶¶ 4-5; Espinosa Supp. Decl. ¶¶ 7-8; Oshiro
Supp. Decl. ¶¶ 2, 4; Seon Supp. Decl. ¶ 4. 10 For example, Steven Choi, the executive director of Plaintiff New
York Immigration Coalition (“NYIC”), states that his
organization had to develop new messaging and social
media campaigns, and issue new member updates and
press releases, to counter the Presidential Memorandum’s
contradiction of themes that had previously been core to
Plaintiffs provide evidence of similar resource diversions by
similarly situated organizations, albeit not Plaintiffs here. See
Banerji Decl. ¶¶ 5-6; Matos Decl. ¶¶ 9-14; Sivongxay Decl. ¶¶ 16-20,
23-24; ECF No. 76-51 (“Aranda-Yanoc Decl.”), ¶ 8.
10

58a
NYIC’s census outreach efforts.
Choi Decl. ¶ 17.
NYIC expects to increase staff time and spending by
twenty percent over previously anticipated levels to
achieve its census outreach and advocacy goals. See id.
¶ 21. Similarly, Plaintiff Ahri had to develop entirely
new outreach materials, train staffers with new scripts,
and respond to media inquiries; it expects to increase
staff time and spending devoted to these efforts by fifteen percent as a result of the Presidential Memorandum. See Seon Decl. ¶¶ 17-19. Meanwhile, Plaintiffs
ADC and ADRCI anticipate increasing staff time and
spending devoted to Census efforts by approximately
twenty-five percent as a result of the Memorandum, see
Khalaf Decl. ¶ 14, and Plaintiff FIEL “anticipates having to divert approximately $5,000 from other mission
critical programs and services to the 2020 Census education and outreach as a result of the Presidential Memorandum,” Espinosa Decl. ¶ 15.
These resource diversions may not be large in absolute terms, but they constitute a “perceptible impairment” of the NGO Plaintiffs’ activities and thus qualify
as injuries in fact. New York v. U.S. Dep’t of Homeland Sec., 969 F.3d at 61 (internal quotation marks omitted); see OCA-Greater Hous., 867 F.3d at 612 (“[T]he injury alleged as an Article III injury-in-fact need not be
substantial; it need not measure more than an identifiable trifle.” (internal quotation marks omitted)). In
short, the NGO Plaintiffs “are dedicated to providing an
array of legal and social services to non-citizens and
they have expended significant resources to mitigate the
[Presidential Memorandum’s] impact on those they
serve. In so doing, they have diverted resources that
would otherwise have been available for other program-

59a
ming, a perceptible opportunity cost that suffices to confer standing.” New York v. U.S. Dep’t of Homeland
Sec., 969 F.3d at 61 (internal quotation marks omitted);
see also Common Cause Ind., 937 F.3d at 952 (“According to the evidence put forward by the Organizations,
Act 442 has created a culture of voter confusion, and it
has already inflicted costs on them.”); OCA-Greater
Hous., 867 F.3d at 612 (“[The plaintiff] went out of its
way to counteract the effect of Texas’s allegedly unlawful voter-interpreter restriction . . . with a view toward . . . mitigating its real-world impact on [the
plaintiff’s] members and the public . . . an undertaking that consumed its time and resources in a way
they would not have been spent absent the Texas law.
Hence, the Texas statutes at issue ‘perceptibly impaired’ OCA’s ability to ‘get out the vote’ among its
members.”).
2.

Traceability

Next, we have little trouble finding that these injuries in fact are fairly traceable to the Presidential Memorandum. Once again, the uncontested record and common sense satisfy Plaintiffs’ burden. Plaintiffs demonstrate that the Presidential Memorandum’s chilling effect
on immigrant census participation is at least partially
responsible for a degradation in the quality of census
data. See, e.g., ECF No. 76-24 (“Jimenez Decl.”), ¶¶ 35 (explaining that the Memorandum’s deterrence effect
on immigrant household census participation will cause
an undercount and a subsequent reduction in federal
healthcare, infrastructure, and education funding for
Plaintiff Monterey County); Salvo Decl. ¶ 12 (noting that
the Presidential Memorandum “is likely to make the

60a
Census Bureau resort to less-reliable methods, including statistical imputation, more frequently in immigrant
communities than it otherwise would” which will “result[] in poorer quality (less accurate) data both in terms
of demographic characteristics as well as the actual
count of persons”). NGO Plaintiffs have also made
clear that the Presidential Memorandum is responsible
for their diversion of resources; in other words, they are
expending resources they would not otherwise precisely
because of the Presidential Memorandum. See, e.g.,
Choi Decl. ¶¶ 20-21; Khalaf Decl. ¶¶ 14-15; Seon Decl.
¶ 17; Oshiro Supp. Decl. ¶¶ 3-4; Torres Decl. ¶¶ 22-23;
Espinosa Supp. Decl. ¶ 4. This undisputed evidence
satisfies Plaintiffs’ burden to demonstrate the “de facto
causality” that Article III demands. Dep’t of Commerce v. New York, 139 S. Ct. at 2566 (internal quotation
marks omitted).
In arguing otherwise, Defendants point out that
Plaintiffs’ theory of causation relies in part on the intervening actions of third-party actors, such as Spanishlanguage media disseminating information about the
Presidential Memorandum. See Defs.’ Mem. 16. “It
makes little sense,” they argue, “for Plaintiffs to attribute whatever harm is caused by those independent actors to the Memorandum itself, particularly if their messages convey the incorrect impression that the Memorandum increases the risk of individuals’ information being linked to immigration records and those individuals
facing immigration enforcement.” Id. (internal quotation marks and alterations omitted). More broadly,
they assert that Plaintiffs’ injuries are traceable to the
“macro environment” of fear in the immigrant and Hispanic communities that predated the Presidential Memorandum, not to the Memorandum itself. Id. at 15-19.

61a
These arguments are unpersuasive. For one thing,
they ignore entirely Plaintiffs’ evidence that the Presidential Memorandum has deterred, and will continue to
deter, people from participating in the census because
they conclude “that they don’t see a benefit in filling out
the census form if they will not be counted.” Pls.’ Mem.
43 (internal quotation marks and alterations omitted);
see, e.g., Choi Decl. ¶ 17; Cullinane Decl. ¶ 9; Matos Decl.
¶¶ 11, 13; Oshiro Decl. ¶¶ 10-12; ECF No. 76-38 (“Roche
Decl.”), ¶ 9; Torres Decl. ¶ 19; Espinosa Supp. Decl.
¶¶ 5-6. For such people, the chain of causation between
the Presidential Memorandum and non-participation has
only a single link. Thus, Plaintiffs need not and do not
rely on the dissemination of information by third parties
to establish that certain illegal aliens will plausibly—
even rationally—decide not to participate based directly
on a correct understanding of the Presidential Memorandum’s import.
Second, as noted above, the Supreme Court has long
made clear that the defendant’s conduct need not be
“the very last step in the chain of causation.” Bennett,
520 U.S. at 169. Indeed, the traceability requirement
may be met even where several steps on the causal chain
stand between the defendant’s conduct and the plaintiff’s injury. Davis v. Federal Election Commission,
554 U.S. 724, for example, involved a challenge to a campaign finance law that increased campaign contribution
limits for any candidate whose opponent’s personal campaign expenditures exceeded his own by a certain amount.
At the time of filing, the plaintiff was at least three steps
away from suffering any concrete harm: He had to spend
a sufficient amount of his own money; his opponent had to
refrain from a comparable level of self-funding; and his

62a
opponent had to then take advantage of the law by accepting heightened contributions. Even so, the Court
found that the plaintiff faced a “real, immediate, and direct [injury] . . . when he filed suit.” Id. at 734.
Notably, the Court deemed that assumption valid based
on little more than evidence that “most candidates who
had the opportunity to receive expanded contributions
had done so.” Id. at 735 (emphasis added). Moreover, the Court did not require proof that the government
conduct had a coercive effect on the third party’s action;
evidence that allowed the Court to predict how the third
party would likely act in response to the government action was sufficient. See id.; see also Lujan, 504 U.S. at
562 (noting that, when injury depends on the conduct of
third parties, it is sufficient to show “choices have been
or will be made in such manner as to produce causation
and permit redressability” (emphasis added)); Nat. Res.
Def. Council, 894 F.3d at 104-05 (finding “the agency’s
own pronouncements,” as well as “[c]ommon sense and
basic economics,” supported a conclusion that an “increased penalty has the potential to affect [third parties’] business decisions and compliance approaches” in
a manner that would result in harm to the petitioners
(internal quotation marks omitted)).
In light of these principles and cases, Defendants’ arguments are unpersuasive. At the end of the day, they
are little more than a rehash of Defendants’ arguments
in the citizenship question litigation, which were rejected.
There, like here, Defendants argued that Plaintiffs’ injuries were not “fairly traceable” to their conduct because
the injuries depended on the intervening acts of third
parties influenced by misinformation—namely, that the
federal government could use their census answers for

63a
law enforcement and immigration enforcement purposes. New York v. Dep’t of Commerce, 351 F. Supp.
3d at 623-24. There, like here, Defendants argued that
Plaintiffs’ injuries were not “fairly traceable” to their
conduct because the injuries were attributable to an independently existing macro environment of fear permeating the immigrant and Hispanic communities. Id. at
621-22. Yet the Supreme Court rejected those arguments. As that Court reaffirmed, “Article III requires
no more than de facto causality,” a standard that is met
where Government action has a “predictable effect
. . . on the decisions of third parties.” Dep’t of Commerce v. New York, 139 S. Ct. at 2566 (internal quotation
marks omitted). Here, as in the citizenship question
litigation, Plaintiffs have proved that their injuries arise
from the predictable effects of Government action, however rational or reasonable those effects may be.
3.

Redressability

Finally, we conclude that Plaintiffs satisfy the redressability requirement as well. To be sure, Plaintiffs
have not proved—and perhaps could not prove—that a
favorable ruling would lead everyone who has decided,
or will decide, not to participate in the census as a result
of the Presidential Memorandum to change course.
But Plaintiffs’ burden is not to show that a favorable
court ruling would fully remedy the injuries that they
have suffered or will suffer. Instead, they need show
only that the “risk [of harm] would be reduced to some
extent if [they] receive[] the relief they seek.” Massachusetts v. E.P.A., 549 U.S. at 526 (emphasis added); see
also CREW, 953 F.3d at 194 (finding the redressability
requirement satisfied because “it logically follows that
relief would redress [the plaintiffs’] injury—at least to

64a
some extent”); Parsons v. U.S. Dep’t of Justice, 801 F.3d
701, 716 (6th Cir. 2015) (“[I]t need not be likely that the
harm will be entirely redressed, as partial redress can
also satisfy the standing requirement.”).
The Supreme Court’s decision in Massachusetts v.
E.P.A. is instructive. There, Massachusetts and other
States challenged the EPA’s decision not to regulate
four greenhouse gases within the United States. On
appeal, the Supreme Court held that the States had
standing to challenge the EPA’s decision based on their
showing, through “unchallenged affidavits,” that climate
change was caused by greenhouse gases and caused various harms. 549 U.S. at 522. The Court did so despite
the EPA’s contention that there was no “realistic possibility” that the relief sought “would mitigate global climate change and remedy their injuries,” particularly
“because predicted increases in greenhouse gas emissions from developing nations” were “likely to offset any
marginal domestic decrease.” Id. at 523-24. The
Court explained:
While it may be true that regulating motor-vehicle
emissions will not by itself reverse global warming, it
by no means follows that we lack jurisdiction to decide whether EPA has a duty to take steps to slow
or reduce it. Because of the enormity of the potential consequences associated with manmade climate
change, the fact that the effectiveness of a remedy
might be delayed . . . is essentially irrelevant.
Nor is it dispositive that developing countries . . .
are poised to increase greenhouse gas emissions substantially over the next century: A reduction in domestic emissions would slow the pace of global emissions increases, no matter what happens elsewhere.

65a
Id. at 525-26 (citation and footnote omitted). Notably,
the Court did not demand empirical proof that the remedy sought would have any marginal effect on global
warming. The causal connection between greenhouse
gases and climate change, combined with the EPA’s “ardent support for various voluntary emission-reduction
programs” (with which the “EPA would presumably not
bother . . . if it thought emissions reductions would
have no discernable impact on future global warming”),
was enough. Id. at 526 (internal quotation marks omitted). Because the relief sought would reduce the risk
of injury “to some extent,” the States had standing. Id.
Here too, Plaintiffs’ uncontested affidavits show that
the relief they seek—a declaration that the Presidential
Memorandum is unlawful and an injunction barring any
effort to implement it—would reduce “to some extent”
their risk of suffering injuries relating to the census.
If anything, the record here provides even more support
for a finding of redressability than the record in Massachusetts v. E.P.A. did. First, as discussed above, Plaintiffs have provided proof that there are likely people
who have decided, or will decide, not to participate in the
census for the simple reason that, under the Presidential Memorandum, they will not count for apportionment
purposes. A court order invalidating the Presidential
Memorandum would redress that harm in a straightforward manner. See, e.g., Carpenters Indus. Council,
854 F.3d at 6 n.1 (Kavanaugh, J.) (“[I]f a government
action causes an injury, enjoining the action usually will
redress that injury.”). Second, Plaintiffs’ uncontested
declarations provide evidence supporting a finding of redressability. Plaintiff Ahri, for example, explains that
the injunction barring the citizenship question was useful in quelling concerns in the community it serves and

66a
that an order granting relief in this case would similarly
make its census outreach efforts more efficient and effective. Seon Supp. Decl. ¶¶ 4-7; see also Oshiro Supp.
Decl. ¶ 5; Espinosa Supp. Decl. ¶ 8. And Plaintiffs submit an expert report noting that injunctions barring implementation of other immigration-related executive actions have had “measurable consequences on promoting
trust among immigrant communities and influencing behavioral interactions with various aspects of government.” See Barreto Decl. ¶¶ 66-69. In short, we find
that Plaintiffs’ requested relief would “likely . . . at
least diminish further instance of ” Plaintiffs’ censusrelated harms. CREW, 953 F.3d at 194. Indeed,
“[b]ecause Plaintiffs have successfully alleged” that
these harms are “ongoing, it logically follows that relief
would redress their injury—at least to some extent,
which is all that Article III requires.” Id.
Only two of Defendants’ counterarguments warrant
further discussion. First, Defendants maintain that
Plaintiffs’ census-related injuries would not be remedied by a ruling in Plaintiffs’ favor because the alleged
“ ‘macro environment’ of mistrust around immigration”
would remain. Defs.’ Mem. 19. But that is akin to the
argument the EPA made, and the Supreme Court rejected, in Massachusetts v. E.P.A.: that granting relief would not remedy the States’ injuries because there
were other, independent causes for those injuries—
namely, the emissions of developing nations—that would
persist. See 549 U.S. at 524. Put differently, the mere
fact that the Presidential Memorandum causes only incremental harms, and that there are other causes of
those same harms, does not defeat a finding of redressability. See id. (“EPA overstates its case. Its argu-

67a
ment rests on the erroneous assumption that a small incremental step, because it is incremental, can never be
attacked in a federal judicial forum.”).
Second, Defendants suggest that Plaintiffs cannot
show redressability because “appellate review would
likely last well past the end of the conduct of the census.”
Defs.’ Reply 4. Conspicuously, however, Defendants
cite no authority for the novel proposition that the availability of higher court review and the possibility of reversal can render a dispute nonjusticiable. Taken to
its logical conclusion, that argument would suggest that
a plaintiff could never obtain emergency relief in the
face of a looming deadline. Far from rejecting such
claims, courts routinely hear them on an expedited basis
(as we have done here). See, e.g., League of Women
Voters of N. Carolina v. North Carolina, 769 F.3d 224,
247 (4th Cir. 2014) (noting that in the election context,
“once the election occurs, there can be no do-over and
no redress” making “injur[ies] to . . . voters real
and completely irreparable if nothing is done”). Finally, it bears mentioning that it is Defendants’ own conduct that has put Plaintiffs in such a precarious position.
The President could have issued his Presidential Memorandum well before the census began, in which case
Plaintiffs would have had ample time to obtain a definitive ruling on their claims to preempt any chilling effect.
Or he could have waited until census operations were
over, in which case there would have been no risk of the
census-related harms that Plaintiffs seek to remedy.
Instead, for unknown reasons, the President waited more
than a year after the Supreme Court rejected the citizenship question to issue his Presidential Memorandum,
at which point the census was (and still is) in full swing.
It would be perverse to conclude that, through their own

68a
conduct, Defendants could prevent Plaintiffs from even
obtaining a hearing on their claims.
4.

Conclusion

In the final analysis, “the gist of the question of
standing” (and constitutional ripeness) “is whether [the
plaintiffs] have ‘such a personal stake in the outcome of
the controversy as to assure that concrete adverseness
which sharpens the presentation of issues upon which
the court so largely depends for illumination.’ ” Massachusetts v. E.P.A., 549 U.S. at 517 (quoting Baker v.
Carr, 369 U.S. 186, 204 (1962)). That is, the standing
requirement “preserves the vitality of the adversarial
process by assuring both that the parties before the
court have an actual, as opposed to professed, stake in
the outcome, and that the legal questions presented
. . . will be resolved, not in the rarified atmosphere of
a debating society, but in a concrete factual context conducive to a realistic appreciation of the consequences of
judicial action.” Id. (quoting Lujan, 504 U.S. at 581
(Kennedy, J., concurring). Based on our thorough review of the record—including the uncontested declarations submitted in support of Plaintiffs’ motion—and the
well-established standards for determining whether a
plaintiff has standing, we are confident we have jurisdiction to proceed. 11
Defendants do not argue that we should engage in a zone-of-interests analysis, which the Supreme Court has sometimes described as a
component of “prudential standing.” Lexmark Int’l, 572 U.S. at 127
n.3. Accordingly, they have waived the argument. See Fed. Defs. of
N.Y., Inc. v. Fed. Bureau of Prisons, 954 F.3d 118, 128 (2d Cir. 2020)
(holding, after Lexmark, that the zone-of-interests test is not jurisdictional); see also, e.g., Young v. Conway, 698 F.3d 69, 85 (2d Cir. 2012)
(“It is well-settled that non-jurisdictional arguments and defenses
11

69a
D.

Prudential Ripeness

As noted, Defendants also invoke the prudential ripeness doctrine. See Defs.’ Mem. 6-10; Defs.’ Reply 1-2.
Unlike standing and constitutional ripeness, prudential
ripeness does not relate to the Court’s jurisdiction. Instead, “when a court declares that a case is not prudentially ripe, it means that the case will be better decided
later and that the parties will not have constitutional
rights undermined by the delay.” Simmonds, 326 F.3d
at 357. The “ripeness requirement is designed ‘to prevent the courts, through avoidance of premature adjudication, from entangling themselves in abstract disagreements over administrative policies, and also to protect
the agencies from judicial interference until an administrative decision has been formalized and its effects felt
in a concrete way by the challenging parties.’ ” Ohio
Forestry Ass’n, Inc. v. Sierra Club, 523 U.S. 726, 732-33
(1998) (quoting Abbott Labs. v. Gardner, 387 U.S. 136,
148-49 (1967)); see Nat’l Org. for Marriage, 714 F.3d at
691. 12

may be waived. . . . ”). In any event, in light of Lexmark’s observation that “the zone-of-interests analysis . . . asks whether this
particular class of persons has a right to sue under this substantive
statute” and “whether a legislatively conferred cause of action encompasses a particular plaintiff ’s claim,” 572 U.S. at 127 (emphasis added)
(alterations, citations, and internal quotation marks omitted), we
doubt that it has any application here, as the claims on which Plaintiffs
move are constitutional and equitable in nature. See, e.g., Sierra
Club v. Trump, 929 F.3d 670, 700-02 (9th Cir. 2019).
12
In recent years, the Supreme Court has cast doubt on the “continuing vitality of the prudential ripeness doctrine,” on that ground
that “ ‘is in some tension with . . . the principle that a federal
court’s obligation to hear and decide cases within its jurisdiction is

70a
“To determine whether to abstain from a case on prudential ripeness grounds, we proceed with a two-step inquiry,” evaluating “both the fitness of the issues for judicial decision and the hardship to the parties of withholding court consideration.” Nat’l Org. for Marriage,
714 F.3d at 691 (internal quotation marks omitted).
The first step of the inquiry “is concerned with whether
the issues sought to be adjudicated are contingent on future events or may never occur.” N.Y. Civil Liberties
Union v. Grandeau, 528 F.3d 122, 132 (2d Cir. 2008) (internal quotation marks and alterations omitted). “In
assessing th[e] possibility of hardship, we ask whether
the challenged action creates a direct and immediate dilemma for the parties.” Id. at 134 (internal quotation
marks omitted). The two-step inquiry requires consideration, in turn, of three factors: “(1) whether delayed
review would cause hardship to the plaintiffs; (2) whether
judicial intervention would inappropriately interfere
with further administrative action; and (3) whether the
courts would benefit from further factual development
of the issues presented.” Ohio Forestry Ass’n, 523
U.S. at 733.
Considering these factors here, we conclude that the
test for prudential ripeness is “easily satisfied.” Susan
B. Anthony List, 573 U.S. at 167. First, given that Plaintiffs’ alleged census-related harms are occurring now,
and can be remedied only if we rule on their claims before census operations conclude in a matter of days or
weeks, delaying review would cause Plaintiffs grave
virtually unflagging.” Susan B. Anthony List, 573 U.S. at 167 (internal quotation marks omitted). But because neither the Supreme
Court nor the Second Circuit has abandoned the doctrine yet, we are
bound to consider Defendants’ arguments here.

71a
hardship. See Chamber of Commerce of U.S. v. Reich,
57 F.3d 1099, 1100 (D.C. Cir. 1995) (per curiam) (finding
a challenge to an Executive Order announcing a policy
of the executive branch ripe where “the injury alleged
. . . [is that] the mere existence of the Order alters the
balance of bargaining power between employers and
employees by creating a disincentive for employers to
hire replacement workers”). Justice delayed would indeed be justice denied. Moreover, because there are
no do-overs for the census, the adverse consequences of
that delay could resonate for a decade, until the next decennial census. Second, although Defendants assert in
conclusory fashion that judicial intervention “would inappropriately interfere with the Bureau’s ongoing process by hindering agency efforts to refine its policies and
to apply its expertise,” Defs.’ Reply 2 (internal quotation
marks omitted), that assertion borders on frivolous.
On its face, the Presidential Memorandum does not purport to regulate the actual conduct of the census, see
Presidential Memorandum, 85 Fed. Reg. at 44,679 (“Excluding Illegal Aliens From the Apportionment Base
Following the 2020 Census” (emphasis added)), and Defendants themselves concede that it “does not affect how
the Census Bureau is conducting its remaining enumeration operations,” Defs.’ Mem. 12. Moreover, as discussed below, relief can be crafted to minimize, if not
eliminate, interference with administrative action. And
finally, although the standing-related question of whether or to what extent Plaintiffs would suffer apportionmentrelated harms would benefit from further factual development, the gravamen of Plaintiffs’ claims—that the President lacks the authority to exclude illegal aliens from
the apportionment base—“presents an issue that is
‘purely legal, and will not be clarified by further factual

72a
development.’ ” Susan B. Anthony List, 573 U.S. at
167 (quoting Thomas, 473 U.S. at 581).
Thus, we conclude there is no basis to defer consideration of Plaintiffs’ claims on ripeness ground. The fact
that the Presidential Memorandum contains something
akin to a “savings clause”—namely, that it is “the policy
of the United States to exclude” illegal aliens from the
apportionment base “to the maximum extent feasible
and consistent with the discretion delegated to the executive branch,” Presidential Memorandum, 85 Fed. Reg.
at 44,680 (emphasis added)—does not alter that conclusion. Where, as here, the President’s proclamation “unambiguously commands action” such that “there is more
than a ‘mere possibility that some agency might make a
legally suspect decision,’ ” such a “savings clause does
not and cannot override” the proclamation’s “meaning.”
City & Cty. of San Francisco v. Trump, 897 F.3d 1225,
1240 (9th Cir. 2018) (quoting Bldg. & Const. Trades
Dep’t, AFL-CIO v. Allbaugh, 295 F.3d 28, 33 (D.C. Cir.
2002)). Indeed, savings clauses must be “read in their
context, and they cannot be given effect when the Court,
by rescuing the . . . measure, would override clear
and specific language.” Id. at 1239. In this case, the
President explicitly declares that “it is the policy of the
United States to exclude” illegal aliens “from the apportionment base,” an unambiguous directive that, as discussed above, is having immediate and ongoing effects.
Moreover, the Presidential Memorandum mandates that
this policy be effected “to the maximum extent” feasible
and consistent with law. Presidential Memorandum,
85 Fed. Reg. at 44,680 (emphasis added). Given that “a
presumption of regularity attaches to the actions of Government agencies,” U.S. Postal Serv. v. Gregory, 534

73a
U.S. 1, 10 (2001), we must and do presume that the Secretary and the Census Bureau will abide by the President’s directives and work diligently to help exclude illegal aliens from the apportionment base to the maximum extent possible. Whether doing so would be a
lawful exercise of the President’s authority is a pure legal question that can be addressed now.
THE MERITS

In their motion, Plaintiffs seek relief on two grounds:
first, they argue that the Presidential Memorandum violates Article I and the Fourteenth Amendment to the
Constitution; and second, they contend that it constitutes an ultra vires violation of the laws governing the
census and apportionment. Pls.’ Mem. 1-2. On the
latter front, Plaintiffs insist that the Presidential Memorandum exceeds the powers delegated by Congress in
13 U.S.C. § 141 and 2 U.S.C. § 2a in at least two ways:
(1) because it contemplates calculating apportionment
using tabulations other than those produced by the census and (2) because it seeks to exclude illegal aliens from
the apportionment base regardless of whether they are
“persons in” a “State” as those terms are used in Section
2a(a). Id. at 27-36.
Although Plaintiffs urge us to decide both their constitutional claims and their statutory claims, and the
parties focus mostly on the constitutional issues, courts
have long been admonished not to “pass upon a constitutional question although properly presented by the
record, if there is also present some other ground upon
which the case may be disposed of.” Ashwander v.
TVA, 297 U.S. 288, 347 (1936) (Brandeis, J., concurring);
accord Slack v. McDaniel, 529 U.S. 473, 485 (2000);

74a
House of Representatives, 525 U.S. at 343-44. Accordingly, we begin—and, as it turns out, end—with Plaintiffs’ statutory claims. In doing so, of course, “we start
with the text of the statute.” Babb v. Wilkie, 140 S. Ct.
1168, 1172 (2020). “Where the statute’s language is
plain, the sole function of the courts is to enforce it according to its terms.” United States v. Kozeny, 541 F.3d
166, 171 (2d Cir. 2008) (internal quotation marks omitted). We may look to legislative history and other tools
of statutory construction if the statutory terms are ambiguous or “to corroborate and fortify our understanding of the text.” Dig. Realty Tr., Inc. v. Somers, 138
S. Ct. 767, 783 (2018) (Sotomayor, J., concurring).
A.

Apportionment Must Be Based on the Results of the
Census Alone

Plaintiffs’ first argument is that the Presidential
Memorandum violates the statutes governing the census and apportionment by producing apportionment figures that are not based solely on the decennial census.
This argument relies on the interplay between Section
141 and Section 2a. Subsection (a) of the former requires the Secretary to conduct the “decennial census of
population.” 13 U.S.C. § 141(a). Subsection (b) then
requires the Secretary to report to the President “[t]he
tabulation of total population by States under subsection
(a) of this section”—that is, under the “decennial census”
—“as required for the apportionment of Representatives in Congress.” Id. § 141(b). Section 2a(a), in turn,
requires the President to transmit to Congress “a statement showing the whole number of persons in each State
. . . as ascertained under the . . . decennial census of the population, and the number of Representatives to which each State would be entitled . . . by

75a
the method known as the method of equal proportions .
. . . ” 2 U.S.C. § 2a(a). By its terms, therefore, Section 141 calls for the Secretary to report a single set of
numbers—“[t]he tabulation of total population by States”
under the “decennial census”—to the President. And
Section 2a, in turn, “expressly require[s] the President
to use . . . the data from the ‘decennial census’ ” in
determining apportionment. Franklin, 505 U.S. at
797. That is, once the final decennial census data is in
hand, the President’s role is purely “ministerial.” Id.
at 799.
Legislative history and the longstanding understanding of the Executive Branch itself confirm that the Secretary’s “tabulation,” and the President’s apportionment
calculations, must be based on decennial census data
alone. Significantly, the statutes first took their current form in 1929, after a decade-long stalemate over the
method for calculating the reapportionment following
the 1920 census. See id. at 791-92. Congress responded
to this problem by creating an “automatic reapportionment” scheme that would be “virtually self-executing.”
Id. at 792. In particular, the scheme created an “automatic connection between the census and the reapportionment”; indeed, that was “the key innovation of the
Act.” Id. at 809 (Stevens, J., concurring in part and
concurring in the judgment) (emphasis added). The
Senate Report accompanying the bill explained in reference to the next census:
The census would be taken in November, 1929. One
year later, with these figures in hand, the President
would report the census figures, together with a table
showing how, under these figures, the House would

76a
be apportioned . . . pursuant to a purely ministerial and mathematical formula. . . . Precisely the
same process would protect reapportionment in each
subsequent decennium.
S. Rep. No. 71-2, at 4 (1929). Along similar lines, the
House Report explained that, under the bill, “the House
is reapportioned in accordance with the tabulation
transmitted by the Secretary of Commerce . . . ; the
tabulations transmitted to Congress are on the basis of
the 1930 census. . . . ” H. Rep. No. 70-2010, at 4
(1929); see also id. at 7 (explaining that the Secretary, to
whom the bill also originally assigned the task of reapportionment later assigned to the President, “is left with
no discretionary power. He must use absolutely, without deviation, the population of each State as gathered
and reported by the Director of the Census.” (emphasis added)). 13
Similarly, its position in this litigation notwithstanding, the Department of Justice (the “Justice Department” or “DOJ”) has long adhered to the view that the
President’s statement to Congress regarding apportionment has to be based solely on the tabulation of total

Although we are wary of relying too heavily on floor statements
by members of Congress, it is worth noting that Senator Vandenberg of Michigan, the principal sponsor of the bill, reaffirmed that
the legislation required the President “to report the result of a census” and to apply the reapportionment formula to “the result of the
census.” 71 Cong. Rec. 1613 (1929) (statement of Sen. Vandenberg). Elsewhere, he and Senator Walsh of Montana confirmed
in a colloquy with Senator Swanson of Virginia “that the President
is bound and has no discretion” but “to make the apportionment
according to the census.” Id. at 1845 (statement of Sen. Swanson)
(emphasis added).
13

77a
population produced by the census. As the Justice Department explained more than forty years ago in Federation for American Immigration Reform (FAIR) v.
Klutznick, “every inhabitant of a state the Census counts
is included in the apportionment base. . . . The total
resident population of the states is the apportionment
base.” Defs.’ Reply Mem. & Opp’n at 11, 486 F. Supp.
564 (D.D.C. 1980) (No. 79-CV-3269), 1980 WL 683642, at
*7 (citing H.R. Rep. No. 91-1314 (1970)). 14 Along similar lines, the Government acknowledged during oral argument in Franklin v. Massachusetts that “[t]he law directs [the President] to apply, of course, a particular
mathematical formula to the population figures he receives” and that “[i]t would be unlawful . . . just to
say, these are the figures, they are right, but I am going
to submit a different statement.” Oral Arg. Tr. at 12,
Franklin v. Massachusetts, 505 U.S. 788 (No. 91-1502).
“I think under the law he is supposed to base his calculation on the figures submitted by the Secretary.” Id.
at 13; see also, Reply Br. Appellants, Franklin, 505 U.S.
788 (No. 91-1502), 1992 WL 672612, at *15 (Apr. 20,
1992) (“[T]he method of equal proportions calls for ap-

The House Report to which DOJ cited noted unambiguously
that “the enumerated decennial census population is the basis for
the apportioning of [the House] among the several States.” H.R.
Rep. No. 91-1314, at 3 (1970). Elsewhere, it summarized the three
“elements” of the President’s statement under Section 2a(a): “(1)
The population of each State as determined by the decennial census; (2) The existing total number of Representatives (435); and (3)
The apportionment which results from using a mathematical method
known as the method of equal proportions.” Id. at 2 (emphasis
added).
14

78a
plication of a set mathematical formula to the state population totals produced by the census.”
(emphasis
added)).
In short, this history confirms our reading of the statutes’ plain terms: The Secretary is required to report
a single set of figures to the President—namely, “[t]he
tabulation of total population by States” under the “decennial census”—and the President is then required to
use those same figures to determine apportionment using the method of equal proportions.
The Presidential Memorandum deviates from, and
thus violates, these statutory requirements. Whereas
the statute calls for the Secretary to include only the
census figures in his report to the President, the Presidential Memorandum mandates that the Secretary provide a second set of figures as well: namely, the population of each State “exclud[ing]” illegal aliens. Presidential Memorandum, 85 Fed. Reg. at 44,680. The
Presidential Memorandum leaves it to the Secretary
how to come up with those figures, but they will necessarily be derived from something other than the census
itself, as the 2020 census is not gathering information
concerning citizenship or immigration status, and the
2020 census itself is counting illegal aliens. See Order
at 1-2, New York v. Dep’t of Commerce, 18-CV-2921
(JMF), ECF No. 653 (permanently enjoining the inclusion of a citizenship question on the 2020 census questionnaire); see also Presidential Memorandum, 85 Fed.
Reg. at 44,680 (noting that “data on illegal aliens . . .
relevant for the purpose of conducting the apportionment” may be available as a result of Executive Order
13880, which directed executive agencies “to share in-

79a
formation with the Department of Commerce” regarding “the number of citizens, non-citizens, and illegal aliens in the country”). By doing so, the Presidential
Memorandum violates Congress’s mandate to use the
results of the census—and only the results of the census
—in connection with the apportionment process and the
counting of them in the census pursuant the Residence
Rule.
In arguing otherwise, Defendants rely almost exclusively on the Supreme Court’s decision in Franklin, see
Defs.’ Mem. 40-42; Oral Arg. Tr. 48-54, but that reliance
is misplaced. In Franklin, the plaintiffs brought two
discrete challenges, one a constitutional challenge to the
formula used in connection with reapportionment and
one a challenge under the Constitution and the APA to
the conduct of the census—specifically, to the Census
Bureau’s decision to count federal employees serving
overseas as residents of the State listed as their home of
record in their personnel files. See Massachusetts v.
Mosbacher, 785 F. Supp. 230, 233 (D. Mass. 1992). A
three-judge district court rejected the first challenge,
but agreed with the second. See id. at 267-68. On appeal from the latter ruling alone, the Supreme Court reversed. With respect to the plaintiffs’ constitutional
claim, the Court held that the Secretary’s judgment
“that many federal employees temporarily stationed
overseas had retained their ties to the States and could
and should be counted toward their States’ representation in Congress” was “consonant with, though not
dictated by, the text and history of the Constitution.”
Franklin, 505 U.S. at 806. With respect to the plaintiffs’ APA claim, the Court held that the decision could
not be challenged because the only final action affecting
the States was the President’s Section 2a(a) statement

80a
and the President does not qualify as an “agency” for
purposes of the APA. See id. at 796-801. The Secretary’s Section 141(b) report, the Court explained, “carries no direct consequences for the reapportionment”
and, thus, “serves more like a tentative recommendation
than a final and binding determination.” Id. at 798.
While addressing the question of whether the plaintiffs could bring a claim under the APA, the Court described the interplay between Section 2a and Section
141:
After receiving the Secretary’s report, the President
is to “transmit to the Congress a statement showing
the whole number of persons in each State . . . as
ascertained under the . . . decennial census of
the population.” 2 U.S.C. § 2a(a). Section 2a does
not expressly require the President to use the data in
the Secretary’s report, but, rather, the data from the
“decennial census.” There is no statute forbidding
amendment of the “decennial census” itself after the
Secretary submits the report to the President. For
potential litigants, therefore, the “decennial census”
still presents a moving target, even after the Secretary reports to the President. . . . Moreover,
there is no statute that rules out an instruction by the
President to the Secretary to reform the census, even
after the data are submitted to him. It is not until
the President submits the information to Congress
that the target stops moving, because only then are
the States entitled by § 2a to a particular number of
Representatives.
505 U.S. at 797-98. The Court acknowledged that the
President’s role under Section 2a was “admittedly ministerial,” but that “d[id] not answer the question whether

81a
the apportionment is foreordained by the time the Secretary gives her report to the President.” Id. at 799.
Put simply, the Court concluded, “§ 2a does not curtail
the President’s authority”—pursuant to “his accustomed
supervisory powers over his executive officers” —“to direct the Secretary in making policy judgments that result in ‘the decennial census’; he is not expressly required to adhere to the policy decisions reflected in the
Secretary’s report.” Id. at 799-800.
Defendants seize on this language to argue that the
President has discretion to define who should be considered inhabitants—or “persons in each State,” 2 U.S.C.
§ 2a(a); see U.S. Const. Art. I § 2, cl. 3—for purposes of
the census. Presidential Memorandum, 85 Fed. Reg.
at 44,679; see Defs.’ Mem. 40-42; Def. Reply 9-10; Oral
Arg. Tr. 47. That may or may not be true—we address
it below—but it is beside the point for present purposes.
Franklin does not suggest, let alone hold, that the President has authority to use something other than the census when calculating the reapportionment; indeed, the
Court did not even consider the plaintiffs’ challenge to
the apportionment. At most, Franklin establishes
that the President retains his “usual superintendent
role” with respect to the conduct of the census—and can
direct the Secretary to make “policy judgments that result in ‘the decennial census.’ ” Id. at 799-800 (emphasis added); see also id. at 797-98 (referring to “amendment of the ‘decennial census’ itself” and “instruction by
the President to the Secretary to reform the census”). 15
Thus, defense counsel is wrong in suggesting that the Franklin
Court blessed the use of a tabulation that was based on both the
census and “separate records outside the census.” Oral Arg. Tr.
52. The overseas personnel were counted as part of the census
15

82a
But by Defendants’ own admission, that is not what the
President did here. See, e.g., Joint Pre-Conference
Ltr. 5 (“Plaintiffs are not challenging some procedure
that will be used in the actual census, but an apportionment number that will be chosen by the President
after the census is complete.”); Defs.’ Mem. 12 (“[T]he
Memorandum does not affect how the Census Bureau is
conducting its remaining enumeration operations.
. . . ”); ECF No. 120 (Decl. of Albert E. Fontenot, Jr.)
¶ 12 (“The Presidential Memorandum . . . has had
no impact on . . . the Census Bureau’s commitment
to count each person in their usual place of residence, as
defined in the [Residence Rule].”).
In short, contrary to Defendants’ arguments, the
statutory scheme enacted by Congress does not give the
President authority to “choose” any set of numbers he
wants “to plug into the ‘method of equal proportions.’ ”
Defs.’ Mem. 42. Instead, Congress mandated that the
President use a specific set of numbers—those produced
by the decennial census itself—for purposes of the reapportionment. By deviating from that mandate, the Presidential Memorandum exceeds the authority of the President and constitutes an ultra vires violation of the statutes.

itself, resulting in a single “tabulation of total population by States”
under the “decennial census.” 13 U.S.C. § 141(a)-(b). That they
were counted using administrative records rather than a questionnaire is of no moment, as Section 141(a) broadly delegates to the
Secretary the authority to conduct the census “in such form . . .
as he may determine.” Id. § 141(a).

83a
B.

The Apportionment Base Cannot Exclude Illegal Aliens Who Reside in a State

The Presidential Memorandum also deviates from
Section 2a(a) in defining “the whole number of persons
in each State” to categorically exclude illegal aliens residing in each State. Once again, we begin with the plain
language of the statute. Defendants do not dispute—
in the Presidential Memorandum or in their briefs—
that illegal aliens are “persons” within the meaning of
Section 2a(a), and for good reason.
The ordinary
meaning of the word “person” is “human” or “individual” and surely includes citizens and non-citizens alike.
See Plyler v. Doe, 457 U.S. 202, 210 (1982) (“Whatever
his status under the immigration laws, an alien is surely
a ‘person’ in any ordinary sense of that term.”). Moreover, the U.S. Code is filled with other statutes that
use terms that plainly exclude illegal aliens, such as “citizen” or “alien lawfully admitted.”
E.g., 5 U.S.C.
§ 552a(a)(2). “Congress thus distinguishes between a
‘citizen’ and ‘any person’ when it wishes to do so.”
O’Rourke v. U.S. Dep’t of Justice, 684 F. Supp. 716, 718
(D.D.C. 1988) (holding that the phrase “any person” in
the Freedom of Information Act, 5 U.S.C. §§ 551 et seq.,
includes non-citizens); accord Stone v. Exp.-Imp. Bank
of U. S., 552 F.2d 132, 136 (5th Cir. 1977); see also, e.g.,
Suzlon Energy Ltd. v. Microsoft Corp., 671 F.3d 726,
729 (9th Cir. 2011) (holding that “any person” in the
Electronic Communications Privacy Act, 18 U.S.C.
§§ 2510 et seq., “means any person, including foreign citizens”).
Instead, Defendants hang their hats on the four-word
phrase “persons in each State.” Presidential Memorandum, 85 Fed. Reg. at 44,679; see Defs.’ Mem. 2, 29-30;

84a
Defs.’ Reply 11. That phrase, they argue, has been
construed to mean “inhabitants” or to turn on “usual
residence,” terms that are not self-defining and call for
“the exercise of judgment.” Presidential Memorandum, 85 Fed. Reg. at 44,679. That is true enough. See
Franklin, 505 U.S. at 803-05 (noting that, since 1790,
Congress and the Census Bureau have used words such
as “inhabitant” and “[u]sual residence” to “describe the
required tie to the State” and that defining the metes
and bounds of these terms are not always clear). But
it does not follow that illegal aliens—a category defined
by legal status, not residence—can be excluded from the
phrase. To the contrary, the ordinary definition of the
term “inhabitant” is “one that occupies a particular
place regularly, routinely, or for a period of time.” See
MERRIAM-WEBSTER’ S COLLEGE DICTIONARY 601 (10th
ed. 1997). And however ambiguous the term may be on
the margins, it surely encompasses illegal aliens who
live in the United States—as millions of illegal aliens indisputably do, some for many years or even decades. 16
Defendants argue that it is Plaintiffs’ burden to show “that there
is no category of illegal aliens that may be lawfully excluded from
the apportionment,” Defs.’ Mem. 39, and suggest that Plaintiffs cannot meet that burden because some categories of illegal aliens (e.g.,
aliens residing in a detention facility after being arrested while
crossing the border) can be lawfully excluded, see id. at 27. But the
examples Defendants proffer are arguably excluded (or excludable)
based on their “usual residence,” not their legal status. In any
event, Defendants cite no authority for applying the standards for
facial challenges to the constitutionality of statutes to claims, like
those here, that the President has exceeded the authority granted to
him by Congress. Indeed, that arguably gets it backwards: If the
President goes outside the bounds of the authority granted to him
by Congress, a court’s power to grant relief should not depend on
how far outside the bounds he went. Notably, courts considering
16

85a
The Presidential Memorandum provides two examples to support its conclusion that “[t]he discretion delegated to the executive branch to determine who qualifies as an ‘inhabitant’ includes authority to exclude from
the apportionment base aliens who are not in a lawful
immigration status,” Presidential Memorandum, 85
Fed. Reg. at 44,679, but neither is remotely convincing.
First, the Memorandum notes that “aliens who are only
temporarily in the United States, such as for business or
tourism, and certain foreign diplomatic personnel are
‘persons’ who have been excluded from the apportionment base.” Id. True enough, but that is not based on
their legal status. Instead, it is based on the fact that the
United States is not their “usual residence.” (Indeed,
that is reflected in the Residence Rule.) Second, the
Memorandum points to the fact that “overseas Federal
personnel have, at various times, been included in” the
apportionment base. Id. Once again, true enough.
(Indeed, that was the issue in Franklin.) But that is
based on the fact that the terms “usual residence” and
“inhabitant” have “been used broadly enough to include
some element of allegiance or enduring tie to a place”
and to “include ‘persons absent occasionally for a considerable time on public or private business.’ ” Franklin, 505 U.S. at 804-05 (quoting 2 THE RECORDS OF THE
similar claims have not approached them in the manner Defendants
propose. See, e.g., Hawaii v. Trump, 878 F.3d 662, 690-92 (9th Cir.
2017) (concluding that a presidential proclamation exceeded the
President’s delegated authority under the Immigration and Nationality Act), rev’d and remanded on other grounds, 138 S. Ct. 2392
(2018); Chamber of Commerce of U.S. v. Reich, 74 F.3d 1322, 1324,
1337-39 (D.C. Cir. 1996) (concluding that an executive order announcing a “policy of the executive branch” was ultra vires and invalid).

86a
FEDERAL CONVENTION OF 1787, at 217 (Max Farrand
ed., rev. ed. 1966) (statement of James Madison)). It is
simply a non sequitur to suggest, as the Presidential
Memorandum does, that just because the phrase “persons in each State” can be construed to include people
who are “temporarily stationed abroad” but “retain[]
their ties to the States,” id. at 806, it can also be construed to exclude people who indisputably inhabit or reside in a State.
Defendants are on no firmer ground in arguing that
illegal aliens can be excluded from “the whole number of
persons in each State,” as that phrase is used in Section
2a, because they “may be removed from the country at
any time.” Defs.’ Mem. 39. A person living in a State
but facing future removal is no less a “person[] in that
State,” Defs.’ Reply 4 (internal quotation marks and alteration omitted), than someone living in the State without the prospect of removal. Moreover, many people in
immigration custody or removal proceedings actually
have lawful immigration status, see, e.g., Ragbir v.
Homan, 923 F.3d 53, 57-58 (2d Cir. 2019), and their placement in custody or removal proceedings does not necessarily render them unlawfully present. Notably, data
reveal that immigration judges ultimately allow many
aliens in custody or removal proceedings to remain in
the United States. See Immigration Judges Decide 57
Percent Entitled to Remain in U.S., TRAC IMMIGRATION (Aug. 17, 2016), https://trac.syr.edu/immigration/
reports/435/. And many people initially designated as
“undocumented”—including many intercepted at the
border—ultimately obtain lawful status, such as asylum.
See EXEC. OFFICE FOR IMMIGRATION REVIEW, U.S.
DEP’T OF JUSTICE, STATISTICS YEARBOOK FISCAL YEAR
2018, at 27 (2019),https://www.justice.gov/eoir/file/

87a
1198896/download. Nothing in Section 2a turns on
such fluctuations and nuances in legal status.
Once again, legislative history and settled practice
confirm our conclusion that “persons in each State”
turns solely on residency, without regard for legal status. In looking to legislative history, we look not to the
history surrounding the framing of the Constitution or
the Reconstruction Amendments, even though the words
in the statute mirror those in Article I and the Fourteenth Amendment. Instead, we look to 1929, when
Section 2a was enacted and the words “whole number of
persons in each State” entered the statutory lexicon.
See Act of June 18, 1929, Pub. L. No. 71-13 § 22, 46 Stat.
21, 26. That is because our task is to interpret the statute itself, and we do so “in accord with the ordinary public meaning of its terms at the time of its enactment.”
Bostock v. Clayton Cty., 140 S. Ct. 1731, 1738 (2020).
That is not to say that the constitutional language is irrelevant to our task: The drafters of Section 2a used
the same words as those in the Constitution, so their
understanding of the constitutional language sheds
light on their understanding—and the “ordinary public
meaning”—of the statutory text “at the time of its enactment.” Id. But it is their understanding of the
constitutional language, not whether their understanding was correct (on which we need and do not opine),
that matters. Cf. Parker Drilling Mgmt. Servs., Ltd.
v. Newton, 139 S. Ct. 1881, 1890 (2019) (“It is a common-

88a
place of statutory interpretation that Congress legislates against the backdrop of existing law.” (internal
quotation marks omitted)). 17
Notably, in enacting the 1929 Act that used the
phrase “whole number of persons in each State,” the
Senate and the House both considered and rejected
amendments that would have excluded non-citizens
from the apportionment base. See 71 Cong. Rec. 1907
(1929) (Sen. Sackett proposes amending S.B. 312 to require the President’s statement to Congress to show
“the whole number of persons in each State, exclusive of
aliens and excluding Indians not taxed”); id. at 2065
(vote on amendment by Sen. Sackett fails); id. at 236063 (House adopts alienage exclusion as amendment to
the apportionment bill); id. at 2448-2455 (House adopts
amendment of Rep. Tilson to remove the previously
adopted alienage exclusion). What is more, opposition
to these amendments was based not only on a view that
“the whole number of persons in each State” should include every resident of each State, without regard to legal status; it was based also on a view that the Constitution mandated inclusion of illegal aliens residing in the
United States.
Senator David Reed, for instance,
voiced support for an amendment excluding illegal aliens from the apportionment base as a matter of policy
but opposed it on grounds of constitutionality and consistent practice. “Every Congress that acted on that
For this reason, we need not and do not delve into the meaning
of the terms “inhabitant” and “usual residence” at the time of the
Founding or of the Reconstruction Amendments, or consider whether the concept of unlawful status was known to the Framers of Article I or the Fourteenth Amendment. There is no dispute that the
concept of “illegal aliens” existed in 1929, when Section 2a was enacted. See Defs.’ Mem. 36.
17

89a
part of Article I of the original Constitution and every
apportionment that was made in reliance upon that article,” he explained, “included all free persons literally.
It excluded Indians not taxed and it excluded slaves, but
every apportionment inhabitant[] who” was not a “citizen[] w[as] included.” Id. at 1958. “That construction,” he noted then, “has been continuous and consistent.” Id.
Further evidence of the understanding of the phrase
“whole number of persons in each State” in Section 2a is
revealed by the opinion of the Senate’s legislative counsel on the issue. “That the fourteenth amendment was
framed with the intention of including aliens,” he wrote,
“is indicated by the rejection by the Congress of proposals to base representation on the number of citizens
and on the number of voters.” Id. at 1822. Consistent
with that understanding, Congress had always included
aliens in the apportionment base:
The practical construction of the constitutional provision by Congress in its apportionment legislation
has been uniformly in favor of inclusion of aliens.
No exception of noncitizens from the enumeration
has been made under any past apportionment. The
term “persons” necessarily either includes or excludes
aliens; its constitutional meaning can not be changed
by Congress; and the fact that it has from the beginning been construed to include aliens should be conclusive if the meaning was open to dispute.
Id. It was “therefore the opinion of [the legislative
counsel’s] office that there is no constitutional authority
for the enactment of legislation excluding aliens from
enumeration for the purposes of apportionment of Representatives among the States.” Id. This prevailing

90a
view makes plain that when Congress directed the President to report the “whole number of persons in each
State,” it understood the phrase to include all who lived
in each State, without regard for legal status, and that it
did not grant to the President discretion to do by Memorandum what it could not do by statute. 18
Not for nothing, until the Presidential Memorandum,
the Executive Branch had also always taken the view
that the 1929 Act, if not the Constitution, prohibited exclusion of illegal aliens from the apportionment base due
to legal status alone. In defending against a 1980 challenge to including illegal aliens in the apportionment
base, for example, the Department of Justice argued
that “[t]he plain language of [the Act] maintains the
Constitutional requirement of counting all inhabitants
of the states, legal and illegal, for purposes of apportionment. . . . Moreover, the long-established practice
of both Congress and the Census Bureau of reading the
Constitution to require the counting of illegal aliens for
apportionment purposes ratifies this construction.”
Defs.’ Reply Mem. & Opp. Pls.’ Mot. Summ. J. 11, FAIR,
486 F. Supp. 564 (citing Red Lion Broadcasting Co. v.
FCC, 395 U.S. 367, 380-82 (1967)). In 1988, the Justice
Department took the position in a letter to Congress
For what it’s worth, later Congresses took similar views. See
FAIR v. Klutznick, 486 F. Supp. at 576-77 (three-judge court) (describing congressional debates); Stacy Robyn Harold, Note, The
Right to Representation and the Census, 53 WAYNE L. REV. 921,
923 & n.15 (2007) (collecting congressional debates); see also, e.g.,
1980 Census: Counting Illegal Aliens: Hearing on S. 2366 Before
the Subcomm. on Energy, Nuclear Proliferation & Fed. Servs. of
the S. Comm. on Governmental Affairs, 96th Cong. 12 (1980) (Senator Javits stating that the Constitution requires “the aggregate
number of inhabitants, which includes aliens, legal and illegal”).
18

91a
that excluding illegal aliens from the census and apportionment base would be unconstitutional, see Letter
from Thomas M. Boyd, Acting Assistant Attorney Gen.,
to Rep. William D. Ford (June 29, 1988) (reprinted in
U.S. GOV ’T PRINTING OFFICE, 1990 CENSUS PROCEDURES AND DEMOGRAPHIC IMPACT ON THE STATE OF
MICHIGAN, 240-44 (1988)), a position it reaffirmed one
year later, see Letter from Carol T. Crawford, Assistant
Attorney Gen., to Sen. Jeff Bingaman (Sept. 22, 1989)
(reprinted in 135 Cong. Rec. S22,521 (daily ed. Sept. 29,
1989)). And the Census Bureau itself has long “interpreted its constitutional charge and its statutory mandate to require counting every person [irrespective of
citizenship status] who has a usual residence in any
State.” Census Equity Act: Hearing on H.R. 2661 Before the Subcomm. on Census & Population of the
H. Comm. on Post Office & Civil Serv., 101st Cong. 68
(1989) (statement of Michael R. Darby, Under Sec’y of
Commerce for Econ. Affairs) (emphasis added); accord
Letter from Robert A. Mosbacher, Sec’y of Commerce,
to Sen. Jeff Bingaman (Sept. 25, 1989) (reprinted in 135
Cong. Rec. S22,522 (daily ed. Sept. 29, 1989)).
In fact, since 1929 (if not before), the consistent view
of both political branches has been that Section 2a, if not
the Constitution, requires the inclusion of all residents
in the apportionment base, without regard for their legal status. When pressed at oral argument to cite “any
instance, any support . . . in the historical record”
for the proposition that the President has discretion under Section 2a to exclude illegal aliens from the apportionment base, defense counsel came up empty. Oral
Arg. Tr. 46 (“We have not been able to identify any.”).
With admirable candor, albeit some understatement, he

92a
was compelled to concede that “[P]laintiffs’ best argument is history, and that cuts the other way.” Id. at 47.
With neither text nor history on their side, the only
thing Defendants have remaining is their assertion that
excluding illegal aliens from the apportionment base is
“more consonant with the principles of representative
democracy underpinning our system of Government.”
Presidential Memorandum, 85 Fed. Reg. at 44,680.
That is certainly a defensible (though contestable) proposition. But it is also irrelevant. The Constitution
gives to Congress the authority to regulate the census
and to reapportion the House. In exercising that authority, and delegating responsibility to the Executive
Branch, Congress adopted a different theory of Government, in which the House of Representatives represents
the whole population, not a subset of the population, and
there is “equal representation for equal numbers of people.” Wesberry v. Sanders, 376 U.S. 1, 14 (1964). The
President is not free to substitute his own view of what
is most “consonant with the principles of representative
democracy” for the view that Congress already chose.
The statutory command to use the “whole number of
persons in each State” as the apportionment base does
not give the President discretion to exclude illegal aliens
on the basis of their legal status, without regard for
their residency. In declaring that “it is the policy of
the United States” to do so, and commanding the Secretary to take steps to carry out that policy, the Presidential Memorandum deviates from, and thus violates, Section 2a.

93a
C.

Conclusion

In sum, the Presidential Memorandum deviates from,
and thus violates, the statutory scheme in two independent ways: first, by requiring the Secretary to include
in his Section 141(b) report a set of numbers other than
“[t]he tabulation of total population by States” under the
“decennial census” and contemplating reapportionment
based on a set of numbers other than “the whole number
of persons in each State . . . as ascertained under
the . . . decennial census of the population”; and second, by excluding illegal aliens from the “whole number
of persons in each State” that Section 2a(a) requires to
be used as the apportionment base.
As Defendants implicitly concede, it follows that
Plaintiffs are entitled to summary judgment on their
statutory claims pursuant to the ultra vires doctrine, a
cause of action that “is the creation of courts of equity,
and reflects a long history of judicial review of illegal
executive action, tracing back to England.” Armstrong
v. Exceptional Child Ctr., Inc., 575 U.S. 320, 327 (2015).
The doctrine provides that “[w]hen an executive acts ultra vires,” as is the case here, “courts are normally available to reestablish the limits on his authority.” Reich,
74 F.3d at 1328; see also Stark v. Wickard, 321 U.S. 288,
309-10 (1944) (“When Congress passes an Act empowering administrative agencies to carry on governmental
activities, the power of those agencies is circumscribed
by the authority granted. . . . The responsibility of
determining the limits of statutory grants of authority
in such instances is a judicial function entrusted to the
courts by Congress by the statutes establishing courts
and marking their jurisdiction.”); Am. Sch. of Magnetic
Healing v. McAnnulty, 187 U.S. 94, 108 (1902) (“The

94a
acts of all [executive branch] officers must be justified
by some law, and in case an official violates the law to
the injury of an individual the courts generally have jurisdiction to grant relief.”); Mountain States Legal
Found. v. Bush, 306 F.3d 1132, 1136 (D.C. Cir. 2002)
(“Courts remain obligated to determine whether statutory restrictions have been violated.”). In light of that
conclusion, we need not and do not reach Plaintiffs’ constitutional claims, let alone the Plaintiffs’ claims that did
not form the basis for their motion. Thus, Defendants’
motion to dismiss those claims under Rule 12(b)(6) of the
Federal Rules of Civil Procedure is moot.
REMEDIES

Having granted Plaintiffs summary judgment on
their statutory claims, we turn to the issue of remedies.
Plaintiffs seek a permanent injunction prohibiting all
Defendants—including the President himself—from implementing the Presidential Memorandum and a declaratory judgment that the Presidential Memorandum is
unlawful. See Gov’t Pls.’ Compl. 44-45; NGO Pls.’
Compl. 88-89.
A.

Injunctive Relief

It is well established that plaintiffs “seeking a
permanent injunction must satisfy a four-factor test
before a court may grant such relief.” eBay Inc. v.
MercExchange, L.L.C., 547 U.S. 388, 391 (2006). Specifically, they must show: (1) that they have suffered an
irreparable injury; (2) that remedies available at law,
such as monetary damages, are inadequate to compensate for that injury; (3) that, considering the balance of
hardships between the plaintiffs and defendants, a rem-

95a
edy in equity is warranted; and (4) that the public interest would not be disserved by a permanent injunction.
See id. But because “the government’s interest is the
public interest,” where, as here, the government is a party,
the last two factors merge. Pursuing Am.’s Greatness
v. FEC, 831 F.3d 500, 511 (D.C. Cir. 2016); accord Nken
v. Holder, 556 U.S. 418, 435 (2009).
Plaintiffs easily satisfy each factor and, thus, are entitled to an injunction. First and foremost, as discussed above, the census-related harms that Plaintiffs
have demonstrated would be irreparable absent an injunction. That is, because there are no census doovers, there would be no way to remedy them after the
fact. And even if there were a way to correct for them
after the fact, the harms, by their nature, are difficult, if
not impossible, to measure. See, e.g., Salinger v. Colting, 607 F.3d 68, 81 (2d Cir. 2010) (“Harm might be irremediable, or irreparable, for many reasons, including
that a loss is difficult to replace or difficult to measure.
. . .”). Making matters worse, the harms caused by an
inaccurate census would be felt for at least a decade, until the 2030 decennial census—if not longer. See, e.g.,
Baldwin Decl. ¶ 25 (explaining that because the State of
Washington relies on thirty-year population forecasts,
which requires “an indicator that goes back in time as
far as you are forecasting forward in time,” the “2020
census data will be used in forecasting until at least the
2050 census data is available, and probably longer”).
For much the same reason, the remedies available at law
would plainly be inadequate. See, e.g., New York v.
Dep’t of Commerce, 351 F. Supp. 3d at 675 (issuing an
injunction and finding that “the degradation of information . . . would be irreparable, without any adequate remedy at law”).

96a
Finally, the balance of the hardships and the public
interest both favor an injunction. Indeed, “[t]here is
generally no public interest in the perpetuation of unlawful agency action. To the contrary, there is a substantial public interest in having governmental agencies
abide by the federal laws that govern their existence and
operations.”
League of Women Voters of U.S. v.
Newby, 838 F.3d 1, 12 (D.C. Cir. 2016) (internal quotation marks and citation omitted). Moreover, both the
Supreme Court’s decision in Department of Commerce
v. House of Representatives—affirming the Eastern
District of Virginia’s permanent injunction against the
use of statistical sampling to enumerate the population
in the 2000 census—and the Second Circuit’s holding in
Carey—affirming a preliminary injunction requiring the
Census Bureau to process certain forms and to compare
its list of New York City residents against other government records—confirm that the public interest favors
an injunction in these cases. See House of Representatives, 525 U.S. at 344; Carey v. Klutznick, 637 F.2d 834,
839 (2d Cir. 1980). As the Second Circuit noted in
Carey, “the public interest . . . requires obedience
. . . to the requirement that Congress be fairly apportioned, based on accurate census figures. Furthermore, it is in the public interest that the federal government distribute its funds, when the grant statute is
keyed to population, on the basis of accurate census
data.” Id.
Defendants’ sole claim of hardship is that an injunction would “interfere with the Bureau’s ongoing process
by hindering agency efforts to refine its policies and to
apply its expertise.” Defs.’ Reply 2 (internal quotation

97a
marks and alterations omitted). 19 They do not elaborate further, but it is plain that they are not referring to
the operations of the census itself because, as noted
above, they repeatedly concede that the Presidential
Memorandum does “not in any way affect the conduct of
the actual census.” Id. Thus, Defendants must be referring to the Census Bureau’s ongoing efforts to figure
out how, if at all, to implement the President’s directive
in the Presidential Memorandum in time to meet the
statutory deadline for the Secretary’s report to the
President. See 13 U.S.C. § 141(b). But it is against
the public interest to comply with an unlawful directive.
And any suggestion that, in the event our decision is reversed on appeal, granting an injunction would hinder
the Census Bureau’s efforts to comply with the Presidential Memorandum by the deadline are undermined
by Defendants’ repeated assertions that “an erroneous
Referencing a point they made in passing in a footnote in their
opening brief, Defendants also argue for the first time in their reply that an injunction prohibiting the Secretary from transmitting
information would violate the Opinions Clause of the Constitution,
see Defs.’ Reply 11 (citing Defs.’ Mem. 42 n.17), which empowers
the President to “require the Opinion, in writing, of the principal
Officer in each of the executive Departments, upon any Subject relating to the Duties of their respective Offices,” U.S. Const. art. 2,
§ 2, cl. 1. A party may not raise an argument in a footnote or for
the first time in reply, so we deem the argument to be waived.
See, e.g., Norton v. Sam’s Club, 145 F.3d 114, 117 (2d Cir. 1998)
(“Issues not sufficiently argued in the briefs are considered
waived. . . . ”); Levine v. Lawrence, No. 03-CV-1694 (DRH)
(ETB), 2005 WL 1412143, at *5 (E.D.N.Y. June 15, 2005) (“[F]ailure
to adequately brief an argument constitutes waiver of that argument. . . . ”). In any event, ensuring that the Secretary complies with the mandates of Section 141(b)—and, by extension, that
the President complies with the mandates of Section 2a(a)—does
not run afoul of the Opinions Clause.
19

98a
or invalid apportionment number can be remedied after
the fact.” Defs.’ Mem. 48. Finally, any such hardship
to Defendants can be mitigated, if not eliminated, by
crafting the injunction—as we do below—to bar only the
inclusion in the Secretary’s Section 141 report of data
concerning the number of illegal aliens in each State and
to allow the Census Bureau to continue its research efforts.
Thus, a permanent injunction is warranted. In an
exercise of our discretion, however, we grant injunctive
relief against all Defendants other than the President.
The parties vigorously dispute whether and under what
circumstances a federal court can grant injunctive relief
against the President. Compare Defs.’ Mem. 44-45,
and Defs.’ Reply 14-15, with Pls.’ Reply 27 & n.13. At
a minimum, however, it is plain that the “grant of injunctive relief against the President himself is extraordinary, and should . . . raise[] judicial eyebrows.”
Franklin, 505 U.S. at 802. Thus, “[a]s a matter of comity,” if nothing else, “courts should normally direct legal
process to a lower Executive official even though the effect of the process is to restrain or compel the President.” Nixon v. Sirica, 487 F.2d 700, 709 (D.C. Cir.
1973) (en banc) (per curiam). That is particularly true
where the court can grant complete relief without enjoining the President, as is the case here. See, e.g.,
Franklin, 505 U.S. at 802 (“[W]e need not decide whether
injunctive relief against the President [i]s appropriate,
because we conclude that the injury alleged is likely to
be redressed by declaratory relief against the Secretary
alone.”); accord Evans, 536 U.S. at 463-64. In fact, if
anything, the need to enjoin the President himself is
even weaker here than it was in Franklin and Evans,
which were litigated after the President had transmitted

99a
his apportionment statement to Congress. For the plaintiffs in those cases to obtain meaningful relief, therefore,
the President himself would have needed to calculate a
new apportionment figure and to then submit a new report to Congress. Here, by contrast, enjoining Defendants other than the President (and granting a declaratory judgment, as discussed below) would provide
Plaintiffs with complete relief, as the President cannot
exclude illegal aliens from his apportionment calculations in his statement to Congress unless the Secretary
gives him the relevant information in the Section 141 report.
Accordingly, the Court enjoins all Defendants other
than the President from including in the Secretary’s report to the President pursuant to Section 141(b) any “information permitting the President . . . to exercise
the President’s discretion to carry out the policy set
forth in section 2” of the Presidential Memorandum—
that is, any information concerning the number of aliens
in each State “who are not in a lawful immigration status
under the Immigration and Nationality Act.” Presidential Memorandum, 85 Fed. Reg. at 44,680. Instead,
consistent with the Census Act, the Secretary’s Section
141(b) report shall include only “[t]he tabulation of total
population by States under” Section 141(a) “as required
for the apportionment of Representatives in Congress
among the several States,” 13 U.S.C. § 141(b)—that is,
“information tabulated according to the methodology
set forth in [the Residence Rule],” Presidential Memorandum, 85 Fed. Reg. at 44,680. 20 To be clear, as an

Separately, there is an active debate over the propriety of “nationwide” or “universal” injunctions. See, e.g., Dep’t of Homeland
20

100a
exercise of its discretion, the Court does not enjoin Defendants from continuing to study whether and how it
would be feasible to calculate the number of illegal aliens in each State. That ensures that in the event that
a higher court disagrees with our ruling (prior to the
Section 141(b) deadline), the Secretary will be able to
comply with the Presidential Memorandum in a timely
fashion.
B.

Declaratory Relief

In addition, we grant Plaintiffs’ request for declaratory relief. The Declaratory Judgment Act vests federal courts with discretion to “declare the rights and
other legal relations of any interested party seeking
such declaration, whether or not further relief is or
could be sought.” 28 U.S.C. § 2201(a); see Wilton v.
Seven Falls Co., 515 U.S. 277, 282 (1995). In exercising
that discretion, courts must consider (1) whether the
judgment will serve a useful purpose in clarifying or settling the legal issues involved; (2) whether a judgment
would finalize the controversy and offer relief from uncertainty; (3) whether the proposed remedy is being
used merely for procedural fencing or a race to res judicata; (4) whether the use of a declaratory judgment
Sec. v. New York, 140 S. Ct. 599, 600-01 (2020) (Gorsuch, J., concurring); Trump v. Hawaii, 138 S. Ct. 2392, 2425-29 (2018) (Thomas, J.,
concurring); see also Memorandum from the Attorney General to
Heads of Civil Litigating Components & United States Attorneys,
U.S. Dep’t of Justice, Litigation Guidelines for Cases Presenting
the Possibility of Nationwide Injunctions (Sept. 13, 2018), https://
www.justice.gov/opa/press-release/file/1093881/download. That debate has no relevance to this case, for many of the same reasons that
it had no relevance in the citizenship question litigation. See New
York v. Dep’t of Commerce, 351 F. Supp. 3d at 677-78. Not surprisingly, therefore, Defendants do not even raise the issue.

101a
would increase friction between sovereign legal systems
or improperly encroach on the domain of a state or foreign court; and (5) whether there is a better or more effective remedy. Dow Jones & Co. v. Harrods Ltd., 346
F.3d 357, 359-60 (2d Cir. 2003). “The existence of another adequate remedy does not preclude a declaratory
judgment that is otherwise appropriate,” Fed. R. Civ. P.
57, and we may grant declaratory relief “whether or not
further relief is or could be sought,” 28 U.S.C. § 2201(a);
see also Powell v. McCormack, 395 U.S. 486, 518 (1969)
(“[A] request for declaratory relief may be considered
independently of whether other forms of relief are appropriate.”).
In our view, a declaration that the Presidential Memorandum is unlawful “would serve a useful purpose here,
settle the legal issues involved, finalize the controversy,
and offer [Plaintiffs] relief from uncertainty.” Niagara Mohawk Power Corp. v. Hudson River-Black River
Regulating Dist., 673 F.3d 84, 105 (2d Cir. 2012). Indeed, an unambiguous declaration that the Presidential
Memorandum is unlawful because the President does
not have the authority to exclude illegal aliens from the
apportionment base would serve the further useful purpose of “reasurr[ing] people they will be counted for the
purpose of determining . . . congressional seats and
electoral votes,” Espinosa Supp. Decl. ¶ 8, thereby directly addressing the chilling effect on census participation that the Memorandum has caused. Cf. Foretich v.
United States, 351 F.3d 1198, 1215 (D.C. Cir. 2003) (“[A]
declaration will remove the imprimatur of government
authority from [the illegal a]ct. . . . ”). Such a declaration is particularly useful given that, for the reasons
we discussed above, we decline to enjoin Defendants

102a
from taking steps to research whether or how the Presidential Memorandum could be implemented. That is,
an unambiguous judicial declaration that the Presidential Memorandum is unlawful would help ensure that the
chilling effects on participation in the census are mitigated to the maximum extent possible.
CONCLUSION

There is no dispute that the President has “accustomed supervisory powers over his executive officers,”
Franklin, 505 U.S. at 800, and thus retains some discretion in the conduct of the decennial census and resulting
apportionment calculation. Nevertheless, where the
authority of the President (or other members of the Executive Branch) to act is derived from statutes passed
by Congress, the President must act in accordance with,
and within the boundaries of, the authority that Congress has granted. For the reasons discussed above, we
conclude that the President did not do so here and that
the Presidential Memorandum is an ultra vires violation
of Congress’s delegation of its constitutional responsibility to count the whole number of persons in each State
and to apportion members of the House of Representatives among the States according to their respective
numbers under 2 U.S.C. § 2a and 13 U.S.C. § 141. Accordingly, Plaintiffs’ motion for summary judgment with
respect to their statutory ultra vires claims is GRANTED,
Defendants(other than the President) are ENJOINED
as set forth above, and the Presidential Memorandum is
DECLARED unlawful. We need not and do not reach
the merits of Plaintiffs’ other claims and need not address their request, in the alternative, fora preliminary
injunction. Finally, Defendants’ motion to dismiss for

103a
lack of jurisdiction is DENIED and their motion to dismiss for failure to state a claim is DENIED as moot. 21
The Clerk of Court is directed to terminate ECF
Nos. 74 and 117 and to close this case. SO ORDERED.

We believe that this matter was properly heard by a three-judge
panel for the reasons set forth in Judge Furman’s request to thenChief Judge Katzmann for the appointment of such a panel. See
ECF No. 68. Nevertheless, mindful that the issue is not clear-cut
and that the Second Circuit has determined that it is jurisdictional,
see Kalson v. Paterson, 542 F.3d 281, 286-87 (2d Cir. 2008), we follow
the lead of prior three-judge panels by certifying that Judge Furman, to whom these cases were originally assigned, individually arrived at the same conclusions that we have reached collectively.
See Swift & Co. v. Wickham, 382 U.S. 111, 114 n.4 (1965) (noting with
approval that “[t]his procedure for minimizing prejudice to litigants
when the jurisdiction of a three-judge court is unclear has been used
before” (citing Query v. United States, 316 U.S. 486 (1942))); FAIR
v. Klutznick, 486 F. Supp. at 578 (three-judge court) (“District Judge
Gasch additionally certifies that he individually arrived at the same
conclusion that we collectively reached . . . out of abundant caution, so that in the event we are mistaken, an appeal can still be expeditiously taken in the appropriate forum.” (internal quotation
marks and citation omitted)); cf. Massachusetts v. Mosbacher, 785
F. Supp. 230, 238 n.6 (D. Mass.) (three-judge court) (“Because the
author of this opinion is the single district judge to whom this case
was initially assigned, this opinion stands as certification that the
author has individually arrived at the conclusions expressed collectively in the opinion and the judgment of this three-judge court.”),
rev’d on other grounds sub nom. Franklin v. Massachusetts, 505
U.S. 788 (1992).
21

104a
Dated: Sept. 10, 2020
New York, New York
/s/
RICHARD C. WESLEY
United States Circuit Judge
/s/
PETER W. HALL
United States Circuit Judge
/s/
JESSE M. FURMAN
United States Circuit Judge

105a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (RCW) (PWH) (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS

20-CV-5770 (RCW) (PWH) (JMF)
(Consolidated)
NEW YORK IMMIGRATION COALITION, ET AL.
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS

Filed: Sept. 10, 2020
FINAL JUDGMENT AND PERMANENT INJUNCTION

Before: RICHARD C. WESLEY, United States Circuit
Judge, PETER W. HALL, United States Circuit Judge,
JESSE M. FURMAN, United States District Judge
Pursuant to the Court’s Opinion and Order of September 10, 2020, it is ORDERED, ADJUDGED, and
DECREED as follows:

106a
FINAL JUDGMENT

Final judgment is entered for Plaintiffs and against
Defendants on Plaintiffs’ claims arising from an ultra
vires violation of 2 U.S.C. § 2a and 13 U.S.C. § 141
(namely, the Fifth Claim for Relief in the Governmental
Plaintiffs’ Amended Complaint and Count Two in the
NGO Plaintiffs’ Amended Complaint).
DECLARATION AND PERMANENT INJUNCTION

The July 21, 2020 Memorandum on Excluding Illegal
Aliens from the Apportionment Base Following the 2020
Census (the “Presidential Memorandum”), announcing
that it is the policy of the United States to exclude from
the apportionment base aliens who are not in a lawful
immigration status, is DECLARED unlawful as an ultra vires violation of Congress’s delegation of authority
to conduct the decennial census and apportionment calculation pursuant to 2 U.S.C. § 2a and 13 U.S.C. § 141.
The Secretary of Commerce in his official capacity,
the Director of the Census Bureau in his official capacity, the U.S. Department of Commerce, and the U.S. Census Bureau, and any successors to those offices, together
with their agents, servants, employees, attorneys, and
other persons who are in active concert or participation
with the foregoing, see Fed. R. Civ. P. 65(d)(2), are PERMANENTLY ENJOINED from including in the Secretary’s report to the President pursuant to Section 141(b)
any information permitting the President to exercise the
President’s discretion to carry out the policy set forth in
section 2 of the Presidential Memorandum—that is, any
information concerning the number of aliens in each
State who are not in a lawful immigration status under
the Immigration and Nationality Act.

107a
SO ORDERED.
Dated: Sept. 10, 2020
New York, New York
/s/
RICHARD C. WESLEY
United States Circuit Judge
/s/
PETER W. HALL
United States Circuit Judge
/s/
JESSE M. FURMAN
United States Circuit Judge

108a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20 Civ. 5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS

20 Civ. 5781 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS

v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS

Filed: Sept. 18, 2020
NOTICE OF APPEAL

Notice is hereby given that all defendants in the
above-named cases hereby appeal to the Supreme Court
of the United States from the final judgment entered
on September 10, 2020. This appeal is taken under
28 U.S.C. § 1253.

109a
Respectfully submitted,
JEFFERY BOSSERT CLARK
Acting Assistant Attorney General
AUDREY STRAUSS
Acting United States Attorney for the
Southern District of New York
ALEXANDER K. HAAS
Branch Director
DIANE KELLEHER
BRAD P. ROSENBERG
Assistant Branch Directors
/s/ DANIEL D. MAULER
DANIEL D. MAULER
(VA Bar No. 73190)
ELLIOTT M. DAVIS
(NY Reg. No. 4596755)
Trial Attorneys
U.S. Department of Justice
Civil Division, Federal Programs Branch
1100 L Street, NW
Washington, DC 20005
Phone: (202) 616-0773
Fax: (202) 616-8470
E-mail: dan.mauler@usdoj.gov
Counsel for Defendants

110a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770(JMF), 20-2630
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS

[Filed: Aug. 10, 2020]
DESIGNATION OF THREE-JUDGE PANEL
PURSUANT TO 28 U.S.C. § [2284](b)
ROBERT A. KATZMANN, Chief Circuit Judge:

Having received a request from United States District Judge Jesse M. Furman to appoint a three-judge
panel to hear the above-mentioned matter pursuant to
28 U.S.C. §2284(b)(1), I hereby designate United States
Circuit Judge Richard C. Wesley and United States Circuit Judge Peter W. Hall to serve as members of the
Court to hear and determine the action.

111a
IT IS SO ORDERED.
10th day of Aug., 2020
New York, New York
/s/ ROBERT A. KATZMAN
Chief Circuit Judge

112a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS

Filed: Aug. 7, 2020
REQUEST TO THE CHIEF JUDGE OF THE U.S.
COURT OF APPEALS FOR THE SECOND CIRCUIT
FOR APPOINTMENT OF A THREE-JUDGE PANEL
PURSUANT TO 28 U.S.C. § 2248(b)

JESSE M. FURMAN, United States District Judge:
On July 21, 2020, President Donald J. Trump issued
a memorandum (the “Presidential Memorandum”) announcing that “it is the policy of the United States to
exclude from the apportionment base aliens who are not
in a lawful immigration status” and directing the Secretary of Commerce to “take all appropriate action, consistent with the Constitution and other applicable law,
to provide information permitting the President, to the
extent practicable, to exercise the President’s discretion
to carry out th[is] policy.” Excluding Illegal Aliens

113a
From the Apportionment Base Following the 2020 Census, 85 Fed. Reg. 44,679, 44,680 (July 23, 2020). Plaintiffs in these consolidated cases challenge the Presidential Memorandum on various constitutional and statutory grounds. See ECF Nos. 34, 62. Among other
things, Plaintiffs in 20-CV-5781 (the “NYIC Plaintiffs”)
allege that the Presidential Memorandum violates 13
U.S.C. § 195, which provides that, “[e]xcept for the determination of population for purposes of apportionment of Representatives in Congress among the several
States, the Secretary shall, if he considers it feasible, authorize the use of the statistical method known as ‘sampling’ in carrying out the provisions of this title.” ECF
No. 62, ¶ 252 (emphasis in original) (quoting 13 U.S.C.
§ 195); see also id. ¶¶ 11, 16, 181, 251, 253-62.
On August 5, 2020, Plaintiffs filed a letter-motion requesting that this Court notify the Chief Judge of the
United States Court of Appeals for the Second Circuit
that a three-judge court should be designated to hear
these cases, pursuant to 28 U.S.C. § 2284. See ECF
No. 58. Last night, Defendants filed a letter stating
that they “do not oppose” the request. ECF No. 65.
To the extent relevant here, Section 2284 mandates that
a “district court of three judges” be convened “when an
action is filed challenging the constitutionality of the
apportionment of congressional districts.” 28 U.S.C.
§ 2284(a). More specifically, it provides that, “[u]pon
the filing of a request for three judges, the judge to
whom the request is presented shall, unless he determines that three judges are not required, immediately
notify the chief judge of the circuit.” Id. § 2284(b)(1).
The Second Circuit has held that Section 2284 is jurisdictional. See, e.g., Kalson v. Paterson, 542 F.3d 281,
286-87 (2d Cir. 2008).

114a
Plaintiffs’ request is GRANTED, substantially for
the two reasons set forth in their letter-motion. First,
although a challenge to the conduct of the decennial census alone does not necessarily fall within the statute’s
scope, even where it may have an effect on apportionment, see, e.g., Fed’n for Am. Immigration Reform
(FAIR) v. Klutznick, 486 F. Supp. 564, 577 (D.D.C.
1980), the Presidential Memorandum does not purport
to change the conduct of the census itself. Instead, it
relates the calculation of the apportionment base used
to determine the number of representatives to which
each state is entitled. To the extent that Plaintiffs
challenge the constitutionality of the Presidential Memorandum, therefore, it would seem that they are challenging “the constitutionality of the apportionment of
congressional districts.”
28 U.S.C. § 2284(a); see
Massachusetts v. Mosbacher, 785 F. Supp. 230, 234-38
(D. Mass.) (distinguishing, for purposes of three-judge
requirement, between challenges to “precursors to the
ultimate apportionment decisions” and “direct challenge[s] to apportionment itself”), rev’d on other grounds
sub nom. Franklin v. Massachusetts, 505 U.S. 788 (1992);
FAIR, 486 F. Supp. at 577-78 (explaining the threejudge requirement was intended to cover cases that “directly affect state reapportionment”). At a minimum,
the issue is close, and the Court cannot definitively conclude that “three judges are not required,” which is
enough to trigger the notification requirement. 28
U.S.C. § 2284(b)(1) (emphasis added).
Second, and in any event, the NYIC Plaintiffs allege
a violation of 13 U.S.C. § 195 on the ground that the
Presidential Memorandum requires “the use of the statistical method known as ‘sampling’ ” in connection with

115a
“the determination of population for purposes of apportionment of Representatives in Congress among the
several States.” 13 U.S.C. § 195; see ECF No. 62,
¶¶ 11, 16, 181, 251-62. Congress has provided a private
right of action to enforce that provision and has dictated
that any action brought under the provision “shall be
heard and determined by a district court of three judges
in accordance with section 2284 of title 28, United States
Code.” Departments of Commerce, Justice, and State,
The Judiciary, and Related Agencies Appropriations
Act, 1998, Pub. L. No. 105-119, §§ 209(b), (e)(1), 111 Stat.
2440, 2481-82 (1997) (“1998 Appropriations Act”) (codified at 13 U.S.C. § 141 note). The 1998 Appropriations
Act further provides that “[i]t shall be the duty of a
United States district court hearing an action brought
under this section . . . to advance on the docket and
to expedite to the greatest possible extent the disposition of any such matter.” Id. § 209(e)(2), 111 Stat. at
2482 (codified at 13 U.S.C. § 141 note).
Accordingly, and substantially for the reasons set
forth in Plaintiffs’ letter-motion, the Court respectfully
requests that the Chief Judge of the United States
Court of Appeals for the Second Circuit promptly appoint a three-judge panel to preside over the claims presented by this litigation. Should the Chief Judge of the
Second Circuit need any additional information or have
any inquiries, this Court is available at any time.

116a
RESPECTFULLY SUBMITTED.
Dated: Aug. 7, 2020
New York, New York
/s/ JESSE M. FURMAN
JESSE M. FURMAN
United States Circuit Judge

117a
APPENDIX F

1.

U.S. Const. Art. I, § 2 provides:

The House of Representatives shall be composed of
Members chosen every second Year by the People of the
several States, and the Electors in each State shall have
the Qualifications requisite for Electors of the most numerous Branch of the State Legislature.
No Person shall be a Representative who shall not have
attained to the Age of twenty five Years, and been seven
Years a Citizen of the United States, and who shall not,
when elected, be an Inhabitant of that State in which he
shall be chosen.
Representatives and direct Taxes shall be apportioned
among the several States which may be included within
this Union, according to their respective Numbers,
which shall be determined by adding to the whole Number of free Persons, including those bound to Service for
a Term of Years, and excluding Indians not taxed, three
fifths of all other Persons. The actual Enumeration
shall be made within three Years after the first Meeting
of the Congress of the United States, and within every
subsequent Term of ten Years, in such Manner as they
shall by Law direct. The Number of Representatives
shall not exceed one for every thirty Thousand, but each
State shall have at Least one Representative; and until
such enumeration shall be made, the State of New
Hampshire shall be entitled to chuse three, Massachusetts eight, Rhode-Island and Providence Plantations
one, Connecticut five, New-York six, New Jersey four,

118a
Pennsylvania eight, Delaware one, Maryland six, Virginia ten, North Carolina five, South Carolina five, and
Georgia three.
When vacancies happen in the Representation from any
State, the Executive Authority thereof shall issue Writs
of Election to fill such Vacancies.
The House of Representatives shall chuse their Speaker
and other Officers; and shall have the sole Power of Impeachment.
2.

U.S. Const. Art. II, § 2, cl. 2-3 provides:

He shall have Power, by and with the Advice and Consent of the Senate, to make Treaties, provided two
thirds of the Senators present concur; and he shall nominate, and by and with the Advice and Consent of the
Senate, shall appoint Ambassadors, other public Ministers and Consuls, Judges of the supreme Court, and all
other Officers of the United States, whose Appointments are not herein otherwise provided for, and which
shall be established by Law: but the Congress may by
Law vest the Appointment of such inferior Officers, as
they think proper, in the President alone, in the Courts
of Law, or in the Heads of Departments.
The President shall have Power to fill up all Vacancies
that may happen during the Recess of the Senate, by
granting Commissions which shall expire at the End of
their next Session.

119a
3.

U.S. Const. Amend. XIV, § 2 provides:

Representatives shall be apportioned among the several
States according to their respective numbers, counting
the whole number of persons in each State, excluding
Indians not taxed. But when the right to vote at any
election for the choice of electors for President and Vice
President of the United States, Representatives in Congress, the Executive and Judicial officers of a State, or
the member of the Legislative thereof, is denied to any
of the male inhabitants of such State, being twenty-one
years of age, and citizens of the United States, or in any
way abridged, except for participation in rebellion, or
other rime, the basis of representation therein shall be
reduced in the proportion which the number of such
male citizens shall bear to the whole number of male citizens twenty-one years of age in such State.
4.

2 U.S.C. 2a provides:

Reapportionment of Representatives; time and manner;
existing decennial census figures as basis; statement by
President; duty of clerk

(a) On the first day, or within one week thereafter,
of the first regular session of the Eighty-second Congress and of each fifth Congress thereafter, the President shall transmit to the Congress a statement showing
the whole number of persons in each State, excluding
Indians not taxed, as ascertained under the seventeenth
and each subsequent decennial census of the population,
and the number of Representatives to which each State
would be entitled under an apportionment of the then
existing number of Representatives by the method

120a
known as the method of equal proportions, no State to
receive less than one Member.
(b) Each State shall be entitled, in the Eighty-third
Congress and in each Congress thereafter until the taking effect of a reapportionment under this section or
subsequent statute, to the number of Representatives
shown in the statement required by subsection (a) of this
section, no State to receive less than one Member. It
shall be the duty of the Clerk of the House of Representatives, within fifteen calendar days after the receipt of
such statement, to send to the executive of each State a
certificate of the number of Representatives to which
such State is entitled under this section. In case of a
vacancy in the office of Clerk, or of his absence or inability to discharge this duty, then such duty shall devolve upon the Sergeant at Arms of the House of Representatives.
(c) Until a State is redistricted in the manner provided by the law thereof after any apportionment, the
Representatives to which such State is entitled under
such apportionment shall be elected in the following
manner: (1) If there is no change in the number of
Representatives, they shall be elected from the districts
then prescribed by the law of such State, and if any of
them are elected from the State at large they shall continue to be so elected; (2) if there is an increase in the
number of Representatives, such additional Representative or Representatives shall be elected from the
State at large and the other Representatives from the
districts then prescribed by the law of such State; (3) if
there is a decrease in the number of Representatives but
the number of districts in such State is equal to such de-

121a
creased number of Representatives, they shall be elected from the districts then prescribed by the law of such
State; (4) if there is a decrease in the number of Representatives but the number of districts in such State is
less than such number of Representatives, the number
of Representatives by which such number of districts is
exceeded shall be elected from the State at large and the
other Representatives from the districts then prescribed by the law of such State; or (5) if there is a decrease in the number of Representatives and the number of districts in such State exceeds such decreased
number of Representatives, they shall be elected from
the State at large.
5.

13 U.S.C. 141(a)-(b) provides:

Population and other census information

(a) The Secretary shall, in the year 1980 and every
10 years thereafter, take a decennial census of population as of the first day of April of such year, which date
shall be known as the “decennial census date”, in such
form and content as he may determine, including the use
of sampling procedures and special surveys. In connection with any such census, the Secretary is authorized to obtain such other census information as necessary.
(b) The tabulation of total population by States under subsection (a) of this section as required for the apportionment of Representatives in Congress among the
several States shall be completed within 9 months after
the census date and reported by the Secretary to the
President of the United States.

